<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   LEGISLATIVE BRANCH APPROPRIATIONS
                                FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                              FIRST SESSION

                                ________

                   SUBCOMMITTEE ON LEGISLATIVE BRANCH
                    ANDER CRENSHAW, Florida, Chairman
 STEVEN C. LaTOURETTE, Ohio         MICHAEL M. HONDA, California
 JO ANN EMERSON, Missouri           DAVID E. PRICE, North Carolina
 DENNY REHBERG, Montana             SANFORD D. BISHOP, Jr., Georgia 
 KEN CALVERT, California            

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                       Elizabeth C. Dawson, Clerk
                   Jennifer Kisiah, Professional Staff
                    Chuck Turner, Professional Staff

                                ________

                                 PART 2

                   FISCAL YEAR 2012 LEGISLATIVE BRANCH
                         APPROPRIATIONS REQUESTS

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
           LEGISLATIVE BRANCH APPROPRIATIONS FOR 2012--Part 2
                                                                      ?

                   LEGISLATIVE BRANCH APPROPRIATIONS

                                FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                              FIRST SESSION


                                ________

                   SUBCOMMITTEE ON LEGISLATIVE BRANCH
                    ANDER CRENSHAW, Florida, Chairman
 STEVEN C. LaTOURETTE, Ohio         MICHAEL M. HONDA, California
 JO ANN EMERSON, Missouri           DAVID E. PRICE, North Carolina
 DENNY REHBERG, Montana             SANFORD D. BISHOP, Jr., Georgia 
 KEN CALVERT, California            

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                       Elizabeth C. Dawson, Clerk
                   Jennifer Kisiah, Professional Staff
                    Chuck Turner, Professional Staff

                                ________

                                 PART 2

                   FISCAL YEAR 2012 LEGISLATIVE BRANCH
                         APPROPRIATIONS REQUESTS

                                   S

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 65-845                     WASHINGTON : 2011

                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\      NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\        MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia            PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia             NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New JerseyJOSE E. SERRANO, New York
 TOM LATHAM, Iowa                   ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri           JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                 ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho          DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas        MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida            LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana             SAM FARR, California
 JOHN R. CARTER, Texas              JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana        CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California            STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                 SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio         BARBARA LEE, California
 TOM COLE, Oklahoma                 ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida         BETTY McCOLLUM, Minnesota         
 CHARLES W. DENT, Pennsylvania      
 STEVE AUSTRIA, Ohio                
 CYNTHIA M. LUMMIS, Wyoming         
 TOM GRAVES, Georgia                
 KEVIN YODER, Kansas                
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    
                                    

               William B. Inglee, Clerk and Staff Director

                                  (ii)
?



                             C O N T E N TS

                               __________
                                                                   Page
Library of Congress..............................................     1

Government Accountability Office.................................    55

Architect of the Capitol.........................................    93

Government Printing Office.......................................   145

Congressional Budget Office......................................   179

Testimony of Members of Congress and Other Interested Individuals 
  and Organizations..............................................   201

U.S. House of Representatives....................................   285

U.S. Capitol Police..............................................   373

                                 (iii)


               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2012

                              ----------                              

                                          Friday, March 11, 2011.  

                          LIBRARY OF CONGRESS

                               WITNESSES

JAMES H. BILLINGTON, THE LIBRARIAN OF CONGRESS
ROBERT DIZARD JR., LIBRARY OF CONGRESS CHIEF OF STAFF
DEANNA MARCUM, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES

                   Opening Remarks--Chairman Crenshaw

    Mr. Crenshaw. I would like to call the meeting to order. 
This is the first hearing for fiscal year 2012 of the 
Legislative Branch Subcommittee of the Full House Committee on 
Appropriations. The total fiscal year 2012 budget request that 
we are going to consider is a little over $3.8 billion. That is 
about a $142 million increase, or 3.9 percent, over the current 
funding levels. This is going to be exclusive of the Senate. 
The Senate is about $1 billion which they will consider on 
their own. Our job is to determine the level of funding for the 
Legislative Branch and then make sure that we are accountable 
to the taxpayers and the people that we represent.
    Now I think most people know that our little corner of the 
world is the smallest amount of money among all the 
discretionary appropriations, about one-half of 1 percent. But 
that doesn't mean that we are going to have any less scrutiny 
over our appropriations process. As you all know, we went 
through a process, House Resolution 1, where we cut $100 
billion out of discretionary spending. Some people say it is 
$60 billion, depending on which numbers you use, but we started 
to end this culture of spending and tried to get back to a 
culture of savings. The Legislative Branch Subcommittee was 
part of that process. We shared in those difficult decisions, 
shared in some of the pain.
    As you all know, the members of this subcommittee cut the 
budgets of the leadership. We cut the budgets of the different 
committees about 5 percent. In fact, we cut the budget of the 
Appropriations Committee by twice that, and then we cut all the 
Members of Congress office accounts by 5 percent, just to be 
sure that we led by example and we shared in that pain.
    Now H.R. 1 is gone. We are still in the process of funding 
2011, but right now this is kind of the beginning of starting 
the funding for 2012. And I want to remind the members of the 
subcommittee that we are in a pretty difficult situation. I 
don't really need to remind anybody of that, that our fiscal 
issues here in the country are pretty mind-boggling. When you 
look at the fact that we are almost $14 trillion in debt, that 
is almost equal to our GDP, the total output of our economy. 
And so that is not a good situation to be in. We are at a point 
where we will experience another trillion-dollar-plus annual 
deficit and we can't sustain that forever. Everybody agrees 
with that, the Democrats and the Republicans alike. And then 42 
cents out of every dollar we spend we are borrowing. So 
everybody knows we have got to get a handle on this spending 
issue. That is going to help improve the economy. That is going 
to help improve jobs. So we are all in this boat together.
    So we want to begin that process today. I have been working 
with our Ranking Member, Mr. Honda. We worked well together at 
2:00 a.m. in the morning when we were going through the first 
20 hours of debate on H.R. 1, and we will keep working 
together.
    Mr. Honda. Yes, sir.
    Mr. Crenshaw. I want to thank the members of the 
subcommittee for being here today. At this time I want to 
recognize Mr. Honda for any remarks he might have.

                       Opening Remarks--Mr. Honda

    Mr. Honda. Thank you, Mr. Chairman. And it has been a 
pleasure to work with you and work out some of the kinks that 
we have been faced with. And I thought it was done well, Mr. 
Chairman.
    And Dr. Billington, I want to welcome you to the 
subcommittee to present the Library of Congress' 2012 request. 
And the Library has requested what, $666.7 million, an increase 
of 3.6 percent above fiscal year 2010. And as Dr. Billington 
likes to point out, the Library is the Nation's oldest Federal 
cultural institution and we should all be proud that it resides 
in this branch of government, and I am. The librarians are 
stalwarts of anti-censorship and the repository of knowledge 
and everything else. So I appreciate your mission. You allow 
Congress to operate in a transparent manner through the THOMAS 
Web site, giving our constituents the ability to see what we 
have voted on and read the legislation before Congress.
    The Library of Congress also supplements our staff through 
the Congressional Research Service, which received most of the 
Library's increase. The CRS request is $117 million, or 4.1 
percent, above fiscal year 2010. CRS provides invaluable 
analysis for Congress, including customized analysis of issues 
for individual Members. Members and staff rely on the 
professional staff at the Library to ensure we have the best 
available information on the pressing issues we face.
    Some may be surprised to know that the Library has the 
copyright responsibilities for the entire government. The 
Copyright Office budget request is $21.7 million, including the 
offsetting collections planned in fiscal year 2012. The budget 
supports the U.S. Copyright's office administration of 
copyright registrations and the acquisition of nonregistered 
copyright works published in the U.S. We want to ensure that 
the Library has the resources to promptly process claims as to 
not grow the copyright backlog. The budget request states that 
the Copyright Office ``will continue to develop functional and 
usability enhancements to the electronic Copyright Office 
system at a decreased rate due to budgetary impacts.'' Well, 
today I want to know what it will take to ensure that we do not 
go back to 2009 and keep people waiting for more than a year in 
some circumstances to have their copyright claim processed.
    So with that, I will conclude my statement and I look 
forward to Dr. Billington's opening statement.

                RETIREMENT OF CRS DIRECTOR DAN MULHOLLAN

    Mr. Crenshaw. Thank you. And before I turn to Dr. 
Billington, I wanted to just take a moment to acknowledge the 
upcoming retirement of one of your staff members sitting behind 
you there, Dan Mulhollan. He is the Director of the 
Congressional Research Service and he announced that on April 
3, of this year, he is going to be retiring. That is after 42 
years of dedicated service to the Congress. And so I just 
wanted to point out that he has been the Director of the CRS 
since 1994, and he has got a long distinguished career. But one 
of the things that jumped out to me, which was kind of 
interesting, is that he served, provided analytical support to 
the Senate Committee on Presidential Activities that was better 
known as the Watergate Committee. And so he has been around a 
long time. In addition, he was the Acting Deputy Librarian of 
Congress from 1992 to 1994. So I know that all the members of 
the subcommittee and the full committee certainly want to thank 
you for those 42 years of service. We appreciate it very much.
    Mr. Mulhollan. Thank you very much. I appreciate that.

              OPENING STATEMENT--THE LIBRARIAN OF CONGRESS

    Mr. Crenshaw. So, Dr. Billington, I will turn to you now 
for you to summarize your statement. We will insert your full 
statement into the record, and if you would like to introduce 
any of the staff that are here, the floor is yours.
    Dr. Billington. Thank you, Mr. Chairman, Mr. Honda, Mr. 
LaTourette, and members of the subcommittee.
    First of all, I will mention our excellent new Chief of 
Staff, Robert Dizard, who has been a member of the Library 
active in a whole variety of different capacities, in copyright 
and congressional relations and in library services, most 
recently. We are very fortunate to have him. And he is in 
charge of a whole new management agenda, trying to pull things 
together and realize more synergies and economies in the 
Library. So he is playing a special role.
    I think you have met all of our Executive Committee as well 
who are behind us and they will assist with the more detailed 
questions.
    The Congress of the United States has been the greatest 
patron of the library in the history of the world. Mr. 
Chairman, all of us at the Library of Congress are really 
deeply grateful that, for the last 211 years, Congress has 
created, sustained, and instructed its library, through good 
times and bad, to have made this institution into the world's 
largest collection of knowledge in almost all languages and 
formats, the closest thing to the mint record of American 
private sector creativity and innovation, and finally, the 
leading American public institution in both capturing transient 
information of importance on the Internet and at the same time 
sharing our collections online.
    The Library embodies key ideals on which this Nation was 
founded, the right of a free people to have unfettered access 
to the world's knowledge and to the record of our own citizens' 
creativity, and the necessity for a dynamic and productive 
people to have material incentives for innovation. In 
presenting our budget request for fiscal 2012, Mr. Chairman, I 
want to stress that what the Library is doing is now more 
important than ever for the United States of America as we try 
to live and work in the Information Age.
    Serving the Congress is the Library of Congress' top 
priority. The Library's Congressional Research Service has, as 
Mr. Honda has already pointed out, for almost a century 
embodied the distinctive American ideal of a knowledge-based 
democracy. CRS serves Congress exclusively. And the Library's 
Law Library also provides objective nonpartisan information and 
analysis to the First Branch of Government.
    Both our international economic competitiveness and our 
national security depend increasingly on knowledge and 
information that is drawn from every part of the globe. The 
Library of Congress is the mother lode of what you might call 
the Nation's strategic information reserve, that is essential 
for the work of the Congress and of other government agencies. 
Even as we speak, our Cairo office is systematically sending us 
in realtime the pictures, pamphlets, and social messaging of 
the current uprisings in the Middle East.
    The Library is making a unique and original contribution to 
the all-important crisis in K-12 education throughout America 
with its authoritative Internet outreach. We are currently 
delivering 24.5 million items free of charge, most of which are 
primary documents of American history and culture with 
dependable commentary by our curators. We also have now begun 
to include in our widely used Web services similarly unique 
documents from other world cultures, drawing from our own 
collections and from many of our 120 partner institutions from 
all over the USA and the world. We are also working with more 
than 185 other U.S. partners from 44 States and 37 national 
libraries on our congressionally mandated program for digital 
preservation of what is most important for the future. This is 
a very perishable world and a lot of very important things have 
to be kept.

                           FISCAL CHALLENGES

    Mr. Chairman, we want to responsibly address at the same 
time the massive fiscal challenges posed by the Federal 
deficit, of which we are all properly concerned. I would 
respectfully suggest that we have been working on this. For a 
number of years now, we have been submitting constrained 
budgets for which the committees have generally commended us. 
If we set aside the normal inflationary pay and price level 
increases that all agencies request, the Library in the last 4 
years has asked for program increases averaging only 2.3 
percent of the base budget; and for 2012, our budget request 
includes less than 1 percent in program increases. These are 
for two mission-critical needs, $2.7 million to sustain CRS' 
services, given the new challenges being posed by information 
that the Congress needs, and $2.8 million to improve security 
in our information technology and communications system. The 
great bulk, 77 percent of the overall 3.5 percent requested 
increase, is for the mandatory pay and price level increases of 
$18 million.
    Almost all library programs provide one-of-a-kind national 
resources and services that no one else in either the public or 
private sectors can reasonably be expected to replicate.
    Even under a best-case budget outlook, funding at the 
fiscal 2010 level for both the rest of fiscal 2011 and 2012 
would result in an effective budget cut of more than $31 
million, or 4.8 percent, against the fiscal 2010 base. This 
alone would require substantial program and staff sacrifices. 
And some of the reduction scenarios currently being proposed 
could cut to the bone and require us to take steps that not 
even past wars and depressions have forced the Library to 
consider in its 211-year history.
    We have scoped out what it would look like. If faced with 
major budget cuts, we would have to ask ourselves where we 
should cut the many core services that we uniquely perform. In 
our deacidification of brittle books and manuscripts, by far 
the biggest and most comprehensive in the country? Those items 
would then become unusable and disintegrate. In our cataloging 
and standards service that will increase the burden on already 
strained local and State libraries if our cataloging service 
has to be depleted? In providing fewer books and magazine 
titles free to 800,000 blind and physically handicapped 
Americans who generally read much more than sighted people?
    Even if we cut back our public services significantly, we 
would reluctantly also have to consider furloughing or cutting 
back on personnel. Our dedicated, experienced, and multi-
talented staff accounts for 63 percent of the Library's overall 
budget and 89 percent of CRS's. The Library is now doing far 
more work than in 1992, but with 1,076 fewer people on the 
staff. Half of those reductions have occurred just in the last 
5 years when we have been submitting modest budgets.

                          FT. MEADE, MODULE 5

    In conclusion, I should also say that we are critically 
dependent on sustaining this very successful collections 
storage program at Fort Meade, which is 9 years behind 
schedule, and we ask your approval of funds for construction of 
Module 5, which is included in the AOC budget.
    Mr. Chairman, Mr. Honda, Mr. LaTourette, and other members 
of the subcommittee, we are, as Mr. Honda pointed out, our 
Nation's oldest Federal cultural institution. The Joint 
Committee on the Library is the oldest joint committee of the 
Congress. So we go back to the founding. But we have now become 
part of the innovative infrastructure of America in the 
Information Age, with future and present uses that have hardly 
yet been fully exploited.
    I thank you again for your support of the Library and for 
your consideration of our fiscal 2012 budget request. And of 
course we will be glad to answer any questions.
    [The statement of the Librarian of Congress, Dr. 
Billington, follows:]

[GRAPHIC] [TIFF OMITTED] T5845P2A.001

[GRAPHIC] [TIFF OMITTED] T5845P2A.002

[GRAPHIC] [TIFF OMITTED] T5845P2A.003

                    ESSENTIALS VERSUS NON-ESSENTIALS

    Mr. Crenshaw. Thank you very much, Dr. Billington. We will 
start with some questions, and we will try to observe the 5-
minute rule. If there are more questions, we will go a round or 
two.
    But let me start by just asking you, I appreciate that you 
have looked hard at the services that you all are providing. 
These are the questions that I am going to be asking just about 
everybody that comes before this subcommittee and that being 
along the lines of, in these difficult economic times, I think 
we have got to do that against this backdrop of asking what is 
essential and what is nonessential in terms--I mean, where is 
the Federal role in all of these services? And that is kind of 
a fundamental question. It is almost like between wanting 
something and needing something. The need is something you have 
got to have. I would say that is an essential. Something that 
you want, maybe something you can do without. Nice to have but 
maybe you can do without it. That would kind of be 
nonessential.
    So that is kind of the first question that I think we all 
ought to be asking. And then when you get to the point where 
you are answering that question about essentials, then are you 
providing those essential services as effectively and as 
efficiently as you can? Because this is just not a time for 
business as usual. We are all going to have to do more with 
less.
    So with that kind of as a backdrop, tell me, when you go 
through this process, as you say you have done--and I 
appreciate that, these modest increases--what kind of questions 
do you ask your staff and yourself about your services in terms 
of what is essential, what is nonessential? When you kind of 
cut back in some of these areas, what goes into your thinking 
about how you can do more with less? Could you talk a little 
bit about that?
    Dr. Billington. Now let me start off, and then I will ask 
Mr. Dizard because he has been presiding over the new 
management agenda and the revision of our strategic plan for 
more than a year. And that is directed precisely at the 
question of realizing more synergies and economies by getting 
everybody to work together on this variety of services.
    The short answer to your question of what is essential is 
to say that there is almost nothing of the major things, even 
significant elements in our budget, that are not services that 
have been either directly mandated by the Congress by specific 
acts of Congress over the years or have come to be essential 
and counted on. I just itemized three things, but I could go 
down a much longer list--and indeed we have prepared it in the 
course of this--of all the different services.
    So what our general approach would have to be is to simply 
cut back more than the nearly 1,100 staff positions that we 
have already cut out and there have been 500 or so in the last 
year. So we would try to spread the grief more or less evenly. 
We would have to make some decisions. Generally speaking, we 
can't go very much further than say the 1.7 percent in the 
Senate version that is floating around or the 3 percent cut 
that has been one of the scenarios that we have been asked to 
discuss. And this is all of what we are discussing. Mr. Dizard 
will supplement what I have to say.

                            STAFF FURLOUGHS

    Generally speaking, the difficult part is that so much of 
our budget is personnel. And we would have to go into--if 
beyond the 1.7 or the 3 percent, we would have to go into 
furloughs, perhaps very serious furloughs. And if we went 
beyond that level, we would have to contemplate the unpleasant 
task that we have been able to avoid so far with our economy of 
simply releasing people. But I don't think there is a major 
service that I can identify. We have had this discussion, 
pretty candidly and pretty seriously, that we could offer as 
being something that is nonessential. I mean, they serve 
different people. The Copyright Office serves the creative 
community; the blind and physically handicapped----

                        ROLE OF OVERSEAS OFFICES

    Mr. Crenshaw. My time is about up. I want to, before I call 
on Mr. Honda--for instance, I know you have had a lot of 
overseas offices over the years. And some of those have been 
curtailed. I think now you only have six or seven. But is that 
something you look at when you say, do we really need to have 
an office in so many different cities around the world and now 
we have seven?
    Dr. Billington. It is only in six cities. And these cities 
are among the most important to the United States right now. In 
our Cairo office, our young Arabic-speaking person who has been 
evacuated is communicating in realtime. If you see the regular 
media, you will see only pictures of the masses of crowds. Our 
Cairo office is a major collector of the Arab world. Our 
Islamabad office in Pakistan is collecting remarkable things, 
beginning with the autobiography of Osama bin Laden, that 
weren't available otherwise.
    Mr. Crenshaw. I am going to go to Mr. Honda.
    Dr. Billington. These offices provide things that nobody 
else can get, including other agencies and other collection 
forces. So these we would be very reluctant to cut unless we 
want to cut off the supplies from these areas.
    Mr. Crenshaw. So you have been looking at them?
    Dr. Billington. We have certainly looked at them, but we 
need to keep looking.
    Mr. Crenshaw. Let me go to Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.

                      THE LIBRARY'S ASIAN DIVISION

    I think, Mr. Chairman, Dr. Billington was very accurately 
portraying the role of the Library and the entire division in 
terms of acquiring information for our use. And let me just say 
for the record that I believe that the chairman and I really do 
understand that you actually are an extension of things that we 
do need in terms of resources and knowledge and information. So 
having said that, I just wanted to ask for a quick update on 
the Asian Division. I understand that the acting chief of that 
division is not going to be there permanently. And I would like 
to know what the future of the Asian Division would be. And 
also, will the current acting division Chief be part of the 
search for the replacement of that position?
    Dr. Billington. Peter Young was very experienced and did 
remarkable work. In fact 14 new collections, documenting the 
Asian Pacific American experience were added just in the year 
2010. So this is a very dynamic division in terms of its 
collection and of course in terms of its outreach and its 
ability. The Jakarta office is one of the most effective and 
very well regarded. We certainly hope we can keep Mr. Odo for 
as long as we can. He is doing a marvelous job.
    Mr. Honda. Will he be engaged in helping search?
    Mr. Dizard. He will be on the selection panel.
    Dr. Billington. Oh, yes. Absolutely.

            REPRESENTING PACIFIC RIM ASIA IN THE COLLECTIONS

    Mr. Honda. And in view of your testimony in some of the 
other writings that the Pacific Rim Asia is a very more recent 
area of focus and it is an area that many of us have a very 
little bit of information on, so the need is great for 
acquiring information and those kinds of activities so that we 
have good intelligence, I was just wondering what are the 
current plans and future plans you have, given the fiscal 
picture that we have before us.
    Dr. Billington. Well, we examined a few years ago our whole 
Chinese collection. We now have special collection officers in 
various parts of China. Our China collection is the largest 
outside of the Chinese-speaking world, just as our Japanese 
collection is the largest outside of Japan. These collections 
are constantly being added to. We had a meeting of two former 
Secretaries of State of the United States and former Foreign 
Ministers of China not long ago in the Library, and we took the 
opportunity to show this contingent unique Chinese-language 
materials and some of the treasures of the Library of Congress. 
Our curators described the historic Chinese collection items 
speaking fluent Chinese.
    Mr. Honda. I get all that. I just want to know, what are 
the plans so you can tell us that this is an important area and 
we can't afford to, lessen our efforts out there because it is 
an area that we don't know too much about, even though we are 
constantly in contact.
    Dr. Billington. They have a very active program of bringing 
people in. Next week we will celebrate the Nowruz new year 
festival which is celebrated everywhere from Lebanon to the 
Xinjiang Province in the interior of China. It is an ancient 
custom. So we will have all the ethnic communities that 
participate in those parts. We are drawing very heavily on 
increasing our context with the ethnic communities that have 
their historic origins and knowledge so that we can get focused 
on bringing them together and getting them connected with our 
collection development.
    But I might ask Dr. Marcum, who is the head of Library 
Services, to just add on that because she has been 
systematically looking at this. We have excellent people in the 
Asian Division.

                COLLECTION DEVELOPMENT EFFORTS IN CHINA

    Dr. Marcum. In China, we have experiments underway now to 
find far more comprehensive ways of collecting materials 
throughout China, working with the scholarly community in China 
and American scholars. We have a North American organizing 
committee made up of librarians around the country in the 
United States and Canada and the National Library of China to 
begin to look at cooperative collection development programs to 
bring in more collections from China.
    Mr. Crenshaw. Thank you. We will come back. Mr. LaTourette.

                        LIBRARY'S BUDGET REQUEST

    Mr. LaTourette. Thank you, Mr. Chairman. And Dr. 
Billington, welcome. As I have in the past, I want to commend 
you and your team for the things that you are doing. I very 
much enjoyed the Library's traveling exhibits that toured the 
country this summer. One of them stopped in Twinsburg, Ohio and 
I had the chance to visit it with some of our school kids. And 
I met the husband and wife who were driving the semi around the 
country. It was really a nice experience.
    I think, as I also mentioned to you, I read the article in 
The Post about the jeweler up in McLean who collected the Civil 
War portraits from sales all over the place. And I am very much 
looking forward to the opening of that exhibit. And I think 
that is the kind of thing, the hallmark sort of thing that the 
Library is known for. And I congratulate you for doing it.
    We have talked before this hearing, and I have listened to 
your statement, and I have also listened to statements by the 
chairman and distinguished ranking member. And you know that in 
this environment, your budget is going in a direction other 
than other budgets are going, where as other people are coming 
in and asking for flat funding or less funding, your budget 
request has an increase. And I think when you make that 
request, from my standpoint, I am disappointed in some of the 
work we are doing around here because we don't distinguish 
between what I consider just to be spending and what I consider 
to be investments. I consider your work to be an investment. 
But I think it is incumbent upon you, if you want to be 
successful here today, to tell us why it is that when everybody 
else is experiencing cuts between 5, 10, 22 percent that you 
feel that the Library is justified to have this modest 
increase. And in that regard, you mentioned that most of it, 63 
percent, is in terms of wage increases that are mandatory. And 
then if you could talk about why those are mandatory.

                    MANDATORY PAY FOR LIBRARY STAFF

    The reason that is on my mind is the President of the 
United States has indicated that he wants a pay freeze for 
Federal employees for 5 years, which I think is goofy. I don't 
think you should be punished for working for the government. 
But regardless, that is where the bulk of the money is. If you 
could explain why those are mandatory, first of all.

                          CRS FUNDING REQUEST

    And then the next biggest chunk is for Mr. Mulhollan, about 
$5 million to hire new staff and for his pay increases. One of 
the things that always amazes me around here is we ask CRS and 
Mr. Mulhollan's staff for a lot of stuff and we complain when 
we don't get it fast enough. I assume that based on the LMI 
study that has been completed this recommendation in the budget 
is somehow based on what those findings were and what the 
additional needs might be at CRS.
    Dr. Billington. Well, I think the CRS request is not really 
an increase from past levels. It is to make up for the 
decreases that have been particularly severe there in recent 
years. They are not nearly up to where they were. But as you 
say, the questions are becoming more complex and these are 
mostly for scientific and financial analytic specialists. The 
scientific and technical component of issues is increasing. And 
they have a good knowledge base there but not enough to do what 
they need to do as quickly as necessary.

                        INVESTING IN INFORMATION

    On your bigger question of investment, this is classic 
investment in the sense that you do not know now what 
questions, say on the global scene, are going to be the most 
crucial ones. The overseas offices purchase to a large extent a 
catalog of exotic languages abroad to be able to reach the 
right materials. The autobiography in Arabic of bin Laden, for 
instance, was discovered in a Pashto speaking area. So you have 
to have wide-ranging competencies, and they are very hard to 
cut back on because you don't know in the future where the 
focus will be. Who would have thought Chechnya and Rwanda and 
even Afghanistan would be as important to America as they 
currently are. Of course the other thing is if you cut back on 
subscriptions that you have had for a long time, you don't just 
cut it back by one year, you cut it back by 50 percent in terms 
of the utility for Congress and the government. But these are 
investments. And nobody else--no other country is investing 
this way--this is a potential enormous advantage.
    If you ask, what is keeping our balance of trade better 
than it would otherwise be, it is because of the information-
based exports and having the complete file of copyright deposit 
in the United States and being able to offer the support to 
protect it on the international scene. These are investments.

                    MANDATORY WITHIN-GRADE INCREASES

    Mr. Dizard. I can answer, Mr. LaTourette, about the 
mandatory pay increases. You are correct on the cost-of-living 
adjustments. We are not applying those obviously. The greatest 
part of the mandatory is within grade increases, people who 
have earned another step in their pay. And then we have a 
smaller amount for increased retirement contributions in the 
FERS system and then some Foreign Service national pay for our 
overseas offices. It is mandated by the State Department.
    Mr. LaTourette. So these step increases, are you mandated--
they have to go into effect regardless if no one gets a cost-
of-living adjustment?
    Mr. Dizard. Right. If people perform at a satisfactory 
level for a certain period of time, they go up a step.
    Mr. LaTourette. And you have no discretion in that?
    Dr. Billington. We also can't control it, sir, if we have 
to have reductions. And we stand to risk losing precisely the 
people with the kind of extremely focused expertise that are 
needed to deal with the digital universe which we are trying to 
keep track of and preserve. That is a mandated function. We are 
supposed to quarterback a national program. And we are. So how 
do you cut out the quarterbacking function? It affects the 
whole program. More and more of the things we are doing, we are 
doing with partnerships; if we can avoid putting it on the 
appropriation, we do. But it is rather essential that the 
investment idea be understood and that the information-based 
and the knowledge-based and the creativity-based things are the 
things that are keeping us at the forefront of international 
competition in many, many areas.

                        CUTS AT OTHER LIBRARIES

    Also, the library community is suffering generally, whether 
public libraries in great cities or university-based libraries, 
they are facing much more severe cuts. The margin of what we 
will be able to have if we can continue pretty much as we have 
been doing will be a unique asset for future uses. You can't 
really determine what they will be. For example, having old 
railroad timetables, old telephone books. These are the basis 
for a lot of environmental research. You wouldn't think it. 
America is kind of a leader really in many respects in higher 
research and education. And these kinds of unique materials are 
an excellent source I think in this regard.
    Mr. LaTourette. I thank you and I thank the chairman for 
the patience. Sadly, I have to go to a steering committee 
meeting. But I thank you for your testimony and your 
observations. I would just say in some cases, being from 
Cleveland, the team might perform better without a quarterback 
from time to time. That is not universally the case. But thank 
you so much, Mr. Chairman.
    Mr. Crenshaw. Thank you. Mr. Bishop do you have questions?

                  OPEN SOURCE INTELLLIGENCE REPOSITORY

    Mr. Bishop. Thank you very much. I appreciate it very much. 
I am the son of a librarian. I grew up around libraries. I am 
particularly taken by the tremendous responsibility that the 
Library of Congress has in keeping our Nation, as well as, our 
Congress informed of vast information that exists across our 
continent. From studying my reading material, it seems to me 
that your function really provides a multiplier effect by 
everything else that we do. I am interested in finding places 
to cut our budget, because we do have a real serious fiscal 
crisis. At the same time, many functions that the Library of 
Congress performs are essential, and are often taken for 
granted. The Library of Congress provides essential information 
for so many walks of life. You are the basis, you are the 
source. If there is any place that perhaps should have a flat 
budget, if not an increase, it should be the Library of 
Congress.
    I served on the Intelligence Committee a few years ago, and 
one of the major sources of intelligence for our intelligence 
community, as well as for those who target us, is open source 
intelligence. An open source is any publicly gathered source of 
information. The Library of Congress is the largest repository 
of open source intelligence. Certainly the Library of Congress 
is a big help to our intelligence community. I understand that 
in the past you have been able to provide expertise in certain 
areas where even our military and our intelligence communities 
had some limitations. You were able to come up with some 
documents which if they had been examined closely, could 
possibly have given clues to the September 11th terrorist 
attacks, 9/11. Therefore, when we try to press and squeeze you 
to find a place to cut--there may be some places you would not 
have as the highest priority. I have seen your justifications 
for why you want to keep your budget at least flat. For 
instance, by adding the STEM people to help Congress analyze 
science, and mathematics, all of the highly technical data 
which is now so common in our existence, and adding Members of 
Congress which is essential. If we do not understand it, we 
can't do what we have to do, and if you do not have people that 
understand it, you can't properly catalog that information and 
prepare the reports that Congress requests. We are requesting 
more of these reports every session of Congress, because we 
need the information to make good decisions.
    I sympathize with the Catch-22 that you are in. We have the 
information and you have the information. You have to collect 
it and you have to preserve it. At the same time, we have to 
tighten your budgets. I ask you to look at whatever you can, 
but I can definitely sympathize because I see your great asset. 
I would like for you to share some of the maybe unknown things 
that you do with the resources that have been helpful for our 
country, the intelligence community and others.
    Dr. Billington. I will just say one thing and then turn it 
over to the Chief of Staff here. First of all, it is a very 
talkative world. There is a great deal of open source material 
that we need to know. It is better if it is sitting here in the 
Library of Congress. This tends to be a town in which people 
talk a lot and read very little, but we have 21 public reading 
rooms divided into regions of the world and forms of knowledge 
that are open and available. And to take an example, the only 
formal piece of paper that I am aware of that the 9/11 
Commission found in which a scenario of someone, a suicide 
mission, taking control of American planes and flying them into 
a symbolic building as if they were a cruise missile, was from 
a study made by a small division of the Library of Congress 
called the Federal Research Division, which does research 
mostly for DOD, intelligence, and so forth, using the Library's 
collections. And that was based on an open source description 
in a small, remote publication in the Arab world which was 
incorporated into a Federal Research Division study. That was 
the only thing that the 9/11 Commission I believe could find in 
which a scenario like that was described--they didn't predict 
the specific target or the specific people or any of that. But 
it didn't seem to register with anybody. It outlined what they 
had discussed publicly. And I think that is a small 
illustration of the fact that there is much more public 
discussion and even public availability and open source 
material available to us.
    Published material in the world has increased by 40 percent 
in the last decade. And of course the online material is 
exploding virally. Open source material is a major source for 
better understanding the economic problems as well as security 
problems of our country.
    I will turn it over to you.

                       FEDERAL RESEARCH DIVISION

    Mr. Dizard. I will just respond briefly on the open source. 
Much of the open source research is done by the Federal 
Research Division. And last year they did work for 27 different 
offices in 10 executive branch agencies, 10 different 
departments, and did quite a significant amount of work for the 
Director of National Intelligence Open Source Office, including 
work for their Korea-Japan office as well as for their Africa 
office. In the Africa office they did a series of six reports 
on terrorism in sub-Saharan Africa and southern Africa. They 
also did a major report for their Asian office on Indonesia, 
working with our Jakarta office.
    So getting to your broader point, this open source research 
and access, that is basically what the Library is--a major 
point of open source research. These individuals, there are 
about 30, extensively use our foreign language collections for 
executive branch agencies, and the Congress as well, to provide 
precisely what you were talking about, unique research using 
unique collections.
    Mr. Bishop. What would happen if you could no longer 
provide this service?

                      COPYRIGHT COSTS AND REVENUES

    Mr. Crenshaw. We are trying to get around. We will come 
back to that. I think Mr. Price is on his way. A couple of 
questions just about trying to do more with less, being 
efficient. I mentioned the different offices and you say you 
have looked at those. I wonder, for instance, if the Copyright 
Office, do the registration fees charged does that cover all 
the cost? Is that something that you looked at that could be 
adjusted? Or tell me how that works.
    Mr. Dizard. I can answer that. The registration fees are 
looked at every 3 years, and they are adjusted to cover a 
majority of the cost of the registration system. So the 
Copyright Office is mainly funded by fees. The licensing 
function is fully covered by royalties that are subsequently 
distributed. So we look at Copyright Office fees on a triennial 
basis and we do an economic study and submit it to Congress.
    Mr. Crenshaw. It is almost there or it is not quite there?
    Mr. Dizard. There is a balance. Since copyright 
registration is voluntary, there is always a balance between 
being prohibitively expensive and then that causes a decrease 
in the public record of copyright ownership. Also the Library 
relies on the Copyright Office for deposits of between $35 and 
$40 million a year. They come in for copyright registration. We 
don't have to purchase those works. So the Copyright Office, 
when you look at it in totality, is a----
    Mr. Crenshaw. But that is something you look at and adjust 
from time to time?
    Mr. Dizard. Exactly. We are in a pattern now of doing that 
every 3 years.

              CENTRALIZED VERSUS DISPERSED BUDGET FUNCTION

    Mr. Crenshaw. You have a central budget office. Also, it 
seems you have got financial budget personnel in Library 
Services, Law Library, Copyright Office, CRS, and Books for the 
Blind. Is there a way to consolidate some of those? You know 
when we are trying to figure out efficiency, those are just 
questions that come to my mind.
    Mr. Dizard. Okay. Our individual service units have budget 
offices, but they are relatively small and they are executing 
their own individual budgets, making more of the policy 
decisions and resource allocations decisions. Our main budget 
office is looking at managing the Library's overall financial 
systems. So we could look at that as a potential. But I am not 
sure there is a great amount of savings potential there.

                          IT SECURITY REQUEST

    Mr. Crenshaw. I see there is a $5.5 million request for 
information technology security that is I assume to broaden 
your research capabilities. What would happen if you didn't 
have that additional money? How would that impact your ability 
to do the things that you plan on doing?
    Mr. Dizard. Well, the information security requirement 
really isn't an option for us. We have to increase our security 
capabilities. So that would be something that we would have to 
do. I don't think that that is something we could let go. That 
affects every part of our business and our communications. So 
that is pretty much a mandate.
    Mr. Crenshaw. Does that mean you couldn't do more if you 
didn't have that extra $5.5 million of your function now 
without that? Are you saying there will be increased demands on 
that security part that you will need if you didn't have it? 
Does that limit your ability to----
    Mr. Dizard. What we have had to do this fiscal year up to 
this point in order to address those needs is to not do other 
projects or slow them down while we are addressing the IT 
security needs. And that is a mandatory.
    Mr. Crenshaw. Thank you.
    Mr. Price.

                     OPEN WORLD LEADERSHIP PROGRAM

    Mr. Price. Thank you, Mr. Chairman. I apologize for having 
to juggle two hearings this morning. But I appreciate the 
chance to see our friends from the Library, the assembled cast 
here, with many good things to say, I am sure. I want to focus 
on one of those things--a program that is not going to have a 
hearing of its own, and therefore, this is the opportunity to 
deal with it. The Open World Leadership Program is the most 
intensive exchange program dealing with former Soviet states, 
countries that have every reason to appreciate the chance for 
professional level contact with people in this country that 
aids in their own development, aids our relations, and is one 
of the Library of Congress' most innovative and worthwhile 
efforts. Admittedly, it is not what you would necessarily 
predict would be part of the Library's portfolio. It is a 
unique effort, and therefore sometimes is overlooked.
    Now, just like everything else, Open World is facing 
budgetary challenges. I think it is worthy of full 
congressional support within the legislative branch. I want to 
give our guests a chance to comment on this. Executive branch-
administered exchange programs are often driven by short-term 
policy goals. Open World is perceived differently. Part of that 
does have to do with its location in the legislative branch and 
in the Library of Congress. This program isn't conducted 
through a policy-driven agency. It is totally nonpartisan. It 
attracts a wider scope of participants, and it leverages U.S. 
hosts and builds civic engagements in ways that other programs 
have more difficulty doing. I have personally participated in 
the program in my district. I certainly can vouch for its 
effectiveness.
    So I want to ask about the assumptions behind the fiscal 
2012 request, which is for $12.6 million. I understand that it 
anticipates some modest expansions. But more generally, what 
can you tell us about the way this program is going, any 
significant breakthroughs or developments that are relevant to 
our considerations?
    Dr. Billington. I will just mention one brief thing and 
then bring up Ambassador O'Keefe, who runs the program, who has 
been running it very well.
    Let me just say briefly, I think that one of the most 
exciting breakthroughs on this has been that the Russians 
themselves have tried to bring them over. It is modeled on the 
1.5 percent of the Marshall Plan that was spent bringing young 
Germans over after World War II. It has been doing this. Now we 
have got about 13,000 Russian alumni, alumni from Ukraine, 
Georgia, the new Muslim republics. And they have these 
intensive stays. Hosts have been from every state, they have 
been here from every state in the union.

                       OPEN WORLD ALUMNI NETWORK

    Mr. Price. That is what I mean by intensive. What is the 
number again, the alumni number?
    Dr. Billington. Well, 13,000 from Russia. Then there is 
another 2,500 or so from Ukraine, Georgia and the new Muslim 
republics. All of the states of the former Soviet Union have 
sent over key leaders, young leaders. This is a leadership 
development program. It is not part of the Library of Congress. 
It has its own separate identity. I happen to be chairman of 
this board.
    But just to give you a couple of examples, the Russians are 
now recognizing that they want to bring some Americans over to 
help them. Somebody was in Montana and studied the constitution 
of the State of Montana and has gone back to help rewrite the 
constitution for Kyrgyzstan after their turmoil. Part of these 
little revolutions that are occurring. So there is direct input 
like that, but there is also indirect in the whole process of 
democracy building, whereby 16 percent of the support of the 
key members of the supreme court in Russia are alumni of this 
program, 10 percent of Duma are alumni of this program. They 
came over first as representatives of the local courts all over 
the place, and they are now going to higher places.
    Now the Russians brought over--related to Open World, 
spinning off from it--younger people, presidents of colleges, 
that are undergraduates, the younger generation. Our average 
age is 37, 38 years old. Now there are people in their early 
20s. It was a big hit and the Russians have tripled their 
support for doing this.
    So it seems to me it is the beginning of a breakthrough for 
something that could really be quite dramatic. And I happen to 
be working in my other capacity as Librarian of Congress with 
the Chief of Staff of the President of Russia on developing a 
whole new library system in Russia. And that has led to the 
repatriation of a lot of movies that we no longer have in this 
country but which we have already begun to do this that the 
Russians preserved this.
    But Open World is something that is a very original kind of 
thing because it is intensive. They stay in people's homes. 
That makes an enormous impression. They see the real America. 
They see how government works from the bottom up and from their 
periphery in. And that is something quite new in Russia. That 
is what de Tocqueville said was the secret in American 
democracy. He didn't believe it until he came and saw. They are 
coming and seeing it and piggybacking on important ideas, and 
they are able to do this because of the Library connection in 
the legislative branch of government.

                       NEW RUSSIAN LIBRARY SYSTEM

    So it is an unusual thing to do, but that unusualness is 
precisely the thing that is leading an autocratic society, 
autocratic traditions, to think that there is importance to 
people all over the place and to having citizen participation 
at the local level. That is what they are doing with this new 
library system. It will have branches in every state, every 
part of Russia whether it develops or not, whether it becomes 
electronic to produce openness that it is not being produced in 
the traditional media. So this is all a frontier step.
    Open World is run by a very small staff, with very small 
administrative apparatus. So the resources go into getting--
American communities also are donating a lot of money, almost 
as much as we are asking in appropriations for the program. So 
I think it is an important thing for America. Again, it is not 
in the Library of Congress, but it is in the leg branch of 
government and it is very important. It wouldn't work if it 
didn't represent the Congress of the United States. The Library 
originally had this program but now it has a mixed identity and 
a private-public board. 
    Mr. Price. Thank you, sir.
    Mr. Crenshaw. Mr. Honda.
    Mr. Honda. I thank Mr. Price because I was always curious 
about the Open World Program, and I think the chairman is 
correct that there are a lot of things that go on in the 
Library of Congress under your purview that a lot of Members, 
myself included, are not completely aware of.

            PROMOTING CONGRESSIONAL AWARENESS OF THE LIBRARY

    And I am going to go off subject for a second in the 
questions. It seems to me that if we are going to have an 
appreciation for the kinds of services this Library of Congress 
provides, the umbrella that you encompass, if it is to be 
appreciated by Members, new and old alike, there must be some 
way that we could look at how we orient our new Members and the 
more veterans also to the breadth of the information and the 
services that you do provide because perhaps the staff knows 
it. Maybe staff knows more than Members do on this. But if this 
kind of information is at our fingertips and we are not aware 
of it, it seems to me that some effort should be made in the 
orientation of our new Members and the staff just so that we 
understand why we are looking at a modest--well, no cuts and 
perhaps some modest increases in certain areas because it makes 
us more efficient and a better servant for our country and our 
constituents.
    It is just a thought. You don't have to answer it. It might 
figure out how they work with new Members.

                         PROGRESS WITH TELEWORK

    The issue of technology and telework and using technology 
to be able to make ourselves more efficient, I was wondering 
where we are at on that process. And in the past Chair Debbie 
Wasserman Schultz was very focused on putting telework policy 
into place in the CRS. Could you tell us where that is at and 
what feedback you may have from staff to this?
    Mr. Dizard. Each of our service units now has a telework 
program. And in the last pay period, about 600 staff 
teleworked. So we have about 16 percent of our staff who are 
teleworking, and that compares favorably to other Federal 
agencies.
    Mr. Honda. During the snow period, was there a peak in 
that?
    Mr. Dizard. Well, there is a new designation of unscheduled 
telework which the Executive Branch has implemented and we are 
figuring out whether we should implement a similar policy for 
snow days.

                           BUDGET FOR THOMAS

    Mr. Honda. And in the area of technology and sharing 
information, the Web site THOMAS was launched back in 1995 and 
it has been an exceptional success at providing the public with 
access to actions of Congress. How much are setting aside to 
support THOMAS, and what is the relationship of the Library of 
Congress with the Government Printing Office and for providing 
data to the site? Can you give us some information on that?
    Mr. Dizard. The THOMAS budget would be included--a great 
part of it would be included in our overall IT budget. I can go 
back and try to break that down for you. There is a lot of 
similar support between THOMAS and the congressional LIS 
system. But obviously your question about the Government 
Printing Office, they have been a partner with us as well as 
the House and the Senate in providing information for the past 
15 years. I think we are working with----
    Mr. Honda. The Printing Office, a lot of the cost of the 
work that they do is recovered through fees that they charge. 
Does that also help with the financial impact that the Library 
of Congress provides, continues to provide this kind of service 
for the public?
    Mr. Dizard. There are no transfers between agencies. But if 
it helps GPO, it helps us. As I said, we are partners.
    Mr. Honda. I hope that the community, the general public 
understands that through THOMAS they have access to the 
information in the Library of Congress right on their laptops. 
And it is a great, I think, resource that the general public 
should know about, to know they are getting a good bang for 
their buck that you are putting out. The chairman and I would 
like to be able to say that this is what you are getting for 
your dollar. That is important.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you, Mr. Honda. We have a vote coming 
up pretty soon, but let's finish this. I don't have any more 
questions. I have some that I will submit for the record. But 
Mr. Bishop, please, if you have some additional questions.

                   INFORMATION SHARING BY THE LIBRARY

    Mr. Bishop. I am just torn that the tremendous work you do 
is unnoticed and taken for granted. I was just thinking about 
the multiplier effect that you have in terms of information 
sharing with all of the libraries in the United States of 
America and of course our Armed Forces abroad. Is the Library 
of Congress the basic source of information for virtually every 
library? Is every library based upon your organizational 
system? If you were to reorganize the system, would this 
require every library in the country to reorganize its 
cataloging system?
    Dr. Billington. Yes. Everybody depends on the Library of 
Congress and it is widespread in the world more broadly. But it 
is essential for our own functioning of our library system. We 
also do free interlibrary loans. As I say, we have 24 million 
items online. So we are sharing a large amount of the Library 
with everybody. You can get that at home as well. But you are 
absolutely right. This needs to be used more. By the way, they 
have formed a Library of Congress Caucus to help develop better 
awareness. New Members are given an intensive long exposure in 
Williamsburg with their families that CRS arranges for every 
crop of new Members of Congress. But the idea of more 
orientation, more awareness, we are ready to respond to 
anything you ask. That is one reason we are sending this 18 
wheeler truck with a little miniature Library of Congress 
around to the smaller towns' and bigger towns' libraries to 
know about us, and they will be benefiting more because their 
budgets are being reduced.

                   PRESERVATION OF ORIGINAL MATERIALS

    Mr. Bishop. You want more money because you need more 
storage space. Now everybody is trying to go paperless and we 
are trying to reduce the footprint for storage. Please offer 
the best arguments for why we should be keeping things instead 
of trying to preserve it in a digital form.
    Dr. Billington. Because the digital form doesn't preserve 
things very well, we have to preserve it in its original form 
for a whole lot of reasons. But most importantly, we are 
increasingly aware of the vulnerability of digital material but 
also the impermanence of it. It is the magnetic tape or 
whatever it is on where the zeros and ones are recorded 
physically. You have to keep migrating the digital material. 
And as we are learning more and more about its vulnerabilities, 
it is never going to be entirely tamper-proof. There are all 
kinds of cybersecurity problems which we are addressing, we 
really have to address if we are going to keep using digital 
material.
    Mr. Bishop. Is part of your request for cybersecurity?
    Dr. Billington. Yes. But at the same time, somebody has to 
keep the original version. If you don't keep the original 
version of music, for instance, you will end up with nothing 
but elevator music left because things get modified, changed. 
That is why Congress decided to keep a National Film Registry, 
National Sound Registry. We are the most creative country in 
the history of the world. More than 6 million pieces of sheet 
music in the copyright depository, but all of this stuff has to 
be acquired, preserved and made accessible. Those are the 
fundamental things that we do, and that is what that means, 
that if it is going to be preserved, you have to have it in 
correct preservation format.
    Mr. Bishop. Well, if preservation is concerned----
    Dr. Billington. It was publicized where an individual went 
and altered a document to enhance his bona fides as a 
historian.
    Mr. Bishop. Is that going to cost you additional funds in 
order to make sure that does not happen again? Is this going to 
require an increase in budget? Could you just utilize security 
measures that you already have in place?
    Dr. Billington. It depends on what new threats emerge but 
there is an inherent vulnerability that is not present in the 
physical. That is why we continue to house 147 million analog 
items. When we digitize something, we don't throw away the 
original. We got Amazon to give us some pro bono advice years 
ago about whether there is any way we can avoid all of this 
storage space? And they said there really is not, given your 
mission, given what you are supposed to do, to gather in the 
world's knowledge and not only acquire it but preserve it and 
make it accessible.
    So this is an insurance policy. We also have backups. We 
are doing everything we can in the digital world, and the 
support this committee has given us in the past has enabled us 
to back up our digital material. Even so, there is an inherent 
vulnerability. Also, the method of decoding changes all the 
time. And suddenly the material that is recorded as zeros and 
ones is perishable, but the way decoding is, you could be left 
only with a lot of zeros or ones and the early digitized stuff 
is now lost forever. That is why Congress mandated 10 years ago 
that we get into this business of preservation.

                            CLOSING REMARKS

    Mr. Crenshaw. Thank you. Mr. Honda, do you have any more 
questions? Because I don't.
    Mr. Honda. Not in this area, but I understand we are going 
into the next area.
    Mr. Calvert. I apologize for being late. I had other 
commitments. But I appreciate your coming here this morning. I 
appreciate your testimony. And if I have any additional 
questions, I will submit them for the record, Mr. Chairman.
    Mr. Crenshaw. Thank you. We thank you for being here. Thank 
you for your testimony. I appreciate it very much. And we look 
forward to working with you.
    [The statement of the Acting Register of Copyrights, Ms. 
Pallante, follows:]

[GRAPHIC] [TIFF OMITTED] T5845P2A.004

[GRAPHIC] [TIFF OMITTED] T5845P2A.005

[GRAPHIC] [TIFF OMITTED] T5845P2A.006

[GRAPHIC] [TIFF OMITTED] T5845P2A.007

[GRAPHIC] [TIFF OMITTED] T5845P2A.008

[GRAPHIC] [TIFF OMITTED] T5845P2A.009

[GRAPHIC] [TIFF OMITTED] T5845P2A.010

[GRAPHIC] [TIFF OMITTED] T5845P2A.011

    [The statement of Director of CRS, Mr. Mulhollan, follows:]

    [GRAPHIC] [TIFF OMITTED] T5845P2A.013
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.014
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.015
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.016
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.017
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.018
    
    Mr. Crenshaw. I have some questions I will submit to be 
answered for the record. Also, there are questions for the 
record from Mr. Honda, Mr. Price and Mr. Bishop.
    [The questions and responses follow:]

    [GRAPHIC] [TIFF OMITTED] T5845P2A.019
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.020
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.021
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.022
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.023
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.024
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.025
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.026
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.027
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.028
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.029
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.030
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.031
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.032
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.033
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.034
    
                                            Friday, March 11, 2011.

                 U.S. GOVERNMENT ACCOUNTABILITY OFFICE

                                WITNESS

HON. GENE L. DODARO, COMPTROLLER GENERAL

                  Chairman Crenshaw's Opening Remarks

    Mr. Crenshaw. We will now move onto the second part of this 
hearing this morning.
    We have with us Mr. Gene Dodaro, who is head of the 
Government Accountability Office. And I want to welcome the 
Comptroller General to our committee.
    Gene was sworn in as the eighth Comptroller General of the 
United States on December 30th, 2010. He is the first GAO 
career employee to be confirmed to the position, and that is in 
89 years. So, congratulations for that.
    This year, your request for FY 2012 is $556.8 million. That 
is equal to the appropriation under the continuing resolution.
    So we want to thank you for recognizing the need for fiscal 
discipline. We have talked a lot about that this morning. We 
look forward to working with you.
    Your office is kind of called the investigative arm of 
Congress, you know, the congressional watchdog. And your job is 
to kind of help improve some of the things that we are talking 
about in the midst of this economic problem: efficiency, 
effectiveness.
    In fact, one of the things that I know that a lot of people 
don't know, is that when we appropriate $1 to you, that you 
return $87 on that investment. And I am tempted to say, we will 
give you $1 billion and maybe we will just solve all our 
problems. But, I know it is not that easy.
    But we are trying to be better stewards, and we appreciate 
what you do. And so, I want to thank you for your hard work.
    And, at this time, I want to turn to the ranking member, 
Mr. Honda, for any remarks he might have.

                 Ranking Member Honda's Opening Remarks

    Mr. Honda. Thank you, Mr. Chairman.
    And I share the same sentiments that the chair has. And I 
hope that folks understand that the chair has been working very 
hard to make sure that we maintain the level of services as 
much as possible under the weight of the kind of expectation 
there is in cutting things.
    But I think that, on top of being the watchdog, I 
understand that your area is considered the best place to work. 
So, you know, besides $87 to $1, the best place to work, if you 
were a city, then you would probably be one of the best cities 
to live in and safest cities to live in.
    One of the things I was concerned about is, we constantly 
make demands of GAO, in terms of studies, when we go through 
our different committees. And that is across all the committees 
that we sit on. And so, my concern is that you are able to 
fulfill that function and be able to address the kinds of 
concerns that Members of Congress, in whatever role that they 
are playing, whatever responsibilities they have, when they ask 
for GAO reports, that you have the wherewithal and the 
resources to be able to do that.
    And hopefully that, if there is any backlog on the fiscal 
side, that, we become aware of that, so we know that we are 
going to be able to pay for what we ask. And so, if you have 
any comments regarding that in your presentation, I would be 
very interested in hearing that.
    Beyond the budget challenges, Mr. Dodaro, I want to applaud 
your work in dealing with long held issues at GAO with respect 
to disparity in performance ratings experienced by African 
American employees. I hope you can give us an update on your 
progress in this area. Something must be working at GAO, I 
understand that your agency was once again named one of the 
``Best Places to Work'' in the federal government by the 
Partnership for Public Service. Given your role in reviewing 
problems at other agencies it is important that GAO establish 
itself as an exemplary workplace. I am glad you seem to be 
succeeding in doing just that.
    Thank you, Mr. Chairman.

    Update on Disparities in Performance Appraisals Between African 
                      American and White Employees

    We have continued to monitor the outcomes from our performance 
appraisal system and determined that there are still disparities 
between African American and white employees but the frequency and 
magnitude of the disparities are substantially less than several years 
ago. We are addressing the rating disparities through our strategic 
focus on creating and maintaining an inclusive and fair work 
environment, as well as through our efforts to overhaul our performance 
appraisal system which is well underway.
    We have continued our reviews of employee performance appraisal 
data. For example, in fiscal year 2010, the Special Assistant for 
Diversity Issues and the Managing Director for Opportunity & 
Inclusiveness reviewed performance appraisal data by protected class 
for consistency and provide reasonable assurance that the systems were 
operating in a fair, merit-based and non-discriminatory manner. Where 
concerns were noted, the Special Assistant for Diversity Issues 
conducted individual assessments, and if necessary, met with senior 
managers in an effort to reconcile any concerns regarding the 
sufficiency of merit-based support for appraisals and resolve any 
issues.
     In support of diversity and inclusion generally, we have 
instituted several efforts such as (1) issuing annual workforce 
diversity plans that summarize the diversity of our workforce, outcomes 
from key human capital processes, and views of our employees; (2) 
meeting regularly with union and employee group representatives; (3) 
training all staff on diversity and inclusion issues; and (4) using 
recruitment approaches that reach broad and diverse candidates. To 
improve our performance appraisal system, we completed a comprehensive 
review and based on the findings from this review we plan to place 
greater emphasis on communication, feedback, accountability, and 
employee development than is a part of our current system. We will 
continue to monitor performance appraisal data and other key data and 
continue to emphasize the importance of having a diverse workforce and 
an inclusive work environment at GAO. We are hopeful that these efforts 
will lead to a performance management system where there are no 
disparities between African Americans and whites in performance 
appraisal scores.

    Mr. Crenshaw. Thank you.
    Mr. Dodaro, we will submit your written statement for the 
record, and we would be happy to hear you summarize your 
testimony and introduce any of the staff that you have with you 
today.
    [The statement of the Comptroller General follows:]

    [GRAPHIC] [TIFF OMITTED] T5845P2A.035
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.036
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.037
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.038
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.039
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.040
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.041
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.042
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.043
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.044
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.045
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.046
    
                      Mr. Dodaro's Opening Remarks

    Mr. Dodaro. Thank you very much, Mr. Chairman. Good morning 
to you, Ranking Member Honda, Congressmen Bishop and Calvert. 
It is nice to see all of you here.
    I have with me today our Chief Operating Officer, Patricia 
Dalton; our General Counsel, Lynn Gibson; and our Chief 
Administrative Officer, David Fisher.
    In light of time constraints and to make sure I understand 
all of your questions and get the chance to answer them, I just 
want to make four fundamental points briefly here this morning: 
First would be the nature and scope of our support to the 
Congress; second, the return on investment that the taxpayers 
and the Congress get back from their investment into GAO; 
third, the importance we place on having a skilled, motivated, 
diverse, dedicated workforce; and fourth, the rationale for the 
submission that we made to the Congress.
    First, on the nature and scope: GAO serves every standing 
committee of the Congress, and, in recent years, 70 percent of 
the subcommittees have submitted requests. We work with them, 
Congressman Honda, to understand their priorities. We have more 
requests for our services than we can get to in a timely 
manner, but we work with requesters to address their highest 
priorities.
    We work on and testify before Congress, on average, about 
200 times a year. In fact, next week, we are appearing at 13 
hearings before the Congress, on everything ranging from the 
Flood Insurance Program to cybersecurity. We focus both in-
depth on individual programs and agencies, but also have a 
government-wide perspective.
    We just issued two reports that I would note to this 
committee. One is the update on our High-Risk List, where we 
look across the Federal Government's portfolio of programs and 
identify areas that we think are at highest risk of fraud, 
waste, and abuse for mismanagement and also in need of broad-
based transformation. Last week, we also just released a report 
on overlap, duplication and fragmentation in the Federal 
Government, pointing out 81 areas where there are opportunities 
for billions of dollars in cost savings.
    Both the efforts on high-risk and overlap/duplication offer 
the opportunity for Congress and the administration to focus on 
areas that could reap billions of dollars of savings and 
improve the performance and accountability of the Federal 
Government.
    On return on investment, as you mentioned, Mr. Chairman, we 
returned last year $87 for every dollar spent on GAO in 
financial benefits, in terms of cost savings or opportunities 
to gain revenues or better use of Federal resources. Actually, 
our rolling 4-year average has been $94 to $1.
    We also issue hundreds of reports and testimonies each year 
to help inform the Congress. Last year, we had over 2,000 
recommendations. Our recommendations are implemented at about 
an 82 percent rate over time. We are very pleased that our 
recommendations are constructive and put into place and we can 
then produce these types of benefits.
    In addition to the financial benefits, we have had over a 
thousand other documented benefits last year in improved 
services to the public or improved government operations. For 
example, helping to improve the oversight over the safety of 
nursing homes is just one example. We make a lot of 
recommendations to improve the performance and ensure the 
accountability of government for the benefit of the American 
people.
    We achieve these benefits through having a very dedicated, 
talented workforce. Our staff are trained in all sorts of 
disciplines, ranging from financial auditors to IT specialists 
to subject-area specialists in health care, defense, et cetera.
    We spend a lot of time working with our employees getting 
feedback. As you mentioned, Congressman Honda, we were ranked 
among the best places to work in government, and that has been 
consistent for a number of years. We have good, constructive 
working relationships with our union and with our employees. I 
am very pleased that we have that relationship and that we have 
a workforce that is really dedicated to supporting the Congress 
and carrying out its constitutional responsibilities. I would 
be happy to talk a little bit more about that in the Q`As.
    As the auditor of the government's consolidated financial 
statements, we well recognize the fiscal pressures facing the 
Federal Government. We believe we came in with a prudent 
request. As you mentioned, Mr. Chairman, we are asking for 
level funding. With that funding level, we believe we can work 
with the Congress to meet their greatest and highest-priority 
needs, particularly in this time of fiscal stress and demands, 
to try to do our part to help Congress get the country on a 
more sustainable fiscal path without sacrificing as much in 
services as might otherwise need be.
    If our funding would be below that level, we would have 
difficulty. We would have to reduce our staffing. That would 
mean we would do fewer requests for the Congress, and it would 
take us longer to be able to complete them. We can talk more 
about that.
    I appreciate the opportunity to be here today to discuss 
our request with you. I know this committee will give it 
careful consideration, and I thank you for that.

                          IMPROVING EFFICIENCY

    Mr. Crenshaw. Thank you for your testimony.
    And in the atmosphere in which we are operating today, your 
corner of the world becomes even more important. We thank you 
for the work that you do. Thank you for recognizing, as you 
would be expected to do, the difficulty of the situation, to 
come in and say, ``We are going to ask for what we had last 
year.'' And I know that requires some efficiency, but that is 
what you specialize in.
    So maybe, could you tell us one or two things--because this 
is what we are going to ask a lot of people who come before 
us--how you are doing it more efficiently, how you are doing it 
more effectively, how you are doing more with less? What are 
some of the things that you did to be able to give the kind of 
essential service that you give but do it in a more efficient 
way?
    Mr. Dodaro. We have tried to reduce the cost of operating 
our facilities. For example, we put in more energy-efficient 
lighting. We installed a boiler to create our own steam. We 
used to buy steam from GSA. We have made some other adjustments 
in the building to reduce some of the normal cleaning 
activities and other investments.
    We have postponed some needed investments in IT and 
facilities. Our GAO building is a 60-year-old building; some of 
the systems are coming to the end of their useful life. We put 
in a new fire alarm system because that was a safety issue, but 
we have deferred other system upgrades.
    We have focused with our staff on reducing travel. We use 
videoconferences more to cut down on our travel costs. We are 
looking at a number of activities to cut back and have tried to 
pare back as much as we can.
    We also knew we were going to be in this position, so we 
scaled back our hiring last year from what we would normally 
have done, because 80 percent of our costs are personnel costs. 
We can control some of these other costs and become more 
efficient. We have to be able to do that. Also, this year, we 
have not replaced the people that were leaving until we know 
what our budget is going to be for this year.
    Cutting back personnel costs, focusing on our fixed costs 
and bringing them down as far as we can, and postponing some 
investments are the way we are trying to conserve the resources 
necessary to be able to--once we have a budget for this fiscal 
year, figure out what staffing levels are appropriate given the 
demand for our services.
    On average, we receive between 900 and 1,000 requests a 
year from Congress. We work to prioritize those. Once we have 
our budget for this year, we will be able to size our staffing 
levels appropriately.

                       ROLE OF GAO FIELD PRESENCE

    Mr. Crenshaw. Well, you do these studies about efficiency 
and duplication. And I assume that you do that for yourself, as 
well. You ought to be experts in that.
    I noticed you have a field office in Los Angeles and you 
have a field office in San Francisco. Is that something you 
look at to say, could we consolidate that, or would that save 
on travel? Are those the kinds of things that you look at 
internally?
    Mr. Calvert. Or move it all down to L.A.
    Mr. Dodaro. We periodically look at our field office 
structure. Right now, we have 11. Not too long ago, we had 
about 40 or 50. We have about 25 percent of our people there.
    The field is important for us to be able to get out 
firsthand and do observations wherever they are, such as 
wildfires in California or other issues where we need to be on-
site. The field also helps us to have a diverse workforce, 
because not everybody wants to work in Washington, and we get 
some great people out there.
    We periodically look at our field structure, Mr. Chairman. 
For example, a few years ago, we closed our office in Kansas 
City. With modern telecommunications and travel, we can update 
our assessment.
    I would prefer deferring those reviews until we know what 
our budget situation is.
    Mr. Crenshaw. Okay. Thank you.
    We are going to try to stick to the 5-minute rule. There 
are going to be votes coming up pretty soon.
    But let's go now to Mr. Honda.

                 GAO'S STRATEGY FOR ADDRESSING MANDATES

    Mr. Honda. Thank you.
    I think you have touched on some of the concerns that I 
have had, but there was a mandate from the Senate to do audits 
of our agencies. Can you give us an update on where we are at 
with that and how we can maintain the support level in order 
for you to be able to do the important work that we need to do 
in process of auditing? This is where we are able to find the 
waste, fraud, and abuse.
    Mr. Dodaro. Thank you for that question.
    We have a number of mandates to look at overlap and 
duplication and efficiency in operations in programs across the 
Federal Government.
    For example, the report we just issued on overlap and 
duplication was built on work we had done for over half the 
committees in the Senate and half of the committees in the 
House. We tried to do work that meets multiple objectives.
    Many of our requests have multiple congressional requesters 
from the same committee, and often from other committees. Many 
of them are bipartisan requests. We try to work with the 
committees and do one body of work that will meet multiple 
needs, thereby being more efficient in how we use our resources 
and be more effective.
    If we are funded at the 2010 level, we can continue to do 
that work and to provide these cost-savings opportunities to 
the Congress in the most efficient manner.
    Mr. Honda. Thank you.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. Mr. Calvert.

          LEASING OF SPACE WITHIN GAO'S HEADQUARTERS BUILDING

    Mr. Calvert. Thank you, Mr. Chairman. While I am not new to 
the House of Representatives, I am new to this committee. So I 
am looking forward to learning a lot about these various 
agencies that are under our jurisdiction.
    One of the issues that was brought to my attention was your 
building. As a matter of fact, I am an old commercial real 
estate guy. I know where you are located and I know it is a 
pretty sizable building.
    I remember, back in 2001, during the anthrax scare here on 
Capitol Hill, you housed a lot of House Members--and we thank 
you for that--while we were cleaning up the facilities over 
here. I understand that, back in the mid-1990s, you had 5,000 
FTEs, but you have reduced that now down to about 3,200. Is 
that right?
    Mr. Dodaro. That is correct, Congressman.
    Mr. Calvert. So I imagine you had a substantial amount of 
vacant office space there, and I understand you sublet that 
space to various agencies. Is that also correct?
    Mr. Dodaro. Yes, that is correct. Actually, the 
headquarters for the Army Corps of Engineers occupies the 
entire third floor and a substantial portion of the sixth floor 
in the building. They have about a thousand people in our 
building. It is good to have somebody from Defense which pays 
their bills.
    Mr. Calvert. Yeah. Well, we were talking about it. We 
haven't done an appropriations for that yet. You may have to 
give them a 3-day notice.
    Mr. Dodaro. I think they are good for it.
    Mr. Calvert. Okay. What kind of rent are they paying? Are 
they paying market-value rent?
    Mr. Dodaro. I would have to ask.
    David, would you mind coming up?
    We just renegotiated the rent.
    Mr. Calvert. I was just curious, when you are kind of 
changing from one pocket to the next here----
    Mr. Fisher. They pay $7 million a year for the space based 
on square footage, both for the space itself as well as the 
ancillary services that we provide for them, including 
cleaning. It is a market rate, and we have a 10-year lease that 
has been negotiated with the Corps.
    Mr. Calvert. Do you have any other Federal entities in the 
facility?
    Mr. Fisher. They are the only tenant that is paying rent.
    Mr. Calvert. So does that pretty much fill up your 
building? Is your building totally full?
    Mr. Dodaro. Yes. We are going to take a look at the space. 
We do that periodically.
    Mr. Calvert. So the lease revenue, where does that lease 
revenue go? Does that stay within your agency? Do you use that 
money to do improvements, since you do have an older structure 
in that building? How do you use that revenue?
    Mr. Fisher. It primarily goes back into the building. There 
are a couple of additional sources of funds beyond the 
appropriation that we get. Gene can talk about some of the 
reimbursable work we do for financial audits. We also get the 
rent money that comes in, on top of the appropriation, to 
account for our total resources for the year. Primarily, the 
money that comes in from rent purposes does go back into the 
building for improvements.
    Mr. Calvert. Primarily. But some of it for other purposes?
    Mr. Fisher. I would have to get back to you for the record 
for sure.
    [The information follows:]

                 Collection and Use of Rental Receipts

    In FY 2010, GAO collected $5.3M from the Army Corps of Engineers to 
lease space in the GAO Building. We estimate about $7M in collections 
in fiscal years 2011 and 2012.
    By law,\1\ all rental receipts must be used for operation, 
maintenance, protection, alteration, or repair of the GAO 
Building.
---------------------------------------------------------------------------
    \1\ 31 U.S.C. 782 authorizes the Comptroller General to
---------------------------------------------------------------------------
        <bullet> lease or otherwise provide space and services 
      within the General Accounting Office (GAO) Building to 
      persons, both public and private, or to any department, 
      agency, or instrumentality; and
        <bullet> expend receipts for the operation, maintenance, 
      protection, alteration, or repair of the GAO Building in 
      such amounts as are specified in annual appropriation Acts 
      without regard to fiscal year limitations.
    Costs to operate and protect the GAO Building in FY 2010 were 
almost $20M.
    Annually, costs for maintenance, alteration, and repair of building 
systems and structures can vary significantly depending upon the nature 
of the activity. We try to phase projects over a multi-year period to 
minimize the budgetary impact in a single year, while maximizing our 
investment.

    Mr. Calvert. I am trying to find out how that money is 
being utilized. And I, obviously, have no objection to using 
rent money to improve the facility that you have, to make sure 
you don't have to use appropriated funds for that purpose. I 
would appreciate you doing that. Thank you.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you.
    Mr. Bishop.

                      LEGISLATIVE BRANCH SECURITY

    Mr. Bishop. Thank you very much.
    Let me just thank you for what you do. You are essentially 
the policemen for our entire government. We thoroughly depend 
on you, your expertise and your investigations for what we do.
    In thinking about the recent heightened security 
requirements for Members of Congress, have you been engaged, in 
terms of assessing the efficiencies and the cost of providing 
security for the Members in their district offices as well as 
our constituents who visit us here at the Capitol?
    Obviously, we are at a time of budget cutting and financial 
crisis. However, we want Members and our constituents to be 
adequately protected at the Capitol.
    Have you been engaged in that process at all, to assist us 
in knowing how much it is going to require us to sacrifice in 
order to provide the necessary security?
    Mr. Dodaro. We have been asked and have done work on the 
Capitol complex, looking at security and the staffing models 
and assumptions that the police have used. To my knowledge, we 
have never done anything in the district offices in that 
regard.
    Most of our work that we do is focused on the executive 
branch. We do some work in the judicial branch, primarily 
looking at their facilities and the courthouse constructions. 
We provide a lot of services to this committee on other 
entities within the legislative branch, as well.
    Mr. Bishop. A number of Members have raised concerns, that 
our security requirements have increased; however, our budgets 
have decreased. We are going to need some help from someone who 
has investigative expertise to tell us how we can get the job 
done.
    I think we need some factual basis to determine if we need 
to provide Members with adequate additional funds for the 
provision of security. Perhaps this may be a function we need 
to transfer to the Capitol Police.
    The whole issue of security has come to the forefront, 
because members travel back and forth to their districts.
    Mr. Dodaro. One of the things I would suggest is that while 
we don't have a lot of law enforcement expertise to do first-
hand assessments, that would be something I would think the 
Capitol Police or other law enforcement agencies could help you 
with.
    Mr. Bishop. Would you have to cost it out?
    Mr. Dodaro. Yes, you would have to cost it out, and you 
would have to do tradeoffs. I know, in our own case, in the 11 
field offices we were just talking about, we have to work with 
the owners of the buildings on security arrangements for the 
GAO people in the facilities. We deal with that aspect of this 
issue with regard to safety for our own employees.
    Mr. Bishop. Do you have some models we could utilize?
    Mr. Dodaro. We would be happy to share with the committee 
what we do.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you. And I am sure, as we go through 
their hearings, we will probably address that even more with 
the Capitol Police and with our own office of counsel and 
others.
    A vote is taking place. There are about 8 or 9 minutes left 
to go. I can submit any other questions I have for the record.
    Mr. Crenshaw. Mr. Honda.

                        RECOVERY ACT MONITORING

    Mr. Honda. Just a quick question. Thank you, Mr. Chairman.
    Previously, I made mention about the mandates and 
fulfilling mandates and the costs associated with it. With TARP 
and with our Recovery Act, the model that we have in there is 
that we created a mandate but we also included in the statute 
funding for that. And I was just wondering whether that is a 
model that we should be looking at.
    And then, also, some of the work that we have in the 
Recovery Act, we still have a lot of work out there because--
and maybe that is why you have 11 sites out there in the 
States.
    Mr. Dodaro. Right.
    Mr. Honda. Is there continued funding for that kind of 
work? And, if not, how are you going to cover that?
    Mr. Dodaro. You asked a number of questions. First, on the 
Recovery Act----
    Mr. Honda. Sorry about that.
    Mr. Dodaro. No, they are all good.
    On the Recovery Act, we were given $25 million. That money 
expired at the end of September 2010. With that money, we were 
able to monitor the implementation of the Act and use of the 
funds in 16 States across the country who received about two-
thirds of the $280 billion that flowed through the State and 
local governments.
    We have moved to a model now, since we don't have funding 
left, to do rotation on programs receiving the money. We did a 
review on Head Start. We are doing a review on the energy-
efficiency grants right now, and we will do a review on the 
funding for the water infrastructure and transportation 
programs. We have had to stagger our reviews.

                    FUNDING MODEL FOR REIMBURSEMENTS

    Now, the model, I think, that worked. Like TARP, we get 
reimbursed, and we will get reimbursed from the TARP fund until 
the last TARP dollar is repaid. In those cases, Congressman, 
there are unusual reporting requirements. We have to report 
every 60 days on the Troubled Asset Relief Program, bimonthly 
reviews on the State and local money, quarterly reports on the 
use of the reporting by the recipients on jobs created.
    I also think there are opportunities to give us some relief 
from some of those mandates now that a large portion of the 
TARP funds have been repaid. The Recovery Act money will 
largely be distributed this fiscal year. There are other 
mandates that we have that we are going to submit to the 
committee, about 25 or so, where we think there could be some 
flexibility.
    Now, moving forward, I think our base appropriation is 
sufficient for one-time requests that are coming in. But if 
there are requests for us to do recurring annual audits of 
something, then I think we could come up with some principles 
whereby it would make sense to consider those to be funded by 
the source. Right now, we are reimbursed for certain financial 
audits we do, like the IRS and the Bureau of Public Debt.

                     FOLLOW-UP BRIEFINGS TO MEMBERS

    Mr. Honda. Mr. Chairman, perhaps--and this is not a 
mandate, but for those of us office holders, it is always good 
for us to have information that is relative to our area and 
relative to major kinds of programs that we have--such as TARP 
and ARRA.
    Is there a way that individual offices can tap into 
information as it relates to their area, so they can report 
back to their people on how things are done? I think that our 
constituents would appreciate that kind of information, and it 
makes us look responsive. And if there are ways to do that, 
then I would appreciate it if we could move to access the 
information for all of the Members.
    Mr. Dodaro. Sure. We can provide a briefing for each of the 
Members on what we have done in their State, and in their 
particular districts as well, on the Recovery Act funds.
    The bulk of the TARP money is with the repayments by AIG, 
the automakers, the automakers' financing arm that provided 
assistance, and the Home Affordability Modification Program. 
There are a few smaller banks that haven't repaid yet. But, the 
bulk of it has been repaid.
    Mr. Honda. Thank you, Mr. Chairman.

                 DUPLICATION AND THE ROLE OF GOVERNMENT

    Mr. Crenshaw. Well, thank you.
    And thank you so much for your testimony.
    One thing, just in closing. I think you do a great job when 
we ask you to talk about efficiency and about duplication. The 
bigger issue, I think, for you to think about and for all of us 
to think about is, as I talked earlier about: What are the 
essential roles of government? I mean, and that is kind of 
outside your purview, but I think we ought to be asking that 
question. Not only, are you doing it efficiently, but if you 
are doing things that maybe we shouldn't be doing in the first 
place, the fact we are doing it efficiently and effectively, 
you know, is not as important.
    Mr. Dodaro. Yes.
    Mr. Crenshaw. So think about that as we go forward.
    And, again, thank you. I think this has been a model of 
efficiency and effectiveness. We have had this hearing; we 
conducted it in time to go vote.
    So thank you very much for all that you do. Thank you.
    Mr. Dodaro. Thank you very much.
    Mr. Crenshaw. The Subcommittee will stand in adjournment 
until 10:30 a.m. on Tuesday, March 15th. At that time, we will 
hear testimony from the Architect of the Capitol.
    [Additional questions for the Record follow:]

    [GRAPHIC] [TIFF OMITTED] T5845P2A.047
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.048
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.049
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.050
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.051
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.052
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.053
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.054
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.055
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.056
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.057
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.058
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.059
    
                                           Tuesday, March 15, 2011.

                        ARCHITECT OF THE CAPITOL

                                WITNESS

STEPHEN T. AYERS, ARCHITECT OF THE CAPITOL

                         Chair Opening Remarks

    Mr. Crenshaw. The subcommittee will come to order. Today we 
are going to hear testimony from the Architect of the Capitol, 
the Honorable Stephen Ayers. You have testified before our 
committee before, but always as the Acting Architect of the 
Capitol, and today you are the real thing. So I want to 
congratulate you on your appointment last year.
    I am looking at the request of $619 million. That is $92 
million, or 17.4 percent, above the current continuing 
resolution, And that is exclusive of the Senate office 
buildings. I know you have got a wide range of challenges, but 
your problems are our problems. We are in this thing together. 
And you know that these are difficult times from an economic 
standpoint. Everybody is going to have to try to do more with 
less. We are going to have to be more efficient, more 
effective. And I know you have got a job that kind of lends 
itself to that in terms of priorities and I know you have 
thought a lot about that.
    So I want to let you know that our subcommittee wants to 
work with you to figure out ways that we can save money, do 
things more efficiently. That is why we are here.
    So before I turn things over to you, I want to ask the 
ranking member, Mr. Honda, if he has some remarks.

                   Opening Remarks--Congressman Honda

    Mr. Honda. Yes. And thank you, Mr. Chairman. I really 
appreciate this opportunity. And welcome and congratulations. 
Like the Spanish saying goes, mi casa es su casa. And you just 
happen to be the architect of the casa.
    One of the things I wanted to say very clearly is the 
prioritization process that you have helped the subcommittee 
put together from which we can make tough choices. And I just 
wanted to say that because the priorities have to be very 
complete, whether it is funded or not. I think that you need to 
put that on the record so that if something does come up in the 
near future, that you had put it in place for our 
consideration. Whether we do anything about it, we have to 
share that responsibility and the consequence.
    The chair had talked about the level of increase over 2010. 
I think you had a comment about your budget request, you 
probably say it more accurately--the original submission was 
lower, but it somehow is changing, so I anticipate your 
comments around that. It was not only humorous, but it was very 
pointed, too. You are requesting a 5.1 percent increase to the 
operating budget and an increase of 6.1 percent for the 
multiyear projects. In addition to addressing the increasing 
backlogs of demands for life safety compliance and security 
issues, the request incorporates real property items that are 
essential to the Legislative Branch, the agency's mission, 
including the House of Representatives, Library of Congress, 
and the Capitol Police. I think that the challenge to this 
subcommittee is to serve as stewards of this branch of 
government, while operating under the tight budgetary 
constraints, and that is the most salient with your office.

                         FISCAL RESPONSIBILITY

    We must take care to ensure that the near-term pressure for 
fiscal restraint does not ultimately impose significantly 
higher lifecycle costs in the long term, and that is important. 
This will require advance planning for large projects in the 
pipeline, and I am pleased that this subcommittee was able to 
begin that process last year when they started building a 
revitalization trust fund which was around $50 million for the 
initial planning.
    The chairman and I came to the Congress at the same time. 
We are in the same class from 2001, 9 months before September 
11th, the terrorist attack. The evacuation of the Capitol and 
the House and Senate office buildings on that horrific day 
showed me many flaws, and I am concerned that those flaws still 
remain today and that adequate plans and systems are not in 
place.
    Since joining the subcommittee, it has become apparent that 
one major issue is lack of a singular point person, and the 
House and Senate Sergeants at Arms are point people for the 
respective bodies. However, most people look to the Capitol 
Police as the lead. In addition, none of this can be 
accomplished without our chief of buildings, the Architect. 
Where does the budget stop in order for us to come with the 
precise singular plan, regardless of what the organizational 
structure is. And maybe you can help us today to figure who is 
in charge of the evacuation and emergency preparedness across 
the Capitol.
    I bring this up on more than an annual frequency, mainly 
because I am very concerned about the health and safety of our 
staff, those who are ambulatory and those who are disabled and 
also our Members. I think we have that overriding 
responsibility to be concerned about that. The chair and I have 
discussed this once before.
    I will conclude my comments with that and yield back. Thank 
you, Mr. Chairman. I appreciate it.
    Mr. Crenshaw. Thank you, Mr. Honda.
    Mr. Ayers, your full statement will be inserted into the 
record. So I want to turn the floor over to you to make any 
comments you might have and introduce any staff that you might 
want to introduce. Please proceed.
    Mr. Ayers. Thank you, Mr. Chairman, and thank you, 
Representative Honda, for the opportunity to testify today 
regarding our 2012 budget request.

                               CHALLENGES

    Today we face significant challenges as our facilities and 
infrastructure continue to age and our mission continues to 
expand. In fact, we currently have a backlog of nearly $1.5 
billion in deferred maintenance and capital renewal projects 
that, if left unaddressed, could greatly impact the safety and 
security across the Capitol campus.
    As steward of the Capitol campus, I know that investment in 
our aging and historic infrastructure is vital; however, I also 
realize that the current fiscal environment presents a very 
difficult challenge for us and the Congress to do more with 
less, and I think our budget request attempts to address this 
challenge.

                           NEED-BASED BUDGET

    We have prepared a budget based on the current needs of our 
buildings and we call this a need-based budget. The projects 
requested are prioritized to enable the subcommittee to make 
informed decisions about what to fund and what not to fund. We 
are also preparing a series of alternative analyses that can 
get us to a flat budget or a 5 percent or a 7 percent decrease. 
We are looking forward to working with the Congress and are 
prepared to work with the subcommittee to make those informed 
and difficult decisions regarding the future investment in the 
Capitol campus.
    In addition, to ensure that we make maximum use of every 
taxpayer dollar, we continue to identify cost savings and 
efficiencies in our organization to aggressively address the 
most effective ways to use our limited resources. We have 
implemented comprehensive performance metrics that have led to 
very significant savings in our organization in the last few 
years. For example, we have reduced our inventory on hand from 
$56 million down to $7\1/2\ million just by putting in place 
some important performance metrics. We also put in performance 
metrics in our IT shop and have recently eliminated 150 
printers and fax machines across the organization. These are 
little things, but these little things can add up to be big 
things, and it also, I think, represents a culture of 
accountability in the organization.
    We have utilized public-private partnerships to finance our 
energy reduction projects, allowing us to invest our 
appropriated funds in higher priorities. We have renegotiated 
leases to get better rates and have reduced staff through 
attrition without impacting our ability to achieve our mission.
    This budget reflects the highest requirements to prevent 
further deterioration of our facilities. We have included 
projects to improve security and safety on the Capitol campus. 
And more importantly, we have deferred nearly $130 million in 
projects that are ready to proceed and need to proceed, but we 
think can be delayed another year or two.
    Through the work of our professional staff, we are able to 
address our client needs on a daily basis, maintain our 
facilities, and mitigate the number of projects that are 
required. However, even at this level of funding, the operating 
budget alone will not enable us to defer projects indefinitely. 
And as I know you know, these projects will only become more 
serious and, in the end, cost more.
    Mr. Chairman, the Architect of the Capitol, we believe, 
embodies the commitment to preserving and maintaining the 
historic fabric of our country, and our Fiscal Year 2012 budget 
request reflects the seriousness with which we take that 
responsibility. We continue to be successful in our mission due 
to the skills of our dedicated staff, and we reap the benefits 
of their knowledge, skills and abilities every single day. And 
it is a real honor for me to lead this team. Their work doesn't 
go unnoticed, and, in fact, our 2010 customer satisfaction 
survey notes that over 90 percent of our customers are fully 
satisfied with the level of service we provide the Congress.
    With that, I will conclude my statement and be happy to 
answer any questions you may have.
    [The statement of Mr. Ayers follows:]

    [GRAPHIC] [TIFF OMITTED] T5845P2A.060
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.061
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.062
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.063
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.064
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.065
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.066
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.067
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.068
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.069
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.070
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.071
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.072
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.073
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.074
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.075
    
                           MEETING PRIORITIES

    Mr. Crenshaw. Thank you very much. As I understand it, you 
have 16\1/2\ million square feet of buildings and about 450 
acres of land. You have got a lot on your plate. Before the 
hearing, we had a chance to talk about how you go about setting 
the priorities in terms of construction and in terms of 
maintenance. And quite frankly, I was very impressed with the 
process that you go through to outline it. I think it would be 
helpful to the subcommittee if you could talk a little bit 
about how you go about establishing those priorities and the 
list that you have that almost gives us the opportunity to say 
these are things we know we need to do and we have got to 
figure out what we can afford to do and what we cannot afford 
to do. So can you talk a little bit about that process that you 
have gone through?
    Mr. Ayers. I would be happy to. And, of course, our budget 
comes in two parts. One is this operational piece that enables 
us to pay salaries and do the day-to-day work, and then there 
is the capital, capital with an ``a,'' budget portion, which is 
construction and renovation projects. So we have got what, we 
think, is a world class prioritization process in place that is 
really a tool for the Congress to enable them to make good, 
informed decisions, need-based decisions on our facilities.
    So we look at a number of criteria. First we identify what 
type of project it is, whether it is ranging from deferred 
maintenance, meaning something that is broken and now needs to 
be fixed, through the spectrum to capital construction or 
construction for a new building. And the thinking there is our 
algorithm will weigh a deferred maintenance project more than a 
new construction project because we want to invest dollars in 
what we have before building new.
    Secondly, every project is given an urgency classification 
from immediate to high, to medium, to low urgency, and these 
are all done by third party independent consultants to our 
organization.
    And then lastly, every project is evaluated against six 
preestablished criteria from mission to energy efficiency to 
regulatory compliance, to historic preservation. So we look at 
all attributes of a project and give it a numerical score from 
1 to 100 based upon this preestablished criteria. And then all 
of that comes together and, in the end, we produce a list of 
prioritized projects from 1 to 100, or however many there are 
in that given year. And then I make a decision of what I think 
needs to be funded and what I think can be deferred in that 
given year.

                            PRIORITY RANKING

    Mr. Crenshaw. So I guess you would say if you have a list, 
number one is top priority and whatever is at the bottom is 
less. But if you were to give us a list, you would say these 
are the ones that I think we can't do, you mentioned a billion 
and a half dollars of things we can put off. But when you give 
us a list, you say these are things that I believe that based 
on my prioritization need to be done this year, then I guess if 
we were to look at it and say we don't have as much money as we 
wish we had, we may not be able to do the bottom two or three 
based on your prioritization. And I'm sure you would always 
tell us if there are life safety issues involved, and those 
obviously are high on your priority list. So if you were to 
look at what you have asked for, the $600-plus million, are 
there things that maybe toward the end of your list, even 
though you think they ought to be done now, they should be done 
now, if they can't be done for another year there is some 
cutoff in there somewhere? Where do you think we are in terms 
of what you have asked for if somebody just said we just can't 
do two or three things, would they be at the end of your list?
    Mr. Ayers. Absolutely. This tool, this prioritized list is 
meant to be a tool to help facilitate good decision making and 
theoretically, you can just start at the bottom of the list and 
move upwards if you need to reach a bottom-line. And we 
recognize that not everything can be funded. Sometimes the 
committee has a number that they need to reach depending upon 
what your allocation is from the broader group. So you can 
start at the bottom of the list and simply move the line up. 
Also conversely, of course, you can start at the top of the 
list and move the line downward if the committee allocation 
happened to be positive that year.

                          CAPITOL DOME REPAIR

    Mr. Crenshaw. Where do the repairs to the Dome fit? I know 
that is in the 2011 budget. That is obviously a great symbol of 
our country. And if it is falling apart, then we ought to make 
sure that we fix it. Is that on your list or is that last 
year's list? Or does it stay on that overall list?
    Mr. Ayers. It is on last year's list. That was competing 
for funding in Fiscal Year 2011, the first phase of that. We 
intend to do it in two phases, the first phase being the most 
important, which is the lower portion of the Dome or the skirt. 
That is estimated at about $20 million. The remainder of the 
Dome, estimated at about $80 million, we think would be in a 
different fiscal year. It is not competing for 2012 funding. So 
certainly it would be higher on the priority list because it is 
our symbol of representative democracy. It will achieve a 
score, a very high score, likely 100 in historic preservation. 
And when something reaches 100 in our importance scale, it 
automatically pushes it to the top of the list.
    So we think it needs to be done. There is no question about 
it. We think it needs to be done now. I know when you stand on 
the plaza and look at the Dome, it really looks terrific; but 
when you get up close to it, it literally is rusting apart and 
falling apart and pieces of ornamentation fall off the Dome, 
fall down to the roof, poke holes in the copper roof. It really 
does need some work.
    Mr. Crenshaw. Thank you. Mr. Honda, did you have some 
questions?
    Mr. Honda. Thank you, Mr. Chairman. It is almost like going 
from a regular TV set to Blu-Ray, huh?
    Mr. Ayers. Yes, sir. When you get up close, you can see all 
of the detail.

                         JOINT RESPONSIBILITIES

    Mr. Honda. I think the chairman is correct in that it is 
the symbol of our country. And let me ask a delicate question. 
The responsibility for the Dome, that is shared between the two 
branches, is that correct, the Senate and the House?
    Mr. Ayers. Anything that happens in the Capitol Building 
from an authorizing and appropriating perspective, it is shared 
jointly between the House and the Senate.
    Mr. Honda. In the current budget, who is carrying the major 
burden of that? Is that our side or is that being shared or is 
that an issue that both sides need to sit down and talk about 
in order to go forward?
    Mr. Ayers. Our budget is made up of 10 separate 
appropriations. If something is in the Capitol Building, it 
would be in the Capitol Building appropriation, which the Dome 
is. That appropriation is a joint appropriation shared by the 
House and the Senate. So both of those entities would have to 
come to agreement to fund that project.
    Mr. Honda. You are the Architect for both sides?
    Mr. Ayers. Correct.
    Mr. Honda. Mr. Chairman, if it is appropriate, maybe we 
should have some sort of informal meeting with the other side 
as to looking at the joint plan. And I for one feel the same 
way, that it is important to move forward, with the full 
blessing of both sides.

                         LIFE-SAFETY PRIORITIES

    On the Cannon life and safety project, can you explain to 
us basically what is being funded under that title life and 
safety project? I know it has stopped and we are doing 
cosmetics right now, but it should be funds that are expended 
with the future in mind so that everything builds upon the last 
step. And how will, the life saving technology that we have 
been talking about for a few years, how will that fit into the 
plan?
    Mr. Ayers. The specific project that is in our budget 
request, is our second priority. I think it is $4.2 million. 
That project has a citation from the Office of Compliance 
related to it and this estimate and this scope of work abates 
that citation but does not include the kind of technology we 
have been speaking of. We believe that kind of technology will 
be employed in the Cannon Building when we do the Cannon 
Building renovation project. This effort simply enables us to 
abate the citation. The citation specifically deals with the 
unprotected flow of smoke in a building like the Cannon 
Building that has some open stairways.
    So what the project will specifically do would enable us to 
take the Cannon Building and enclose many of the stairwells--
using very sensitive architectural features that enable the 
exits to be free of smoke to enable people to exit freely and 
safely out of the building. That is really the scope of that 
project.
    So the technology would come as part of the Cannon 
Building. Today, our fire alarm systems are zoned systems. So 
if a smoke detector is activated, it shows up on our fire alarm 
control panel as a zone. First responders would have to search 
that zone to find where the issue is.
    The current technology is fully addressable fire alarm 
systems like we have employed in the Capitol Visitor Center 
that enable you to pinpoint exactly which detector was 
activated and exactly where that smoke detector is to enable 
your first responders to respond exactly to the room and the 
location.
    Mr. Honda. I think that that is important, that there is a 
central office that is monitoring all that, to be able to 
communicate that to the first responder in realtime, in two 
ways or multiple ways. I would be very interested in being 
continuously informed of how that technology is added and how 
that would enhance our ability to move people through the 
building and out safely so that we could avoid areas of 
obstruction.
    Thank you, Mr. Chairman.
    Mr. Ayers. I think, if I may, Mr. Honda, similarly we have 
talked in previous hearings about installing cameras in the 
stairwells in the House office buildings. That project has been 
funded by the committee and we are moving out apace. In fact, 
we installed the infrastructure for some 150 or 160 cameras to 
enable the Capitol Police to monitor the flow of traffic in the 
building and the flow of traffic in the stairwells, this would 
then give them the ability to see if something is backing up 
and have their floor wardens and others divert people that are 
evacuating to different stairwells.
    Mr. Honda. Thank you, Mr. Chairman.

                        ENERGY REDUCTION PROGRAM

    Mr. Crenshaw. Mr. Ayers, we talked some about maintenance 
and construction. And I know you have done a lot of work on 
just kind of day-to-day savings, as you mentioned, do a lot of 
little things and they all add up and become a big thing. I 
wanted to ask you a couple of questions about overall energy, 
because when you have got that much square footage, then 
obviously energy consumption is a big part of your ongoing 
expense. I know that it has come to light in terms of energy 
consumption, everybody wants to see that reduced, everybody 
cares about the environment. But when I look, I see there are 
two programs that you have that were put in place. I guess one 
was a statutory and one was more of a directive. But they both 
seemed to work toward achieving energy reduction goals. One is 
the Energy Independent and Security Act of 2007 (EISA), and 
then you have the Green the Capitol Initiative. In terms of 
efficiency, and streamlining things, could you comment on what 
are the differences between those two efforts and wouldn't it 
make more sense to align those together, have kind of a campus 
wide approach? Can you talk about those two programs and how 
that might be done more efficiently?
    Mr. Ayers. I would be happy to, Mr. Chairman. I do think 
that there are continued energy savings to be found in our 
energy reduction program and it saves real money for us. Today 
there are two independent goals and objectives that we are 
pursuing. It does cause some confusion and I think there is 
some overlap in that from a program management as well as a 
public perception perspective. Of course the EISA goal is the 
legislative goal that requires us and all of our Federal 
partners to reduce energy intensity by 3 percent per year for 
10 years, for a total of 30 percent reduction over a 2003 
baseline. The Green the Capitol Initiative is a completely 
different effort to achieve a 5 percent reduction per year for 
10 years for a total of 50 percent reduction in energy use over 
a 2006 baseline. The fact that these are two completely 
independent things that require us and others to track them 
independently. So having them have one common sort of 
congressional objective, I think, would enable us and our 
partners to really manage one program. So there are savings and 
efficiencies to be gained there by managing one program, 
managing one set of data and managing one set of priorities.

                    MEASURING ENERGY PROGRAM RESULTS

    Mr. Crenshaw. Just to figure out how you are doing takes a 
little time and energy. Right? If I were to ask you how you are 
doing on one versus how you are doing on the other, is that 
something you all have to calculate and say we are up to speed 
on EISA but we are behind on Green the Capitol? Where are we 
today?
    Mr. Ayers. That is exactly right. It does take two 
completely different sets of data and calculations. The Green 
the Capitol initiative is for the House buildings. So that 
takes 31 percent of the Capitol Power Plant and half of the 
Capitol Building and half of the Capitol Visitor Center and all 
of the House buildings. So it gets a little complicated.
    Mr. Crenshaw. It is hard to draw a line, this is all House 
side?
    Mr. Ayers. It is difficult to do that. So there are a lot 
of assumptions that go into those equations. So we have been 
working at these programs since 2007. That is when EISA came 
into effect. To date we have met all of our goals under the 
EISA program and the goal this year was saving 15 percent. So 
we have met all of the EISA goals. For the last 3 or 4 years, 
we have met the Green the Capitol initiative goal. And this 
year we just fell slightly short of the Green the Capitol goal.
    Mr. Crenshaw. But it does make sense. You can see some 
efficiencies if you streamline that program, more of a 
consolidated approach campus-wide, as opposed to trying to 
piecemeal, that is something we will have to decide?
    Mr. Ayers. Yes, I do think there are efficiencies to be 
gained and certainly the Architect has purview of all of the 
facilities on Capitol Hill in the Legislative Branch. So that 
also includes the Supreme Court and all of the Library of 
Congress and Capitol Grounds and the House and the Senate 
office buildings as well as the Botanic Garden.

                          CAPITOL POWER PLANT

    Mr. Crenshaw. I know that you have been doing a lot of work 
in this whole energy consumption area and you were explaining 
to me earlier when we met, this cogeneration aspect of the 
Capitol Power Plant. I know that sometimes you can spend a 
little more money, but in the long run save money and sometimes 
the Federal Government tends to say let us just put it all in a 
big pot and then go build it as opposed to leveraging. You 
mentioned some public-private partnerships, and that is what 
the private sector does so well, to kind of leverage their 
dollars. Talk about what you are doing as it relates to the 
Capitol Power Plant. I think that is something that we need to 
be aware of and maybe do more of.
    Mr. Ayers. Well, I think that the really good question is 
we have these goals, legislative goals as well as the Green the 
Capitol initiative goals. How are we going to meet those energy 
reduction goals? Those kinds of efforts take investment and 
take money to implement projects to reduce energy. I think we 
have a couple of options to reach those goals.
    One is we have put in place three Energy Savings 
Performance Contracts to date which bring in private companies, 
investing their money in our facilities and achieving a certain 
level of energy reduction. That will get us halfway to the 
goal.
    So how do we get to the rest? We can do more of those 
energy savings performance contracts or we can come in with 
budget requests and seek appropriated dollars to do that. But 
we think if we seek appropriated dollars, there is only so much 
bandwidth those appropriated dollars are now going to take away 
from our deferred maintenance backlog that we need to chip away 
at.
    So we think the best opportunity is to bring in private 
money to do that. We have spent the last year looking at how 
are we going to achieve these energy reduction goals. We are 
convinced, as is the National Academy, who has peer reviewed 
our plan, that cogeneration is the right way to do that. It is 
the home run. We can completely do it with private financing 
and it enables us to reach our statutory energy reduction goals 
in the end. So this cogeneration system enables us to use 
natural gas to turn a turbine engine to make electricity.That 
electricity will feed the power plant and the heat generated 
from making that electricity, this is the co-part, heats our 
boilers and makes the steam for the Capitol complex. A very 
efficient way to do it, and this is pretty standard. NIH just 
did it. GSA just did it. Over at the new Homeland Security 
Headquarters, they are doing it as well. So it is very common 
and it is the industry trend these days.
    Mr. Crenshaw. Right. Mr. Honda.
    Mr. Honda. Thank you. I think that was a great line of 
questioning and we can show that kind of efficiency and savings 
over a long period of time on paper in terms of crunching the 
number, right?
    Mr. Ayers. Absolutely.
    Mr. Honda. So I think that is something that I would like 
to see, if the chair doesn't mind, because it is a way of doing 
our job responsibly on behalf of the rest of our Members. And 
these things are not partisan issues. This is all about running 
the Capitol, that it is run correctly.
    With that in mind, will the boiler project be able to have 
us move forward on the EISA objectives and reach our goal as 
far as what we call greening--but we have a different term that 
has less emotion to it--but has become more efficient and more 
compliant? How will we do that? And then if we can, why 
shouldn't we move forward and try to achieve that 50 percent 
goal and then go beyond that?
    Mr. Ayers. With the cogeneration system, we have modeled 
that energy savings reduction method and, of course, energy 
savings equals money savings. That is ultimately what this is 
after. We have modeled that and we are convinced that 
cogeneration will enable us to achieve the 30 percent reduction 
that is statutory from the Energy Independence and Security Act 
of 2007. And it will almost get us to the 50 percent goal of 
the Green the Capitol Initiative. We think we will be just a 
percentage or two below the 50 percent goal, if we are able to 
implement the cogeneration system. So it does achieve energy 
savings that are actually far greater than the EISA statutory 
goals.
    Mr. Honda. You say if we are able to. In your budget, is 
there a plan recommended to achieve that? And I know it is up 
to us to make the final decision, but is that in the budget and 
is that laid out there?
    Mr. Ayers. No, Mr. Honda, it actually doesn't show up in 
our budget. We would do it primarily with private financing. So 
that would require simply a letter seeking your approval for us 
to engage in that contract with the private vendor that would 
use their money to invest. We would pay them back over the 
course of 10 or 12 years with the energy savings they achieved. 
That is the great value of these contracts, the energy savings 
are guaranteed. If the companies don't achieve them, they don't 
get paid.
    Now, the little caveat is that we have to manage and verify 
the savings. So there is a $2 million request in our 2012 
budget multiyear that enables us to hire consultants or staff 
to manage and watch over these contractors that are doing work 
on our facilities. So there is a small bit of appropriated 
dollars, sort of management fees. And then the rest of it is 
completely private money. And in this particular case, if it is 
fully financed, we think the payback period is 13 years and 13 
years on a piece of equipment that can last 35, 40, 45 years is 
a really good payback.

                            GARAGE PROJECTS

    Mr. Honda. Thank you. On the underground garage projects, I 
understand that we have budgeted the West Garage to be started. 
So in that light, is the East Garage going to be completed so 
that those who have been displaced will be able to get back 
into the garage while the West is being worked on and will the 
workers be accommodated while we make these shifts in them? Are 
there adequate funds available to do this plan and complete it? 
And is there an issue of noncompliance on this project?
    Mr. Ayers. Yes, to all of those questions. We do believe 
that when the East House Underground Garage construction is 
coming to an end, we will be able to--if the West Garage is 
funded in 2012, we will be able to start that work right after 
the East Garage. So we will displace all of the folks in the 
West Garage over into the East and empty the West Garage and 
begin the construction work there.
    I may have misspoken. Actually I don't think that there is 
a citation related to the garage work. But it certainly has 
potential because there is falling and spalling concrete in 
those garages, and that clearly is a safety hazard that could 
hurt someone. So I think that is money that is invested to 
avoid a potential citation from the Office of Compliance.

                            GARAGE SECURITY

    Mr. Honda. In terms of security, is that part of the 
planning? I understand that is one of the soft spots that we 
have in our system in terms of having adequate staff to watch 
the ingress and egress of folks.
    Mr. Ayers. The East and West Garage rehabilitation projects 
really take care of the structural issues, the delaminating 
concrete issues there. There is another project in our 2012 
request that does focus on improving security matters in the 
House and Senate garages. So that security issues can be taken 
care of.
    Mr. Honda. Thank you, Mr. Chairman.

                      OPERATIONAL BUDGET/STAFFING

    Mr. Crenshaw. Let me ask a couple of questions about the 
operational side. When I looked at the budget, I think over the 
last 6 years, the operational side has gone up quite a bit, 
almost 50 percent. But I think that has got to be due in large 
part because of the Capitol Visitor Center. You have got I 
think 150 to 200 employees you didn't have 6 years ago. So when 
you look at ways to save money, to be more efficient, what are 
some of the things that you are doing as it relates to all of 
the people giving tours, giving directions. Is that something 
you look at? It seems like there is probably a big demand in 
the Spring for people to take tours. In the Winter there is 
less demand. How do you manage all these people now? That seems 
like a new responsibility. When you think of the Architect, you 
think he is going to design and build things, not manage a lot 
of people, giving tours and directions, et cetera. So how does 
that fit into your overall scheme to save money and be more 
efficient?
    Mr. Ayers. There is no question that our scope of 
responsibilities has significantly grown in the last 4 or 5 
years. I reflect back not just on the people side, but we have 
a brand new facility in Culpeper, Virginia, that is nearly half 
a million square feet. We have four brand new buildings at Fort 
Meade. We have two brand new buildings in Manassas, Virginia. 
All of these have come about in recent years and require money 
to operate, maintain and improve on an ongoing basis, just like 
the Capitol Visitor Center, which is half a million square feet 
of facilities with nearly 250 employees there. So there is no 
doubt our operational budget has grown. The number of employees 
that serve in those new buildings and those new efforts has 
increased over time as well. But I think our staff really did a 
remarkable job this year. I look at our budget and these two 
big buckets, our operations money and our project money. On the 
operations side, I think our increases have been--this year 
anyway--have been pretty flat versus the project side with a 
very significant increase because of that backlog of deferred 
maintenance. And we challenge our staff to look very carefully 
at that, look very carefully at employees, look very carefully 
at overtime expenditures. I know in this budget cycle we had 
additional requests for 12 new employees, new FTEs, and we 
rejected all of those and felt this was not the right time to 
request those additions to our staff.

                       PRIORITIZING MISSION GOALS

    Mr. Crenshaw. You mentioned some of the new 
responsibilities. Do you ever stop and think are some of the 
things you are being asked to do, some of the missions we have 
called upon you to do, is this something that is really the 
best use of taxpayers' dollars, are these kind of essential 
things you ought to be doing? Do you have any thoughts about 
that? It is a hard question to answer because you are supposed 
to do what you are asked to do and then you come to us and see 
how much it is going to cost. Do you see anything that maybe as 
a mission of yours that maybe not as important as it might be 
as other missions? We are always talking about efficiency and 
effectiveness, but I don't know that we always ask the 
question, is this something the government ought to be doing in 
the first place. Because even if you are doing it efficiently 
and effectively, if it is something you ought not to be doing, 
then I am glad you are doing it efficiently, but the broader 
question is why are we even doing that, why is the Federal 
Government doing that. So anything that you think of that you 
don't like, you can tell us and we will ask you to stop doing 
it.
    Mr. Ayers. I would be happy to submit a very long list for 
the record, Mr. Chairman. [Laughter].
    Actually, I do have two thoughts on that. One is we often 
receive requests from Members and requests from others to do X, 
Y and Z projects. When we think something is a little out of 
the norm or maybe we shouldn't be doing that, the first thing 
that we do is engage with our authorizing and appropriations 
committees to help us talk through whether we should and 
shouldn't do various initiatives. We get lots of those kinds of 
things every year. The committee staff is really helpful for us 
in terms of being able to say yes or no, ``we want to take on 
this initiative or we don't want to take on this initiative.'' 
The leadership and the Committee on House Administration and 
the Appropriations Subcommittee have really been helpful and I 
know they will continue to do so.
    Secondly, one of the questions we do ask ourselves is how 
should we do this work. So, for example, we took on this big 
new project in Culpeper, Virginia, nearly half a million square 
feet. We asked ourselves, ``How should we manage that 
building?'' Should we recruit another 40 or 50 Federal 
employees and put them down there or have them drive back and 
forth, or should we bring in a private contractor to do all of 
that work for us? Ultimately we do a business case analysis. In 
this particular case we said we need to do this with the 
private vendor and we put one Federal employee there to manage 
that whole process. We think that is a much better use of 
Federal funds. And similarly we have done the same thing, we 
have one Federal employee managing a contractor that operates 
and maintains a facility in Culpeper, Virginia, as well as our 
100 acres up in Fort Meade, Maryland. So that kind of business 
model is something we go through as well.
    Mr. Crenshaw. Thank you.
    Mr. Honda.

                                 FOB-8

    Mr. Honda. Is it the Ford Building that we are using to 
place our staffs there, while we are going to be working on the 
Cannon? Is that plan still going to move forward?
    Mr. Ayers. I think you are referring to the FOB-8, the 
Federal Office Building 8, which is next door to the Ford 
Building. That is a building that is currently owned by the 
General Services Administration and they are renovating it. We 
plan to lease 200,000 square feet, or four floors, of that to 
enable us to use as swing space as we renovate the Cannon 
Building in the coming years. That is still our plan to do 
that.
    Mr. Honda. Earlier I guess I alluded to the idea of we are 
doing a lot of cosmetology, doing foundation work on our face 
and putting makeup on it. The building exterior and appointing 
of the details and the caulking, that is going to require some 
money. And if we are going to be moving forward with that, are 
there any problems with the funding for that? Are we on 
schedule? And can you tell us where we are with that?
    Mr. Ayers. As a building manager, our number one enemy in 
our business is water.
    Mr. Honda. I thought you were going to say it was us.
    Mr. Ayers. I would never say that, Mr. Honda.
    Mr. Honda. That is on the list, right?
    Mr. Ayers. So water is our enemy and water can cause so 
many problems for us, whether it is deterioration or whether it 
is mold growth, which can then affect the work products of the 
Congress or the priceless collections of the Library of 
Congress or the beautiful murals painted by Constantino 
Brumidi. We have to be diligent every single day to make sure 
our roofs and our walls are watertight. We do have money in our 
budget--I know in the House this year there is an additional 
$150,000 for us to hire masons to work to patch the holes in 
the masonry between the stone blocks and be sure that we keep 
water out of our buildings on an ongoing basis. With that we 
think today we are adequately funded in that regard.
    Mr. Honda. I guess that is in line with the chairman's 
question about the need to have a maintenance program. And this 
is one of the backlogs of the maintenance programs. And having 
shared responsibility with the other side, it sounds like we 
need to still get together on a different variety of projects 
so that we have shared responsibility in terms of the fiscal 
responsibilities.
    Mr. Ayers. Yes.

                               CVC TOURS

    Mr. Honda. I think that that probably should be on our list 
in our discussion with the other House. With the CVC, a lot of 
other Members have complained--myself included--that the tours 
were going to be taken over by the guides. And our offices take 
a lot of pride in being able to guide some of our constituents. 
It has a lot of benefits to it. So I was wondering if you have 
any information as to what the impact of that is? And if you 
need more time, if you want to get that in writing later on, 
the impact of Member offices guided versus the guided tours, 
something that we can feed back to our Members so that they 
know that we are fulfilling that request.
    Mr. Ayers. I know we have talked about this quite a bit at 
hearings and in other venues in that we make our reservation 
system really flexible for visitors to come and reserve a tour 
or a ticket for the Capitol Visitor Center. It is really 
flexible. They can do that with a guided tour or they can do 
that straight to their Member's office with a staff-led tour. 
But in the end, we have been open two years now, just over two 
years with nearly five million visitors in those two years, and 
our statistics show us that about seven percent of our visitors 
are staff-led tours for Members and 93 percent are guide-led 
tours.
    Mr. Honda. Thank you, Mr. Chairman. Actually I haven't 
heard any complaints for a few months now. It sounds like it is 
working.
    Mr. Crenshaw. On that point, at one time there was a rule 
that only the redcoats could give tours, you mentioned only 7 
percent are staff led. Was that because they are not supposed 
to do that or can they do that if they want to? Is there any 
rule requiring a redcoat to conduct that tour?
    Mr. Ayers. No, of course not. There are no rules in that. 
There are many Member offices that really enjoy giving staff-
led tours and it is really an important constituent service for 
them. So they are fully able to do that and we integrate them 
into those tours absolutely seamlessly.
    Mr. Crenshaw. I don't have any more questions. Mr. Honda, 
do you have some more questions?

                   UTILITY TUNNEL IMPROVEMENT PROGRAM

    Mr. Honda. Just one other. The utility tunnel program, is 
that on-line and are we going to be okay with that?
    Mr. Ayers. Yes, Mr. Honda. We are ahead of schedule and 
under budget on that project.
    Mr. Honda. Do you want to say that again?
    Mr. Ayers. I would love to. We are ahead of schedule and 
under budget. And our settlement agreement with the Office of 
Compliance on that issue requires us to be finished by June of 
2012. And we are quite confident we are going to beat that 
date. So that project is going very, very well.
    Mr. Honda. Thank you, Mr. Chairman. I appreciate this 
sharing of information, and I look forward to a possible 
meeting in the future with the other House.
    Mr. Crenshaw. I want to join Mr. Honda in just saying thank 
you. You have your tremendous challenges, and it is encouraging 
to hear the thought that has gone into how you deal with those 
in these difficult economic times. That is the purpose of 
hearings like this, so we can better understand exactly what 
you are going through because we have got to go through it as 
well. So thank you for being here today.
    The subcommittee is going to be adjourned until 2:00 p.m. 
on Wednesday, May 11th. At that time, we will hear testimony 
regarding the Government Printing Office and the Congressional 
Budget Office, also myself and other Members of the 
Subcommittee have some questions to be answered for the record.
    [The questions and responses follow:]

    [GRAPHIC] [TIFF OMITTED] T5845P2A.076
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.077
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.078
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.079
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.080
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.081
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.082
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.083
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.084
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.085
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.086
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.087
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.088
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.089
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.090
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.091
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.092
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.093
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.094
    
    [GRAPHIC] [TIFF OMITTED] T5845P2A.095
    
                                           Wednesday, May 11, 2011.

                       GOVERNMENT PRINTING OFFICE

                                WITNESS

WILLIAM J. BOARMAN, PUBLIC PRINTER OF THE UNITED STATES

                  Chairman Crenshaw's Opening Remarks

    Mr. Crenshaw. Today we are going to hear testimony from the 
Government Printing Office, the Congressional Budget Office, 
and from outside witnesses.
    Our first witness is going to be our new Public Printer, 
William Boarman. Upon taking Office in January, he became the 
26th Public Printer of the United States.
    I congratulate you on that appointment.
    Mr. Boarman. Thank you, Mr. Chairman.
    Mr. Crenshaw. We are going to look at your fiscal year 2012 
budget request, a little over $148 million, and that is about a 
$13 million increase, which is about 10 percent.
    You and I have talked, and we all know how difficult our 
economic situation is, and it might be difficult to find an 
additional 10 percent. In fact, everybody is being asked to do 
more with less. You know that. We have talked about that. So, 
in your testimony, you might talk about thoughts like that. I 
would love to hear about the problems you are having and the 
solutions that you propose on how you figure out a way to meet 
all this.
    Mr. Bishop, would you like to say anything in Mr. Honda's 
stead?

               Mr. Honda's Opening Remarks by Mr. Bishop

    Mr. Bishop. Yes. I will give Mr. Honda's remarks welcoming 
Mr. Boarman to your first House Legislative Branch 
Appropriations hearing. Of course, the GPO has received a 
renewed interest in recent months, and there are a lot of 
proposals and ideas about how to revamp the work that you do. 
And while we are not necessarily opposed to reviewing how 
Congress does its work, including the documents requirements, 
we believe that the Members should spend some time getting to 
know exactly the insides of the agency before we actually take 
action.
    According to your testimony, the printing produced for 
Congress ranges from 5.5 cents a page to a penny or less per 
page compared with nearly 7 cents a page for documents printed 
from the kind of office printers typically used throughout the 
Government and Capitol Hill. If this is accurate, that is the 
type of unintended consequence you have to avoid when 
evaluating the future of government printing.
    Not having GPO print the Congressional Record, for example, 
could cost Member offices more in paper costs than we save by 
not having GPO print the document.
    Also, the very name of your agency, the Government Printing 
Office, doesn't do it justice. GPO is the source of data for 
the THOMAS Web site that makes Congress more transparent to all 
depository libraries across the country and the Library of 
Congress. Generations to come can analyze the work of Congress 
due to our recorded history included in the documents that you 
publish.
    So we thank you and the over 2,000 workers at GPO for the 
work that you do, and we look forward to your testimony and 
responding to the questions that we raise.
    Mr. Boarman. Thank you.
    Mr. Crenshaw. Thank you, Mr. Bishop.
    Your statement will be inserted in the record, so please 
feel free to make any remarks you would like to make and 
introduce any folks that you brought along with you.

                     Opening statement--Mr. Boarman

    Mr. Boarman. Thank you. I will forego all the introductions 
so we can get to it and save some time.
    Mr. Chairman, thank you for the opportunity to be here. As 
was mentioned by Mr. Bishop, this is my first oversight 
hearing--I mean, my first funding hearing, although I have been 
in these meetings many times before as an advocate for GPO, so 
I feel sort of at home.
    The funding picture has changed since we submitted our 
appropriations request in January. At that time, our request 
was about level with the continuing resolution. Now it would 
represent a significant increase over the 2011 funding. And 
that is due to the fact that we submitted it months ago, before 
the final budget was reached for 2011, which sort of put us on 
hold.
    We know Congress is facing hard choices in providing 
funding for next year, and like others, we know we have to make 
hard choices ourselves in doing more for less. We are prepared 
to work with you on setting a funding level that gives us the 
resources we need to carry out the work you give us in the 
coming year.
    To begin that discussion, I want to be clear about the work 
that GPO does. In spite of our name, which often becomes a 
source of discussion, GPO today is essentially a digital 
platform for the production and delivery of congressional 
information products in forms and formats Congress requests. 
Printing is what many people see when they look at us, but it 
is only the tip of the iceberg in what we do.
    Most people don't know that it is GPO that puts 
congressional and agency information on the Internet. We have 
been doing that since 1994. Our Federal Digital System, FDsys, 
has more than 250,000 Federal titles online and sees more than 
25 million documents downloaded free of charge by the public 
every month.
    The printed products we produce are in the quantities 
ordered by Congress. We don't print any more than we are 
required to produce. To ensure that those quantities are what 
Congress wants, we are conducting a comprehensive survey of 
congressional offices of their printing needs. It is the first 
ever survey of its kind.
    Now, up to 70 percent of the cost of congressional printing 
is for the prepress function to create the digital product. 
After the initial cost is set up on press and binding, our 
print and incremental rates run from about a penny to about 5.5 
cents per page. By contrast, the cost of printing documents on 
office laser printers is much more expensive, up to 7 cents a 
page.
    Now, over the years, the efficiencies we have generated 
have cut the cost of information products for Congress by more 
than two-thirds in real economic terms. We have reduced from 
8,000 employees when I was at GPO as a proofreader 35 years ago 
to just 2,200 today, yet more people have more access to 
congressional information through us than ever before. And that 
is a remarkable achievement. All of this has been achieved by 
an agency with an unmatched technological capability, backed by 
an expert and dedicated staff.
    We recover our costs by charging for printing. Our digital 
platform that supports congressional information products is 
funded almost entirely from the rates we charge for our print 
products.
    The rates we charge for printing also fund the cost of 
operating GPO as an agency, including the cost of essential 
functions like security, finance, EEO, personnel, and an 
Inspector General. Unlike other legislative branch agencies, we 
don't get separate funds for those costs. We have to recover 
them through the printing work we perform.
    If we cut printing, I want to make sure we are not cutting 
into the digital platform that supports Congress or our ability 
to run the GPO the way you would want us to do it. I also want 
to make sure we are not opting for the false economy of a 
printing system that relies on office printers. Such systems 
can be far more expensive than what we are doing now.
    Mr. Chairman, we know Congress is looking for ways to 
reduce costs, and we get that. We have been one of Congress' 
leading partners in saving money through the transformation to 
a digital information enterprise, and we will help you get 
there.
    We have appreciated working with the Subcommittee and your 
superb staff. I know you will give our request full and fair 
consideration, and I thank you, and I would be happy to answer 
any questions of you and the other Members of the Subcommittee 
may have.
    [The prepared statement of the Public Printer follows:]

    [GRAPHIC] [TIFF OMITTED] T5845B.001
    
    [GRAPHIC] [TIFF OMITTED] T5845B.002
    
    [GRAPHIC] [TIFF OMITTED] T5845B.003
    
    [GRAPHIC] [TIFF OMITTED] T5845B.004
    
    [GRAPHIC] [TIFF OMITTED] T5845B.005
    
    [GRAPHIC] [TIFF OMITTED] T5845B.006
    
    [GRAPHIC] [TIFF OMITTED] T5845B.007
    
    [GRAPHIC] [TIFF OMITTED] T5845B.008
    
                             MORE WITH LESS

    Mr. Crenshaw. Thank you, Mr. Boarman.
    Let me start by asking, you mentioned about the 
Congressional Record, that 70 percent of the work goes in there 
is the digital preparation and 30 percent is actual printing. 
Do you think other than printing less copies to save money, are 
there things you can do on the other side of the equation that 
might save money?
    For instance, does anybody work overtime to get it all out, 
or can you tell me what goes into that 70 percent. Because the 
30 percent of the printing, it seems to me if you printed for a 
penny or less, we are not going to save much money by printing 
fewer copies because it is going to cost more, as Mr. Bishop 
said. But the 30 percent that goes into that, tell me about 
that and have you thought about any ways to save money on that 
side?
    Mr. Boarman. Well, you know, I have been around this 
process for a long time. I have been associated with GPO for 
probably more than 35 years as an employee, as an advocate, and 
now as Public Printer. And the discussion about efficiencies in 
the production of the Congressional Record has been an ongoing 
discussion with many Public Printers and many chairmen of this 
Subcommittee. And it really comes back to the way Congress 
works. And people have said, Well, we are going to change that. 
But the reality is, our processes are built around what 
Congress does.
    Congress comes in at a certain time, and they go out at a 
certain time. Sometimes they don't know when they are going to 
go out. And so our production capabilities are built around the 
way Congress operates and the demands that you place on us on a 
daily basis. We have a three-shift operation. We only work 
overtime if we have to. But we have a very limited production 
force today compared to what we had when I was there 35 years 
ago.
    So overtime does happen, especially when the House or the 
Senate or both stay in late at night or into the wee hours of 
the morning. And to me, as a bystander and now as Public 
Printer, it is amazing that the people that work there are able 
to accomplish what they do overnight with the demands that are 
put on them.
    There are things that I think Congress could do in changing 
its habits that could save money, but again, these things have 
been talked about before. You know, the Extensions of Remarks a 
lot of times come in late at night. They have to, I guess, go 
through a process of being introduced through the Clerk's 
Office. And then sometimes they come to us and we actually have 
to keyboard them, rather than get them in a machine-readable 
format. If there were some way for that to happen earlier in 
the day so that we could make that part of the Record and that 
part was put to bed in the prepress process, I think we could 
save some money.
    But I think Congress is going to do what it has to do to 
legislate for the United States Government, and it is going to 
take different kinds of hours than most businesses are used to. 
That is what makes the GPO unique. I have been in the printing 
and publishing business for 40 years, and I don't think there 
is any other organization like the GPO that can accomplish what 
it does. Are there more efficiencies that we could squeeze out 
of our organization? I am sure there are, and I am looking at 
those.
    I have only been there for 4 months. I have made some major 
changes at the top. We have had a number of people that have 
departed, and we have tried not to replace people. We put a 
freeze on traveling. We absolutely look at every job that is 
vacant to see whether it needs to be filled. We have cut out 
expensive overseas travel.
    I think that we respond to you, and whatever you want us to 
do, we have to do. And if there is to be an examination about 
how Congress works and how they can change, we would welcome 
being part of that discussion to help you make some changes.

                           DELIVERY SCHEDULES

    Mr. Crenshaw. When you deliver the copies to Congress and 
then some go to the Library of Congress and other people, would 
it make any sense, where more urgent deliveries take place 
right way and then there is another delivery that is less 
urgent would that reduce the crunch time, is that something 
that you all think about, or would that make any sense?
    Mr. Boarman. Well, I did mention in my testimony that we 
are doing a survey to see who wants the Record. And obviously, 
if a number of Members opt out, that is going to create a 
savings right away and may change the way we actually do 
business with printing the Record. We will have to see. We will 
have the results of that later in May. As far as the delivery, 
I mean, we are just down on North Capitol and H Streets.
    Mr. Crenshaw. In turn if you got to get it out to all of 
the Members, they ought to get it first, right?
    Mr. Boarman. Right.
    Mr. Crenshaw. But if you got to stay up all night to make 
sure the Library of Congress gets it the same time, can then 
get it 4-8 hours later.
    Mr. Boarman. Well, I have to honestly say, I don't know 
what time they get it, but I doubt whether they get it the same 
time that you do. Our priority is to get it up to Congress by 
9:00 if we can or as soon as we can after that, depending on 
what time you go out in the morning. And those trucks pull out 
of Jackson Alley on North Capitol, and they are here in a 
matter of minutes. And so the efficiency of that operation, I 
think because of the location of the GPO and the House and the 
Senate and the Capitol, is as good as it gets. I don't think 
the Library gets their copies at 9:00.
    Mr. Crenshaw. So are you saying, once you do all the work 
and make sure the Members get it, it is done, so it is time to 
go home. It is all one package that gets delivered. You 
wouldn't save much money.
    Mr. Boarman. Once it gets on the presses, and you have to 
understand, these are very high-speed sophisticated presses, 
and we only run 3,700 copies. We printed 20,000 copies back in 
the early 1990s. So for the press to run 3,700 copies and the 
machine does almost everything--it sends it to a binding system 
that comes out stapled together for delivery--you are talking 
about a matter of minutes for the press to produce everything 
that's needed.
    Mr. Crenshaw. So really 70 percent of that goes in----
    Mr. Boarman. Right, that is for the prepress work.
    Mr. Crenshaw. I appreciate that.
    Mr. Honda, welcome.

                                OVERHEAD

    Mr. Honda. Thank you. I apologize for being tardy here.
    I thought I had my car, and I didn't have it, so I had to 
walk. So I assume that you just spoke on the process and 
everything else. Did you speak of the overhead of costs in 
terms of the overhead for your office?
    Mr. Boarman. No, sir. That was one of the major surprises 
that I was made aware of not too long after I took office. The 
overhead of GPO had increased almost by 50 percent over the 
last 5 years.
    Mr. Honda. Would you mind just talking about that and 
distinguish, maybe define, what overhead means.
    Mr. Boarman. Well, it is what we add on to the cost of 
printing. Actually, 33 cents of every dollar that we charge 
Congress for printing goes to cover overhead. Some of these 
things are unfunded requirements. We have an EEO Office that we 
have to run, and we have a personnel office, and then we have 
an Inspector General, which is required by law. I've learned we 
probably have the largest Inspector General's Office in the 
legislative branch.
    Mr. Honda. And that is a function over and above what we 
funded you for?
    Mr. Boarman. Yes. We fund that out of the cost of printing. 
We don't get any separate funding for that, and I mentioned 
that in my testimony.

                                 SPACE

    And then we have the building issue. We have a wonderful 
building. You know, there are actually four buildings there. 
The newest building was built in 1940. The oldest one was built 
in 1903. And there were 8,000 people working in these four 
buildings when I was first there, and today there are 2,200 
people rattling around in space that we don't need.
    And so what I have done is I have asked my staff and all of 
the heads of our business operations to study how we could move 
all of our employees from two of our buildings into the other 
two. One building is specifically set aside for passports, and 
it is a very secure area. We do some storage there. And that is 
across the street from our main complex on North Capitol 
Street. That building was built in 1938.
    The cost of maintaining the unused space in our buildings 
is enormous for us. And why this wasn't addressed in the past 
it is beyond my understanding. The Capitol and House and Senate 
Office Buildings are bulging through the walls. I visit here 
every week; I visit Members. And some of my meetings are held 
in the hallway because there is so little space in Hill 
offices. We could provide overflow space for the Architect of 
the Capitol, and many of the functions that take place in the 
different congressional office buildings could move to GPO, and 
then that would open up more congressional space in your office 
buildings.
    I estimate we have anywhere from 70,000 to 100,000 square 
feet that we could make available in the next 2 years. And what 
that would do is we would get revenue from that because the 
Public Printer by law has to recover his costs, and so it would 
be a very nominal amount we would charge. But we would reduce 
the cost of maintaining those buildings, which can be sizable 
because of their age, and it would reduce the cost that we have 
to pay for steam from the Architect of the Capitol----
    Mr. Honda. There is plenty in Congress.
    Mr. Boarman. Well, we get our steam from the Architect--
    Mr. Honda. Well, from both sides, sir.
    Mr. Boarman. And we get our power from PEPCO.
    And these are big high-ceiling old buildings, and the cost 
is just enormous. And my chief financial officer, who is 
sitting behind me--
    Mr. Honda. Which one, the one with his arms crossed?
    Mr. Boarman. One of the first things I did--and I had 
discussions with a lot of you and I deeply appreciate the time 
you gave me. I have had a chance to meet you in advance, and I 
think I mentioned this so it ought to get on the record. In 
every organization I have been associated with, the chief 
financial officer reported directly to the chief operating 
officer. At the GPO, he was down several layers. Now he reports 
directly to me, and I meet with him on a weekly basis if I am 
able to do that. Never more than two weeks go by when we don't 
meet. And this is one of the issues that he brought to my 
attention that, if we want to get a handle on the overhead, we 
have got to address this issue of the building, we have got to 
make more efficient use of it, and we have got to get this 
space rented. So we are working on that.

                                SECURITY

    GPO's security is another issue. Now, we have a very, very 
fine security force, and I am very proud of them. But I am in 
the printing and publishing and electronic business; I 
shouldn't be in the security business. There have been 
proposals for our police officers--which are in the statute, 
the Public Printer has his own police force--that they become 
part of the U.S. Capitol Police force. I have spoken to the 
officers. They are all members of the local FOP lodge. I think 
it is the same one as the Capitol Hill Police. They would like 
to become Capitol Hill police, just like the Library of 
Congress police did, and they merged them in.
    About $13 million of our cost is for security, both in DC 
and Mississippi. And we need security. We could be a target for 
attack because of what we do for the Congress, because of what 
we do for the State Department, and the secure IDs that we do 
for the rest of the Government. We could definitely be a 
target. I don't want to lessen the security. And I want to 
compliment what we have because they are fantastic, because I 
know they will all be watching and hearing what I am saying.
    But I think we would be better off if the Congress would 
consider taking that over to the U.S. Capitol Police. Security 
costs add to our overhead and it would help us tremendously in 
dealing with the issues that the Chairman raised at the opening 
about less dollars if such a transfer could be considered.
    Mr. Honda. So the understanding of your budget has to be 
expanded, and I understand that when you say, my printing 
office is more than just printing. When you say overhead, we 
can over characterize that we either don't know, don't 
understand or are not aware of.
    Mr. Boarman. Well, I think we are the only agency that 
doesn't get funding for positions; it has to come out of our 
printing and binding appropriations. So 33 cents of what you 
pay for printing goes to pay for that before we get to pay the 
people that do the work and pay for the paper and pay for the 
ink.

                           INSPECTOR GENERAL

    Mr. Honda. Very quickly, with the Inspector General, how 
does that work? When they go into a functional mode, what is 
the frequency of their work load, how does it come about, who 
initiates it?
    Mr. Boarman. The Public Printer by statute appoints an 
Inspector General, and then the IG is free to conduct any and 
all investigations relating to fraud, waste, or abuse in the 
agency.
    Mr. Honda. By whose direction?
    Mr. Boarman. By statute, the IG can do that independently. 
The IG is under the supervision of the Public Printer, but it 
is clear in the statute that the IG is free to conduct any 
investigation that relates to fraud, waste and abuse.
    As I said, we have twice as many as any other legislative 
branch agency, and we certainly aren't the largest agency. We 
are just around 2,200 employees, and I think the Library of 
Congress is around 3,600 people, and the GAO is around 3,200.
    All of their Inspector General forces are significantly 
smaller than ours. Now, recently GPO's Inspector General 
resigned, and I have appointed an interim IG, because the 
resignation provided minimum notice and came as a surprise. I 
didn't know it was coming, so I have an interim person on duty, 
and we will initiate a search for a permanent Inspector 
General, a nationwide search to put someone into that position 
in the hopes that they would look at this overhead and other 
efficiency and effectiveness issues for us.
    Mr. Crenshaw. Mr. Bishop.
    Mr. Bishop. Thank you very much.
    Mr. Boarman, I fully appreciate the worth and the value of 
your agency. You do what nobody else in the country does, and 
we appreciate that very much.
    I was listening to you in response to Mr. Honda's questions 
talk about some of the ways that you could pass it on with the 
building space that you have unused, the security and the 
heating and air, but in each of these respects, you just pass 
those costs on to another agency. It is not really saving us 
money. It may be saving your particular budget money, but I 
think all or many of those come out of our appropriation 
anyway. So it is almost a pass-through, but understandably we 
have to work with efficiency.

                        DISCRIMATION COMPLAINTS

    Let me go to another area. I understand that the Government 
Printing Office has experienced a significant number of 
discrimination complaints, particularly in fiscal year 2009, 
and most of the complaints were filed by African-American 
employees who accused officials of racial discrimination for 
denying pay increases or promotions. I understand that this 
subcommittee directed GPO to take aggressive steps to prevent 
discrimination in the workplace and to submit quarterly reports 
on your progress in reducing the number of equal employment 
opportunity complaints. Can you describe your efforts to 
decrease the amount of discrimination complaints, as well as 
your work to promote diversity in management at GPO?
    Mr. Boarman. Well, it has been a significant problem for 
the agency over the years. And I think really the core of the 
problem, as I can understand it in the short time that I have 
been there, is a lack of understanding of how the employees 
feel when they don't get a promotion or they don't get a pay 
raise.
    And the process that was in place was not a bad process, 
but I think it lacked a human touch. And so I have had meetings 
with all of the top managers within the different business 
operations, along with the head of our EEO Office, to describe 
to them what I would like to see happen over a period of time. 
More training is needed for our supervisors to be sensitive to 
these kinds of issues. And more importantly, when someone 
doesn't get a promotion, there should be a meaningful meeting 
with that individual to describe to them why they failed to 
meet the requirements and did not get the promotion and then 
offer them an opportunity to get the training necessary to be 
able to qualify the next time, rather than just say, we are 
sorry, you didn't make it, and good luck. And I think that is 
the way the agency has been operating.
    So we are changing in that way. And I think we will see a 
big change in that.
    The other aspect of this that bothers me is that there is a 
mediation aspect in the EEOC process that is rarely used. It is 
no cost to the employee to just move from the initial charge 
right into a formal charge, and so of those individuals who 
raised allegations of discrimination in 2010, all of them opted 
to use traditional EEO counseling instead of the mediation 
process, despite its success rate in the Federal sector in 
resolving disputes.
    Now, at the end of the day, many of these charges are found 
to be without merit, either in court or before they get to 
court. And the employees feel cheated because they got involved 
in a process thinking that they were going to achieve something 
or get something out of it.
    I firmly believe, because I have a background in 
negotiating and mediating, that they would get more out of the 
mediation process if there were a way to get them into it. And 
I think we have failed miserably as an agency in convincing 
people to take that step as part of the process, because I 
think that in mediation, they would see progress; they would 
see things happen for them that are good, rather than getting 
into the end of a legal process.
    Mr. Bishop. In the process, though, can't either side when 
there is an equal opportunity complaint, request mediation?
    Mr. Boarman. No, I believe, and I will check on this, but I 
believe I am right in saying that it has to be both sides have 
to agree.
    [Information for the record:]

    If the aggrieved individual elects mediation in lieu of 
traditional EEO counseling, the agency official with authority 
to resolve the matter must participate in the mediation 
efforts.

    Mr. Bishop. And can the Equal Employment Opportunity Agency 
initiate mediation before they issue a right to sue letter?
    Mr. Boarman. Well, I don't know the answer to that. You may 
be right. But evidently, it is not being used. It is not being 
utilized, because we end up in court in some cases, and it is 
very expensive. We have lawyers in the General Counsel's Office 
that work on this on a regular basis.
    [Information for the record:]

    If an individual files a formal complaint, they must 
exhaust administrative remedies before proceeding to court. The 
Equal Opportunity Commission requires that all federal agencies 
make available ADR during the pre-complaint and formal 
complaint stages of the EEO process. At the GPO, mediation is 
the technique utilized.

    Mr. Bishop. Which means that with your new approach, if the 
agency took the initiative to try to utilize a mediation or 
conciliation process, it could save a lot of expense of having 
the lawyers in court----
    Mr. Boarman. I agree.
    Mr. Bishop [continuing]. All of this?
    Mr. Boarman. I agree.
    Mr. Bishop. Not wasting everybody's time and the taxpayers' 
money, too.
    Mr. Boarman. And that is what we are committed to doing.

                          FINANCIAL MEDIATION

    Mr. Bishop. How many complaints have you had to settle in 
terms of financial mediation?
    Mr. Boarman. I don't have the answer to that.
    [Information for the record:]

    There have been no findings of discrimination by GPO issued 
by the Equal Employment Opportunity Commission in many years. 
However, GPO settled 10 EEO complaints during FY 2010. The 
settlements included remedies such as attorney's fees (7), 
award (1), leave restoration (3), lump sum payments (4), 
promotions (2), reassignment (3), and training (1).

    Mr. Bishop. Have there been any complaints where you have 
had to offer back pay?
    Mr. Sherman. Yes, sir, there have been cases in the past 
where we have.
    [Information for the record:]

    While there have been cases in the past where back pay was 
awarded, no back pay was awarded in FY 2010 as a remedy during 
the administrative process. Settlements involving promotions 
have typically included a lump sum payment instead of back-pay 
awards.

    Mr. Bishop. Do you know about how many complaints and how 
much in terms of dollars? Did it come out of your budget, or 
did it come out of a judgment fund?
    Mr. Sherman. Cases settled in court come out of the Justice 
Department judgment fund. Cases settled administratively come 
from GPO funds.
    Mr. Boarman. There were some significant cases back in the 
1970s and 1980s, and probably one of the largest EEOC cases of 
all time was the GPO.
    Mr. Bishop. I am looking at 2009, though. I am not trying 
to go back----
    Mr. Boarman. But we can get that for the record.
    Mr. Bishop. Thank you.
    [Information for the record:]

    During FY 2010, GPO settled 10 EEO complaints. Some of 
these were settled at the administrative level, involving 
payments from GPO funds, and some were settled with payments 
from the Justice Department's Judgment Fund as the result of 
the cases being in district court. Total monetary benefits paid 
for administrative settlement were approximately $66,300, 
inclusive of lump sum payments and attorney fees and costs. 
Judgement Fund payments to settle cases during the same period 
totaled $150,000, inclusive of attorney fees.

    Mr. Crenshaw. Thank you, Mr. Bishop.
    Now I would like to welcome Mrs. Emerson.
    Mrs. Emerson. Thank you, Mr. Chairman.

                          UNUSED OFFICE SPACE

    It is nice to see you again, Mr. Boarman. A couple of 
questions I wanted to ask. Under the subcommittee I chair, 
Financial Services and General Government, I have the General 
Services Administration, and we always have issues with unused 
office space, and so I am curious, do you all work with GSA, or 
do you stay independent from them?
    Mr. Boarman. No, we do not. We are a legislative branch 
agency, so we are independent of them.
    Mrs. Emerson. Right. But I think there is a way that you 
can work through them. I am not suggesting that or advocating 
that you do so because they have their own issues. But I was 
just curious as far as the----
    Mr. Boarman. We would be open to certainly exploring that 
because I am very serious about this. I mean, I think it is one 
of our major overhead issues that we need to get our arms 
around. And we can move I believe the people that we have in 
these areas that are sort of rattling around into the other two 
buildings and make the space available. And from what I am 
seeing, Congress could use a lot more space.
    Mrs. Emerson. Well, even if Congress didn't use it, is 
there anything, any legal reason why an executive branch agency 
couldn't use some of the space?
    Mr. Boarman. Without a statutory change, the only thing I 
can think of is we would have to get approval from the Joint 
Committee on Printing because they oversee us, and they have a 
final say, and they have to sign all contracts for us, so we 
would have to go there.
    Mrs. Emerson. The only reason I suggest that is because 
there are a lot of agencies that need extra office space, and 
it seems to me that if they could get it for a much more 
reasonable price through you----
    Mr. Boarman. And within walking distance of the Capitol.
    Mrs. Emerson. Right. And I don't know that they care to see 
us too much, but that is besides the point. You know what I am 
saying. I am just thinking. If in fact you can get that kind of 
approval, it seems to me that then we are killing two birds 
with one stone, saving money and giving you some extra income 
that might be helpful. And I appreciate you looking in to 
seeing whether that would be possible.
    Mr. Boarman. Thank you for that.
    Mrs. Emerson. You are most welcome. It is, you know, 
100,000 square feet. There are other agencies who have leased 
that, probably 600,000 square feet in anticipation of something 
happening and sitting on it for a year, and that is just 
taxpayer money down the tubes.
    Mr. Boarman. Right.
    Mrs. Emerson. I would love to be able to figure out how we 
can help you get this space done.

            PRINTING FOR THE 2013 PRESIDENTIAL INAUGURATION

    In your testimony, on page 6, we are talking about 
congressional printing and binding appropriation. And the 
increase there, at the bottom, you say of the increase, 
$1,400,000, is estimated to be required for work to support the 
2013 Presidential Inauguration. So tell me, what in 2011, well, 
okay, fiscal year 2012, you are doing to prepare for the 
inauguration that you would need that money for.
    Mr. Boarman. Well, first of all, as you know, the 
inauguration of the President is a congressional affair. I 
mean, the people lined up on the Mall and all the parties 
afterward that is something else.
    Mrs. Emerson. Believe me, I know. I lost my children during 
the last one.
    Mr. Boarman. But the event that happens here at the Capitol 
is solely put on by the Joint Congressional Committee on 
Inaugural Ceremonies, and so we print for them. And we expect 
fully that perhaps as early as the spring of 2012 and certainly 
by early summer to be getting orders from them for printing. 
And of course, it is invitations. It is tickets. It is security 
ID badges. It is signs. It is a full gamut of things you would 
have for that kind of an affair. Last time we spent $1.4 
million on that, and that was based on the orders that they 
gave us and the time restraints that we had to go through.
    I think some of the security ID badges, which took a little 
more work, I think the U.S. Capitol Police may have picked up 
the tab for that, because these were unique. They had never 
been done before. The ID's had an ability for someone to read 
them with a reader right on the spot. So if you had someone, a 
sentry or a guard standing there, someone could come up and 
check their badge to see if they were legitimate. And we will 
be doing more of that I am sure, but that is generally what we 
do. We fully expect to be getting orders in 2012, and that is 
why it is in this budget.
    Mrs. Emerson. Except, forgive me for seeming ignorant here, 
but since we--I mean, let's just anticipate, for example, that 
President Obama will be reelected. Okay, so then we know that, 
but it is possible that he may not be. So how are you printing 
things when you don't know who the President is to be? I mean, 
I am just curious.
    Mr. Boarman. Well, there are lots of things that obviously 
the Joint Committee does. We wouldn't have gotten work in June 
of 2008 if there wasn't work to be done. We don't put the 
President's name on all inaugural materials, but I can get you 
an answer for the record.
    Mrs. Emerson. Well, could you? I would just be curious, 
what things actually do get done in that budget? I am not--you 
know, because I don't know and I am curious, particularly since 
we have no clue who the President is going to be.
    Mr. Boarman. Inaugural IDs, tickets, signs, and other 
materials. Anything that would not have the President's name on 
it, we would work on ahead of time.
    Mrs. Emerson. So just the big invite, I guess, because it 
has the names is what gets done at the last minute.
    Mr. Boarman. There would be tickets probably that we would 
work on, signs, IDs, all of those kinds of things. Anything 
that they ask us to do, we do.
    Mrs. Emerson. Okay. Well, no, I mean, I couldn't quite 
remember if the President's name was on everything. I just 
imagined at least the invitation would have to have the 
President's name on it.
    Mr. Boarman. That would be the last thing we would do, I am 
sure.
    Mrs. Emerson. And so you had a $1.39 million shortfall from 
last time?
    Mr. Boarman. And that was because, we always estimate the 
printing that Congress is going to send us, and that is what we 
ask for in our appropriation. And then we got more requests for 
hearings and bills than anticipated, and that is what the $1.39 
million represents.
    Mrs. Emerson. Okay. So that doesn't relate to the inaugural 
of 2008.
    Mr. Boarman. No. There were two things, the inauguration 
costs and the printing that we did beyond what we were given 
appropriations for, based on the demands of Congress.

                         CONGRESSIONAL PRINTING

    Mrs. Emerson. Okay. Thanks. That clarifies that.
    And then did you say, or I might have misheard you, in your 
oral testimony, did you say that if you can't do as much 
printing work as you are currently doing, then you can't pay 
for digital enhancements? Did I hear you say that correctly?
    Mr. Boarman. Well, the way we bill the Congress is on print 
orders. And so if you are going to cut back the printing, we 
wouldn't be able to bill for the work that is done; and 70 
percent of it is not printing. It is prepress. And so we 
actually bill Congress on a per-page cost. So I guess what we 
are asking for is for the committee to consider us billing 
Congress a different way, and we can work with the staff on 
that to get that done and get the appropriate language worked 
out.
    Whatever the appropriation is, it is, but we want to be 
able to bill that appropriation for the work that is done. If 
we are asked to produce fewer copies, we still have to pay for 
the 70 percent to get it up online.
    Mrs. Emerson. So, in other words, we may not in fact, by 
passing the legislation we have to reduce printing operations, 
we are not necessarily saving money; is that what you are 
telling me, at the end of the day?
    Mr. Boarman. Well, I think that some of it may actually 
cost you more money.
    Mrs. Emerson. Really?
    Mr. Boarman. It depends on what the individual 
congressional offices do. If a Member and his or her staff has 
not used the Congressional Record on a daily basis other than 
on the screen, then they absolutely should cancel their 
subscription, which would save money.
    But if they cancel it and then print it out or maybe half 
of it out every day over a period of time, it is going to cost 
the legislative branch. You know, it will save money over here, 
but it is sort of like the argument on the overhead. It is 
shifting it somewhere else.
    Mrs. Emerson. I understand that.
    Mr. Boarman. That is the point I was trying to make.
    Mrs. Emerson. Thank you.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. I have just one more question. We have time 
for another round.

                           PRINTING EQUIPMENT

    You mentioned that you pay for your equipment. I guess you 
have a revolving fund. And I just wonder, has that worked okay? 
I mean, is all your equipment up to speed, is your pricing 
structure adequate to make sure you can replace all your 
equipment and continue to do things in an efficient way?
    Mr. Boarman. Well, our revolving fund is what we use to 
make our capital investments. Earlier this year we had about 
$12.8 million appropriated there, and that was mostly taken out 
in this last round of budget cuts, so it left us pretty high 
and dry for future investments in equipment. And we do need to 
do that. I mean, we have three old presses that are the work 
horses that every day produce hearings and bills. But they 
should have been replaced by now.
    And there was a staff recommendation to do that last year, 
and it was not done. Now we are in a situation where the money 
has dried up. So we are going to have to work our way through 
all of the issues that I have talked about today in terms of 
overhead and try to get our arms around some savings and 
hopefully replenish the revolving fund to make some critically 
important investments.
    We will be looking at equipment opportunities as they avail 
themselves, but we certainly need to at some point replace 
those presses. If printing loads drop, that would change the 
kind of press we would look at.
    Mr. Crenshaw. But so far, you are pretty up to speed?
    Mr. Boarman. Well, we have all kinds of presses. I mean, we 
have presses that print envelopes, that print stationery, and 
other equipment.
    Mr. Crenshaw. Do you have any particular need right now, 
because what happened to that revolving fund? Who took it? Did 
we take it?
    Mr. Boarman. Yes, sir, you took it.
    Mr. Crenshaw. Sorry about that.
    Mr. Boarman. And that would have been helpful. Because it 
is exactly the money that we would have needed to probably buy 
two presses. These presses are very expensive. They cost 
anywhere from $4 million to $6 million apiece. And in this 
business, you can't just have one, because if one breaks down, 
so you need to order two. And when you order one, it could take 
you a year to 2 years before it is delivered, so it is a long 
process. So if we still had that money, we would probably be in 
the process of getting approval from the Joint Committee on 
Printing to purchase some new presses.
    This is one of the things that I never quite understood for 
an operation this size: I cannot make a purchase for more than 
$50,000 without the Joint Committee on Printing approval, even 
if I have the money in my budget. In today's market, you can 
hardly buy a bunch of laser copiers for $50,000. And I have 
asked them continuously to push it up to at least $150,000 or 
$300,000, because for decent size equipment, you are talking 
about millions of dollars.

                           MANAGEMENT LEVELS

    Mr. Crenshaw. In terms of management, I hear from time to 
time criticism that you have a lot of levels of management 
within the folks that work there. Have you looked at that as a 
new guy, to see if all those levels are important? Are there 
ways to streamline that?
    Mr. Boarman. Well, we did look at that, and what we found 
is that in the Federal Government, the ratio of supervisor-to-
worker is about 12 percent, and we are just about at that 
level, so I don't think we are out of whack.
    Now, having said that, I mean, I am constantly looking at 
ways to make economies. We have had four or five top SLS's who 
have left since January and voluntarily gone someplace else, 
and four of them were not replaced. And that is a savings of 
like $800,000 annually. SLS's are like $165,000 plus benefits, 
so each one of those is about $200,000. So I am looking at all 
that.
    I tell you, in the production area, we only have about 800 
people that do all of the production for the entire Government, 
not just for Congress, but for the Office of the Federal 
Register, which we do every day, and other agencies. We put 
that work up online as well. We do all the printing for the 
President. We do the budget for OMB. Of course, we contract out 
about 75 percent of what we take through the doors. But for 
production purposes for the entire Government, we have only got 
800 people. And so 12 percent of that is supervisors.
    And I have to tell you, when I go home at night knowing 
that Congress is in late, I can sleep because I know that those 
supervisors are going to make sure that that work gets done. I 
came in one morning after we had a bad ice storm, and I was 
very worried that we were going to be in trouble up here 
because we were running late. I got an e-mail, as I do every 
morning, from Lyle Green our Congressional Publishing Director, 
who is behind me, that the Record was going to be late; enough 
people could not get to work. And they normally come in under 
any circumstance, but this was an unbelievable ice storm.
    And I went down to the bindery to see where we were, and 
there was my top operations guy on the end of the bindery 
taking Congressional Records off and stacking them on a pallet. 
So it is that supervisory core that knows how to push that work 
and will do whatever they have to, to make sure that Congress 
gets what you need, whether it is up online or ink on paper. So 
I don't think that we are--you know, I think we are right where 
we should be in that level. In the management ranks and maybe 
the white collar areas, I am looking at them, and maybe we can 
downsize there.
    Mr. Crenshaw. Thank you.
    Mr. Honda.
    Mr. Honda. Thank you.

                          PERSONNEL GUIDELINES

    Just to follow up on Mr. Bishop's question on the personnel 
and human resources areas. Are there written guidelines for 
management on what the process is in terms of announcements 
that are adequate so that people can look at it and bid for it? 
And in terms of the day-to-day work that management does, are 
there guidelines for them to be following in terms of how they 
operate and how they do business on a daily basis? Is there 
transparency, and is there some engagement of those that are 
being managed?
    Mr. Boarman. Well, there are guidelines for everything. All 
our jobs are competitive, and they are open competed. Most of 
the jobs that open for promotion within GPO are limited to GPO 
employees, so it gives them a better chance. And occasionally 
we will open it government-wide if we need some special 
talents. But by and large, most of the promotions are able to 
bid in the competitive service by employees within GPO, and 
there are guidelines for all of that.
    The guidelines are in typical Government language. Are they 
adequate to deal with the sensitivities that Mr. Bishop 
addressed? Probably not. And that is something that I am trying 
to work on. I think it is more of a human touch than 
regulation. I think the regulations are there. I think people 
need to be trained how to respond to the needs of people when 
they are disappointed and they are let down.

                               DIVERSITY

    Mr. Honda. On the human touch, I don't have an argument. 
But just quickly, off the top of your head, if you were to 
break down the staff, what is the demographic? What is the 
percentages of folks at the top?
    Mr. Boarman. Well, we are highly a majority minority 
organization. About 58 percent of our employees are minorities, 
with about 54 percent African-American. And some of them hold 
very high level positions. My chief of staff, who basically 
runs the GPO on a daily basis, is an African-American woman and 
one of the finest people that works for me.
    Mr. Honda. Any Latinos?
    Mr. Boarman. Well, I just hired an interim Inspector 
General who is a Latino. We have Latinos, yes, we do. We have 
Asian Americans.
    Mr. Honda. Let me just go through it. Asian Americans?
    Mr. Boarman. Yes, we do.
    Mr. Honda. So, institutionally, then you are--you have a 
diverse group?
    Mr. Boarman. Yes, though I think we could do a better job 
in some areas.
    Mr. Honda. So you can't say we do promotions internally, 
because when people do promotions internally if there is not a 
diverse population, then you have an institutionalized kind of 
setup.
    Mr. Boarman. Most but not all promotions are internal, and 
we are very diverse.
    Mr. Honda. Okay. I will submit something in writing in 
terms of----
    Mr. Boarman. I will be happy to do that.
    Mr. Honda [continuing]. the achievement of increased square 
footage efficiency. There are techniques. I would just be 
curious to have a discussion with you on how you can achieve 
that.
    Mr. Boarman. I would be happy to do that.
    Mr. Honda. Mr. Chairman, thank you.
    Mr. Boarman. And I would welcome the opportunity.
    Mr. Crenshaw. Mr. Bishop.

                                 PAPER

    Mr. Bishop. It seems as if paper is under attack these 
days, and I think Mrs. Emerson referred to the Stop the Over-
Printing Act that would end the requirement that GPO print hard 
copies of bills and resolutions. And earlier this year, the 
House also passed under suspension of the rules a measurement 
to reduce the Department of Defense printing and reproduction 
budget by 10 percent, which is supposed to save $357 million. I 
know that it appears that paper is going out of fashion. Is it 
really? Are there some areas where we will need to continue to 
have paper? And as we move into the future, 5 years, 10 years, 
what do you foresee how the future of paper, with regard to 
your agency and overall with regard to government?
    Mr. Boarman. Well, I don't think Congress is ready to be 
paperless today or tomorrow. Ten years from now, I think that 
is certainly a possibility. I remember one day when you and I 
met off the House floor, I noticed that you had an iPad with 
you, and I use one every day, and I think that when that 
technology or something that replaces it that is even better 
and every Member of the House and every staff person has one, 
where you could actually sit on the floor of the House and page 
through a bill and find and search for what it is you are 
looking for, I think that paper is going to be less and less 
used.
    But for archival purposes, I think you absolutely have to 
have paper copies. There is no assurance that any of this stuff 
that we are storing electronically will last for a hundred 
years. Paper and microfiche are the only proven archived 
mediums at this point.
    Mr. Bishop. Microfiche?
    Mr. Boarman. Well, microfiche doesn't wear out, even though 
a lot of people don't use it. So I think paper is going to be 
around for archival purposes. I certainly hope so. There is a 
lot of libraries in remote areas in the country that can't 
afford the technology that is out there. And people go to those 
libraries to see what their Government is doing. And a lot of 
them are depository libraries, and we provide them with copies 
through the budget that you approve for us each year. So I 
think it is going to be around awhile. But I do think that when 
the technology continues to improve, I mean, there will be less 
and less demand from GPO to print for the Congress, and 
certainly 10 years out, that is a possibility.

                                WEB SITE

    Mr. Bishop. Well, one follow-up to that. A member of my 
staff has commented that the GPO Web site is very challenging 
to navigate, especially when it comes to searching for 
government documents. I have been asked to ask you whether 
there have been any efforts to streamline your Web site to make 
it more user-friendly.
    Mr. Boarman. Well, I have heard that complaint before. 
Personally, I don't have an issue with it. I am able to 
navigate it.
    Mr. Bishop. You know what you are looking for.
    Mr. Boarman. Yes, sir. But clearly, if people are having a 
problem with it, we have got to do better. GPO's chief 
information officer resigned about 2 weeks before I arrived who 
was responsible for the FDsys program, and I had a search, a 
nationwide search for a new CIO.
    Mr. Bishop. What program are you referring to?
    Mr. Boarman. The FDsys, the Federal Digital System. And 
that is what is up online. We have GPO Access, which we began 
in 1994 and it will sunset at some point, and then we have 
FDsys, our new system and that is the future. And I think that 
is where the complaint is coming from, because I have heard 
that. For legislative tracking research that many congressional 
offices perform, the Library of Congress' THOMAS is clearly a 
good search engine. But remember, everything that THOMAS puts 
up comes from us; everything comes from us.
    Mr. Bishop. So they organize it better.
    Mr. Boarman. Well, they do for certain needs that Congress 
has. But I am not sure that historically FDsys was supposed to 
do the job that THOMAS does. THOMAS has its place in 
Government, and ours serves the need for official, permanent 
access to Government publications. But you asked a good 
question, and it is something that we will be working on, and 
it is another challenge for us to make sure that we make FDsys 
more user-friendly. The fact that I can use it doesn't mean 
that everybody else can use it. And if we hear that, we are 
concerned about it, and we are going to work on it. Thank you 
for the question.
    Mr. Bishop. Thank you, Mr. Boarman.
    Mr. Crenshaw. I don't have any more questions.
    Do other members have any more questions?
    Mr. Honda. The FD system, when you are going about 
reviewing the Web site, do you go through the process of 
understanding what approach you are going to use to design your 
Web site? The most recent process is called crowdsourcing. It 
is a more open source. And for a government agency, it seems 
like you might want to look at having the public participate in 
designing a Web site so that we might match up with what they 
are used to seeing, so you might want to have your staff look 
at that.
    Mr. Boarman. We will look at that, and we would be pleased 
to have more discussions with you about that.
    Mr. Honda. Thank you.
    Mr. Crenshaw. Thank you, Mr. Boarman.
    Mr. Boarman. Thank you, Mr. Chairman.
    [Following are questions submitted to be answered for the 
record:]

[GRAPHIC] [TIFF OMITTED] T5845B.009

[GRAPHIC] [TIFF OMITTED] T5845B.010

[GRAPHIC] [TIFF OMITTED] T5845B.011

[GRAPHIC] [TIFF OMITTED] T5845B.012

[GRAPHIC] [TIFF OMITTED] T5845B.013

[GRAPHIC] [TIFF OMITTED] T5845B.014

                                           Wednesday, May 11, 2011.

                      CONGRESSIONAL BUDGET OFFICE

                                WITNESS

DOUG ELMENDORF, DIRECTOR

                  Opening Statement--Chairman Crenshaw

    Mr. Crenshaw. Now I want to welcome Doug Elmendorf, the 
Director of the Congressional Budget Office. This year you 
requested about $46.9 million, and that is about the same as 
last year before we had a $100,000 rescission. And the 
committee should note that in fiscal year 2009, you received a 
$2 million supplemental that was available in fiscal years 
2009, 2010 to help out with increased workload, with health 
care, and financial housing markets, et cetera.
    Also, I want to thank you and your staff for the great job 
that you did on the fiscal year 2011 appropriations process. We 
all worked long and hard on that. And I especially want to 
thank Janet Airis and her staff for the unbelievable and 
outstanding job of scoring and support for our full committee, 
as well as the work that she did for the subcommittee.
    Mr. Honda. Are you looking for a raise, or what?
    Mr. Crenshaw. I am going to leave that to him. But with 
that, Mr. Honda, would you like to make an opening remark?

                      Opening Statement--Mr. Honda

    Mr. Honda. I just want to add my congratulations and thanks 
to the chairman's thanks. We did an internet news search on the 
term ``Congressional Budget Office'' and found nearly 1,000 
hits in reference to your agency, half of which was saying you 
were overestimating, the other half said were you 
underestimating. So that showed us that you were----
    Dr. Elmendorf. We cannot win!
    Mr. Honda. Your function, as it should be, as an 
independent, nonpartisan group.
    I was just thinking about how to create a metaphor for your 
office. The only thing I could think of was Moses. You know, he 
had a brother named Aaron, and Aaron always helped Moses out, 
such as keeping his hand up with the staff in his hand so the 
Red Sea would part. We never hear much about him except for 
that. The term ``I am my brother's keeper,'' and, yes, you are. 
And sometimes you say, he ain't heavy, he is my brother. So you 
have got all kinds of metaphors, at least in my head, in 
appreciation. I think that sometimes goes unsaid. And we place 
upon you a lot of burdens, and after you do that, we either 
whip you or we do not even pay attention to you. So for being 
what do you call this, abusive parents, I want to thank you for 
doing your job everytime we ask. And I look forward to your 
testimony.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. Mr. Elmendorf, as you know, these are 
difficult economic times. We talked about that before. I note 
that your request is pretty much the same as last year. So I 
look forward to hearing your testimony. Your full statement 
will be inserted in the record.
    Dr. Elmendorf. Thank you.

                    Opening Statement--Dr. Elmendorf

    I should start by saying that Janet Airis and her team are 
terrific analysts, and I am proud to be their colleague.
    Mr. Chairman, Congressman Honda, Congresswoman Emerson, as 
you know, CBO's mission is to provide the Congress with 
objective, impartial analysis of budget and economic issues. In 
fulfilling that mission, we depend on a highly skilled 
workforce. And roughly 90 percent of our budget represents 
compensation for our staff. Therefore, as you discuss the 
appropriate size of CBO's budget, you are effectively 
discussing how large a budget office you want to have. And that 
depends in turn on the amount and types of estimates and other 
analysis that you want to receive from us.
    We do not expect and are not requesting to be spared from 
the budget stringency facing the rest of the Federal 
Government, but the challenge we face every day is that 
requests for our estimates and analysis exceeds our ability to 
produce them. So I do not want to pretend that CBO could do 
more or even the same amount for Congress with fewer resources.
    Each year we produce about 650 formal cost estimates, but 
those are just the tip of the iceberg, because more and more we 
are being asked to provide informal estimates of proposals, 
both at early stages of the legislative process and later for 
floor amendments. Those informal estimates number in the 
thousands.
    Each year we also release about 100 analytical reports and 
other publications that support those cost estimates, including 
our budget and economic outlooks, our analysis of the 
President's budget, our long-term budget outlook, monthly 
budget reviews, and in-depth analyses of a broad range of 
policy issues, including health care delivery and financing, 
policies for increasing economic growth and employment, tax 
reform, and defense policy.
    In addition, our work is becoming more difficult and time-
consuming because of the increasing complexity of the analysis 
that Congress is asking us to do. One important example is 
health care. Current law now includes a complicated combination 
of programs meant to provide insurance coverage and influence 
the delivery of health care. Estimating the costs of those 
programs and proposals to change those programs is even more 
daunting now than it was a few years ago.
    Another example of increasing complexity is the financial 
area. The conservatorship of Fannie Mae and Freddie Mac, the 
passage of the Dodd-Frank bill, and other policies have greatly 
increased the government's involvement in the financial sector, 
again making budget estimates and other analyses much more 
challenging for us.
    And the third example is increasing demand for long-term 
estimates. To examine the effects of extending expiring tax 
provisions or the effects of proposals to correct a very large 
long-term fiscal imbalance, we have had to do new thinking and 
new modeling to extend our analyses decades into the future.
    The Congress boosted CBO's resources in 2009 and 2010 to 
enable us to better address health care and then also financial 
issues without sacrificing other work we do. This was part of a 
multiyear plan to boost staffing from about 230 people to about 
260 people, but we have now changed course. CBO's proposed 
budget for next fiscal year, $46.9 million, is roughly equal to 
the resources that were available to us in 2010 and again in 
this year, 2011. This budget scales back the multiyear staffing 
plan to just above 250 employees. It also includes significant 
restraint in salaries and spending on information technology, 
neither of which could be sustained indefinitely. If the 
Congress were to approve a smaller budget for CBO, we would 
defer still more IT purchases, not buy some data we would 
otherwise use in our analyses, and cut back on training. 
However, we would also need to reduce the number of people at 
CBO, limiting the estimates and other information we could give 
to the Congress.
    The cut in staffing might be larger than you would expect. 
For example, a 5 percent cut in funding would allow us to 
average about 240 people over the coming year. But we would 
need to finish the year less than 240 due to the fact that we 
would start the year with more than 240. And that path of 
declining staffing would be nearly as fast as natural 
attrition, meaning we would be able to hire few, if any, new 
analysts. As a result, not only would we have fewer staff, 
their skills and expertise might not be well matched to the 
Congress' needs.
    In closing, I want to thank the committee for the support 
it has provided CBO for many years, and especially in the past 
few years. The people at CBO understand well or better than 
anybody the challenge you face in setting appropriations for 
CBO and for the rest of the Federal Government, and we are 
committed to doing the best possible job with whatever 
resources you provide.
    Thank you.
    Mr. Crenshaw. Well, thank you very much.
    The prepared statement of the Director of CBO follows:

    [GRAPHIC] [TIFF OMITTED] T5845B.015
    
    [GRAPHIC] [TIFF OMITTED] T5845B.016
    
    [GRAPHIC] [TIFF OMITTED] T5845B.017
    
    [GRAPHIC] [TIFF OMITTED] T5845B.018
    
                         STATUTORY REQUIREMENTS

    Mr. Crenshaw. You mentioned that 90 percent of your budget 
is people, if you have less money, you will have less people, 
and you will be able to produce less work product. I want to 
probe a little bit into where the demands for those products 
come from. Are they statutory? Do we write in the statute we 
have to have this? Like, for instance, health care, as we were 
developing legislation, I am sure that is one of the reasons 
there was some additional money appropriated, again on account 
of you had to do a lot of work on the front end of that. You 
mentioned that even now that it is law, you still have got a 
lot of things because it is so complex.
    But is there ever a time when you say, okay, there was a 
crunch time in terms of health care, but now that it is in fact 
a law, there will be things you need to do along the way, talk 
about that. Is there always some crisis that you have got to 
deal with? Are a lot of those crises produced by us and do we 
write in the statute that you have to file quarterly reports or 
do whatever? Or is a lot of that what you decide? Talk about 
how much of that is driven internally and how much is driven by 
us when we ask you to do something.
    Dr. Elmendorf. So I have been Director for a little over 2 
years, and it does feel to me like one big, long crisis period. 
I think a few thoughts. Some of our products are specified in 
statute. We are supposed to produce cost estimates for every 
piece of legislation reported out of committee, and we get to 
about 99 percent of those. We are required to produce outlooks 
for the budget and the economy by statute. We are required by 
statute to issue statements assessing the effects of mandates 
in legislation on State, local, and tribal governments, or on 
the private sector. We are now required, because of the PAYGO 
legislation, to submit additional estimates for inclusion in 
the Congressional Record before the House or the Senate vote on 
legislation, and we did about 150 of those last year.
    So some of these things are directly out of statute. I 
think almost all the rest comes from requests. By statute, we 
serve the Budget Committees first, and then the appropriators, 
and Ways and Means Committee or Finance Committee on the Senate 
side, and other committees beyond that. And anybody on those 
committees will tell you that we are behind in addressing the 
questions they are asking us. And I think it is partly that 
there are--the country faces very serious economic and budget 
challenges. This has been the worst economic downturn since the 
Depression, the worst financial crisis since the Depression. 
The budget deficits are the largest they have been since the 
Second World War. The long-term budget outlook is as dark as it 
has ever been. So these are very real problems.
    And I do not want to suggest that the questions we are 
being asked are in any sense unreasonable. They are all quite 
reasonable. But the problems are really across the board--the 
topics that we work on. And I think there are many alternative 
ways of proceeding--different Members of Congress have 
different views, but also individual Members or individual 
committees are interested in exploring the effects of trying 
this or trying that or a third thing. So we do estimates of 
many alternatives, usually before one is chosen by a committee 
to proceed.
    And I think again, as I mentioned in my remarks, just the 
complexity of these issues. So if you are thinking of trying to 
reduce health care spending, cutting payments to providers in 
Medicare by just passing a different formula, that is fairly 
straightforward. But if you want to know what happens if you 
change the way you pay providers, you pay them through groups, 
not individual procedures, well, that is a whole different sort 
of world that we have to understand, work with outside experts 
to model. And if you ask even if you cut payments to providers, 
well, what happens to the access to medical care? We do not 
model that very well yet either, and that is a crucially 
important question.
    So I think it is both the sort of state of the world, the 
legitimate interests on the part of Members of Congress in 
exploring alternative policies, and getting our views about the 
effects they would have, and then just the complexity of the 
issues that you are facing and we are trying to help you with.
    Mr. Crenshaw. For instance, can an individual Member 
request you to do a study as opposed to a committee or 
subcommittee?
    Dr. Elmendorf. Individual Members can ask, and we will try. 
I think as a practical matter we almost never get to projects 
that are not requested by either the chair or the ranking 
member of one of the key committees.
    Mr. Crenshaw. For instance the Architect of the Capitol has 
got a lot of projects he needs to get done, so he prioritizes 
them. Certain things are more important than others. And I am 
just wondering, if you are always pretty well pushed, is there 
a way that we can help you prioritize?
    Maybe it is a hard question to answer, but sometimes you 
might have an opinion as to how important the statutory 
requirement is as opposed to--maybe that is something you do 
not want to comment on in the sense that--but there are 
probably things that you see statutorily and say, well, that 
may or may not be as important as something else. And on the 
other hand, if you got a committee chairman, committee staff, 
or committees requesting those, you probably find some you 
would think are more important than others. But I know that is 
hard for you to make that decision.
    Is there a way that we can help you prioritize the projects 
that you are given so that you are not faced with just this 
overrun of requests?
    Dr. Elmendorf. As you understand, we try hard not to make 
it our judgment as to what is important. It is the Members' 
judgments of what is important. And we do look to the Budget 
Committees, who are our lead committees, for their guidance on 
that. We look to the leadership in some cases. And we just work 
our way down the order of the committees.
    We also, of course, are trying to balance majority and 
minority requests on both the House and Senate side. For 
example, I meet with our health managers once a week, more 
often at some points, and we have often a spreadsheet that has 
columns for the House Republicans and the House Democrats, and 
the Senate Republicans and Senate Democrats, and make sure we 
are making appropriate progress on all of those columns.
    I think the cases that are hardest for us are when there is 
sort of--when the doors are flung open for the purest sort of 
democracy. So the process now in the House sometimes of 
allowing a vast number of amendments on the floor is very 
difficult for us because we estimated the effects of literally 
hundreds of amendments in the week in which the appropriations 
bill was being debated, H.R. 1, but we did not get to 
everything.
    And that is the hardest for us, because it is not obvious 
what the priorities should be. And we try; we want to sort of 
get to as many things as we can. But in the end we look to the 
committees, and we look to leadership. And I think we are 
mostly effective at hitting the highest-priority items, but 
nonetheless I get a lot of phone calls from legitimately 
frustrated Members of Congress with interesting ideas that we 
would love to work on that we just do not have a chance to.
    Mr. Crenshaw. So it might be appropriate for us as Members, 
when we may ask you to do more with less, we might also think 
about how we can do more with less as well and not make the 
demands on you, recognizing that the resources may or may not 
be there.
    Dr. Elmendorf. Yes.
    Mr. Crenshaw. Thank you.
    Mr. Honda.
    Mr. Honda. Thank you.

                              BUYING DATA

    In light of the inquiry, I guess, put another way, to 
become a little bit more thoughtful and responsible for 
information that we ask in light of the constraints that you 
may have.
    I was wondering, you said that at certain times you have to 
buy data. One question would be at what point--what kind of 
data do you go after when you have to buy something? And is it 
something that you could do if you had the equipment, the IT 
equipment, the technological equipment? And it seems to me that 
having the right kinds of computational power and the ability 
to come up with answers to complicated questions using 
technology must exist out there. And I was wondering whether 
you thought of ways to address that not only through CBO, but 
maybe a bank of equipment that a variety of agencies can use 
and access. Like in our area, Silicon Valley, we have a 
supercomputer that we go to, but it is open to folks from NASA 
and everybody else that we can reduce years of computations. 
Can you help me out with that information?
    Dr. Elmendorf. Yes. So one thing we used the supplemental 
appropriation for, the chairman mentioned earlier, was to buy 
faster computers so we could run alternative policies through 
our health insurance simulation models in less time. That made 
a real difference in the turnaround that we could give to the 
committees working on health issues.
    It did not so much save us time, though, in a way. What it 
meant was that an analyst who started something running at 6 
o'clock at night could check again at 9:00 and get the answer 
instead of being able to go to bed and get up in the morning 
and see the answer. So we were able to analyze more variants on 
the proposals. I think that was useful. I hope it was useful 
for the congressional process. But it did not really substitute 
away from our needing the analyst to do the work.
    I do not think we need supercomputers. We do look to 
whether we need faster computers in certain areas, and that 
helps. We are not doing things that are quite as complicated as 
that.
    We buy data of different sorts. We buy data in the health 
area on surveys the health care people get. We buy data on 
prescription drugs, which is obviously an important part of the 
Federal health programs at this point. We buy data in the 
financial area to do analyses. And as we do work on the costs 
to the government of Fannie Mae and Freddie Mac, or the cost of 
the FHA, the Federal Housing Administration, programs, we 
benefit from data we buy on mortgages. So there are a number of 
different areas.
    On many other areas, of course, we use data the government 
collects and publishes for free, but there are some areas where 
we need data that we buy. And if we have less money, then we 
put off the buying. And I am not going to pretend that for any 
given year that is the end of the world. Obviously, if you go 
out a number of years and do not do that, then you are 
operating off a base of information that is old, and that runs 
a risk of our producing misleading information for you.
    Mr. Honda. Okay. Thank you.
    Mr. Crenshaw. Mrs. Emerson.

                       PROJECTING BUDGET NUMBERS

    Mrs. Emerson. Thanks so much for being here, and thanks for 
the work you all do. I know you are overworked all the time.
    Would you do me a favor and walk me through the process of 
projecting budget numbers for a 10-year period? Simply because 
given the way Congress works, we change our minds every 2 
years. And so, you know, any analysis that you do is--I mean, 
it is going to change. So, I mean, I am just curious if you 
would not mind walking me through that process.
    Dr. Elmendorf. So we start with an economic forecast. So we 
start by forming a judgment about what GDP growth will be, what 
inflation will be, what the unemployment rate will be, and we 
take that out usually a few years in the near term. It will 
depend a lot on the state of the business cycle that we are in; 
obviously bad now, booming at other times. Beyond the first few 
years, it generally depends more on what economists think of as 
the supply of goods and services in the economy. It is how hard 
people are going to work, how much saving there will be, and 
thus how much capital stock there will be for workers to work 
with and those sorts of things.
    Mrs. Emerson. So is there some subjectivity in this, 
though, however, because it depends on from whom you are 
grabbing your data, if you will?
    Dr. Elmendorf. There is a great deal of subjectivity. I 
worked in economic forecasting for the Federal Reserve for a 
number of years, and, you know, there is a lot of analysis that 
has been done that we build on, but tremendous uncertainty. We 
actually publish every year a report on the accuracy of our 
economic forecasts, and we are about as good as private 
forecasters. And whether one views that as an accomplishment or 
an admission of weakness, I do not know.
    And then on the economic projections, then we build budget 
projections. And we build them with tremendous knowledge of 
individual programs. So we have a lot of analysts who know more 
than I could master in 10 years about how certain programs 
work. And we look at recent trends in spending. Medicare 
payments slowed last year. We are not quite sure why. So we 
have a little slower growth in the next few years, but then we 
have the growth rate rebounding to more of a longer historical 
average, and we will discover whether that turns out to be 
right or wrong. In fact, as you mentioned, we won't really 
discover because you and your colleagues will have changed the 
law again. So we can't actually do systematic analysis of the 
budget projections because they are all conditioned on current 
law, and the law almost always changes.
    Mrs. Emerson. So if it is difficult to project what is 
going to happen within 10 years, how the heck can you possibly 
do it for anything beyond 10 years and even be able to look 
somebody straight in the eye and say, this is what is going to 
happen? I mean, how can you do that? I am not suggesting that 
you are doing it. I would not be able to say to my constituents 
this is what is going to happen in 10 years from now. Heck, 
they just blew the levee up in my congressional district last 
week.
    Dr. Elmendorf. I am sorry.
    Mrs. Emerson. Thanks. It is a horrible situation. But no 
one would have expected that.
    Dr. Elmendorf. So I think that any forecast that we offer 
even within the 10 years, and certainly beyond that, should be 
taken with some grains of salt. You and none of your colleagues 
should become committed to any particular number that we write 
down because the uncertainty is very large. And almost always 
when I end up testifying about our analysis, I end up talking 
about the uncertainty of everything that we do.
    At the same time, I do not think it would be right for us 
to just say it is so uncertain, we should not tell you 
anything, because I think that you and your colleagues are 
worrying about the long-term consequences of plans that are 
being enacted now, and I think we can give you at least a 
qualitative sense--we often write down some kind of number, but 
you should take it as a qualitative sense of what certain 
policies would do.
    Mrs. Emerson. I mean, heaven forbid that we could do this 
in the Congress, but would it be helpful for us to actually try 
to write laws--let us say we want to make some changes, we want 
to do tax reform, and let us just say we want to do it on a 
bipartisan basis. Would it be to our advantage, as hard as it 
might be, to actually do a 5-year bill so that we could make--
you know, so that we did not--or we were not tempted to make 
changes every 2 years, so the businesses actually perhaps had 5 
years to make a business plan, which is what I used to do the 
in the private sector? But it is impossible to do that anymore.
    Dr. Elmendorf. I think from an economic point of view 
uncertainty about government policies is a problem. It is a 
problem for government bureaucrats like myself in trying to 
plan what our agency does, and it is certainly a problem for 
businesses and households to not know what the Tax Code will be 
like in a year or 2 or 3 or 4.
    I think traditionally, when you and your colleagues vote on 
tax policy, you vote on permanent changes that are meant to be 
lasting even if they are often revisited. I think the problem 
is even harder now because there are so many features of the 
Tax Code that are scheduled to expire at the end of this year, 
or the end of next year, or so on, or that have recently 
expired, and people are still hoping to continue them, and that 
has made the problem much worse. It is hard for us. You cannot 
vote in this Congress to bind the actions of a subsequent 
Congress. So the 113th and 114th and 115th Congresses will work 
their will.
    I think the biggest thing that you and your colleagues 
could do that would be good for the economy would be to enact 
fewer things that expire that you do not really intend to let 
expire, but that you are sort of admitting you are going to 
come back and revisit.
    Mrs. Emerson. But given all of that which you just said, 
then how is it ever possible to even give us a projection 
knowing that, you know, every Congress has its idiosyncrasies, 
if you will?
    Dr. Elmendorf. So one thing we are trying to do more of, I 
think, is to give you alternative projections with different 
assumptions. So our baseline has a formal meaning, and was 
originally written into law, will follow current law, and I 
think that is appropriate. But we are more and more offering 
alternative scenarios, not recommendations from us, not 
predictions of what you will do, but just to give you a sense 
of what would happen under some alternative policies that a lot 
of people in the Congress are talking about.
    So if you look at our budget and economic outlook from this 
past January, in addition to the baseline, we have a table 
which lays out a number of alternatives about tax policy and 
discretionary appropriations. And then we pulled a few of those 
items out and drew some pictures and summarized the effects. So 
we looked at what would happen to the budget over the next 
decade if the 2001 and 2003 tax cuts were extended 
indefinitely, if the AMT was indexed indefinitely, if the 
Medicare payments to doctors were moved up from the big cuts 
that are in current law. We picked those items because those 
are the ones that most people talk a lot about wanting to 
extend.
    And so we show you two lines, and to give you a sense about 
just how sensitive the projections are of the choices that you 
will make. But certainly you will end up making choices that 
will be neither of those lines, and maybe in some different 
direction that we cannot foresee.
    Mrs. Emerson. Right. Sorry to go off on that, but I just 
wanted a sense because it is tough to make decisions. And then 
I am looking through your budget justifications and all these 
things on which you are working, and lots of things which 
really interest me, but----
    Dr. Elmendorf. Good. We try. The problem is the world 
changes, and you and your colleagues' interests change. And we 
try to move with that in the work that we do.
    Mrs. Emerson. Well, you do a good job even if sometimes we 
don't agree with the information that you give us. I know how 
difficult it is. I mean, we can be all realistic. It is like 
OMB. We don't like what OMB does either in many cases, but that 
is because we are appropriators. An appropriator-OMB issue 
always.
    But seriously, I know you and your team are greatly 
overworked, and I just appreciate the long hours and sometimes 
probably crazy things that we ask you all to do. So thank you.
    Dr. Elmendorf. Thank you, Congresswoman. I will tell my 
folks.
    Mr. Crenshaw. Mr. Bishop.
    Mr. Bishop. Thank you very much.

                               PRIORITIES

    Dr. Elmendorf, I have listened to you with amazement. I 
have watched the operations of your office, and you do a 
phenomenal job. But I really appreciate the attitude with which 
you have come to the committee this morning, indicating that 
you are willing to take cuts just like everybody else, but 
these cuts also have consequences; and that if we do not have 
what we think we need to work with, it means that we will not 
be able to present the work product to you that you may have 
requested us to do, but we will do whatever you ask with what 
we have to work with. I appreciate that very much.
    But as a Congress that is made up of lay people who come 
from so many various walks of life, in order for us to do 
justice to the responsibilities that we have to the American 
people, we have to have some accomplice, some organization, 
some entity that can keep us grounded. And your office is, I 
think, one of those agencies that is there to help us do right 
by the American people, if we have the will to do so, by giving 
us as much information as we can to make good, real-time 
decisions.
    So I am of the opinion that we have got to establish 
priorities as we make our budget cuts, because we have got to 
have fiscal responsibility, and we have got to eliminate the 
crisis that we are facing now with the deficit. But in order 
for us to do that, we have got to have the tools. And it seems 
to me that CBO is an essential tool. And if we shortchange CBO 
and treat CBO just as we treat all of the other agencies which 
we expect to tighten their belts--and I remind you, I know that 
there must be some efficiencies that you can find. But by and 
large, I just do not feel comfortable dulling the sharp-edged 
tool that you are by failing to give you fully what you need to 
keep us responsible to the American people. And I am close to 
the opinion that it would be a dereliction of our duty to tie 
your hands, because you are the person that removes the 
blinders from our eyes that we can see clearly what the effect 
of our actions will be to the extent that you can make those 
prognostications.
    So I am very, very concerned. And this is not a question, 
but I am very concerned. And I am just saying for the 
subcommittee that maybe this is one place where we ought to 
say, no, we ought not to cut this agency as hard as we may 
initially have thought we should, because, I mean, this is the 
brains of the operation. This is the accomplice without which I 
think we would be lost.
    With that, I yield back, Mr. Chairman.
    Mr. Crenshaw. I do not have any more questions.
    Mr. Honda, do you have any?
    Mr. Honda. No, except to say that I believe the fact that 
the CBO and the police department has been the two departments 
that we see as very important in functions for us, that to push 
ahead as best it is.
    Just to piggyback on Mrs. Emerson's comments, though, there 
is some real sensibility to looking at more than a 1-year 
budget process. And there will probably be ways to do a 
multiyear budget process where you have at least some targets 
and some understanding of where you want to be with our 
resources, and given changes in the landscape, that allows us 
to adjust accordingly. But the certainty is certainly something 
that I think the country needs. The people have to have some 
sense. And I think what she has talked about makes a lot of 
sense.
    I know that we cannot bind future Congresses, but we do. We 
do it in a lot of different ways. But I think trying to figure 
out how to put our monetary and fiduciary kinds of 
responsibilities in place so that it is predictable, and if we 
do make changes, we know the impacts of the overall plan when 
it does happen. So I think that is probably something that 
bears a lot more time to think about and think it through.
    The city of Sunnyvale, CA they have a 10-year plan in terms 
of budget. You want to make changes to it, you can, but you 
will know its impact on different parts of the city's plan. It 
is probably one of the best-run cities. Of course, it is a 
smaller subject area, but certainly the concept is applicable.
    I just wanted to make a comment about Mrs. Emerson's 
comments. With that, I just want to thank you for your service. 
And I align myself with Mr. Bishop and Mr. Crenshaw's comments 
about the service that your organization makes. I still think 
that we are our brother's keepers, and I am glad you are 
around. Thank you.
    Mr. Crenshaw. Thank you so much for being here today, for 
your testimony, for all the work that you provide. I appreciate 
it very much. Thank you.
    Dr. Elmendorf. Thank you for your kind words and your 
support.
    [Questions for the record follow:]

    [GRAPHIC] [TIFF OMITTED] T5845B.019
    
    [GRAPHIC] [TIFF OMITTED] T5845B.020
    
    [GRAPHIC] [TIFF OMITTED] T5845B.021
    
    [GRAPHIC] [TIFF OMITTED] T5845B.022
    
    [GRAPHIC] [TIFF OMITTED] T5845B.023
    
    [GRAPHIC] [TIFF OMITTED] T5845B.024
    
    [GRAPHIC] [TIFF OMITTED] T5845B.025
    
                                           Wednesday, May 11, 2011.

                    NATIONAL FEDERATION OF THE BLIND

                                WITNESS

JOHN G. PARE, JR., EXECUTIVE DIRECTOR FOR STRATEGIC INITIATIVES, 
    NATIONAL FEDERATION OF THE BLIND

                  Opening Remarks of Chairman Crenshaw

    Mr. Crenshaw. We are going to start now with our public 
witnesses. And I want to thank them all for being here, thank 
them for their interest in the Legislative Branch Subcommittee. 
I am going to ask everybody to limit your remarks to 5 minutes 
or less. Your full statements will be entered in the record. We 
are going to have six witnesses.
    Mr. Honda, let's yield to you before we ask our first 
witness.
    Mr. Honda. No, I just look forward to their testimony, and 
thank you very much.
    Mr. Crenshaw. Great.
    Well, Mr. Pare, we welcome you.
    As you may know, the first digital book players were 
distributed in 2009. More than 320,000 digital book players 
have been issued to date, and the Braille and Audio Reading 
Download Web site is also up and running. So we look forward to 
what you have to say. Thank you for being with us today.

                         Statement of John Pare

    Mr. Pare. Thank you, Mr. Chairman, thank you members of the 
committee. My name is John Pare, and I am the Executive 
Director For Strategic Initiatives at the National Federation 
of the Blind. I appreciate this opportunity to appear before 
the committee and to comment on the National Library Service 
Talking Book Program.
    The National Library Service is the primary provider of 
books for over 800,000 Americans who are blind or who have 
physical limitations which prevent them from reading Braille. 
Patrons of the service include Wounded Warriors, older 
Americans losing vision, people in education, and blind 
professionals in all levels.
    The NLS is the only public library that serves the blind in 
the United States. In fact, it is more than a public library. 
If a public library cuts back on services or closes down, 
sighted readers can go to another library or possibly purchase 
books, e-books on the computer, or go to their favorite 
bookstore. On the other hand, blind readers have no other 
choice but the National Library Service for the Blind and 
Physically Handicapped.
    I was sighted for most of my life. In 1996, I began losing 
my vision. I was diagnosed with cone-rod retina degeneration, 
for which there is no cure. In 2001, I lost my job due to my 
blindness. I was depressed. I could not read regular print, and 
I did not know Braille. I soon learned about the National 
Library Service and became an avid patron. The slogan ``You Are 
What You Read'' had been drilled into me by my parents. My 
reading helped me reconnect with society and helped give me a 
sense of purpose.
    As a result of fortuitous events, I learned about the 
National Federation of the Blind, and was offered a staff 
position. I am now here today, honored to talk to you about the 
NLS service on behalf of the NFB. NLS has historically provided 
its services for a relatively small portion of the Federal 
budget, around $55 million per year. As you mentioned, the 
digital transition has been taking place, and has required an 
additional infusion of funds, but will only require an 
additional $12.5 million per year through fiscal year 2013. We 
urge Congress to maintain this level of funding.
    We understand that ways are being sought to reduce the 
Federal budget, and we believe that the Library of Congress 
budget might be reduced by 5 percent. Assuming that these cuts 
are spread evenly over all Library of Congress programs, we 
believe that NLS can take its fair share of cuts without 
reduction in services to its patrons. The Librarian of Congress 
has authority to reallocate funds within the agency. We urge 
the Librarian to make sure that the full authorized 
appropriation is available for the NLS program.
    We believe that the NLS is the most important Federal 
program for blind people today, and it is certainly the one 
with the broadest and deepest impact. In my role at the 
National Federation of the Blind, I talk to hundreds, if not 
thousands, of blind people every year. They all tell me how 
important the NLS service is to them. When I tell them that I 
will be testifying in front of Congress, they always ask me to 
thank you for the NLS program. For example, Joe Minicello from 
Jacksonville, Florida, asked me to say, quote, ``I have used 
this service since I was 10 years old. I would not have 
obtained the good education and employment if I had not had 
access to Talking Books. Thank you for making my life as 
rewarding and fulfilling and productive as it is.''
    Mr. Chairman, on behalf of myself, and Joe, and hundreds of 
thousands of other people, blind people in the United States, I 
want to thank you for this opportunity to appear and to thank 
you for the NLS digital Talking Books program.
    Mr. Crenshaw. Thank you very much for your being here and 
being such an advocate.
    [The prepared statement of John Pare follows:]

    [GRAPHIC] [TIFF OMITTED] T5845B.026
    
    [GRAPHIC] [TIFF OMITTED] T5845B.027
    
    [GRAPHIC] [TIFF OMITTED] T5845B.028
    
    [GRAPHIC] [TIFF OMITTED] T5845B.029
    
    [GRAPHIC] [TIFF OMITTED] T5845B.030
    
    [GRAPHIC] [TIFF OMITTED] T5845B.031
    
    [GRAPHIC] [TIFF OMITTED] T5845B.032
    
    [GRAPHIC] [TIFF OMITTED] T5845B.033
    
                        FUTURE OF TALKING BOOKS

    The Members might have a question or two, but when you look 
at the future of the Talking Books, how do you see that, and 
what would be your main priorities that we ought to be looking 
at as we move forward with that program?
    Mr. Pare. The transition to the digital Talking Book player 
has been terrific. And I compliment Dr. Billington and former 
Dr. Cylke, or Mr. Cylke, who used to be the Director, for doing 
that work. And blind people, I think, in your district and 
across the Nation are thrilled with how that is going. We are 
certainly very happy with the digital download, moving more 
into sort of into the electronic age with digital access to 
books. And in a sense, we keep encountering that knowledge is 
power, for blind people especially that certain physical jobs 
are more difficult, that getting a good education is the key to 
getting a good job and employment and raising a family. So that 
access to the information is key for us. And the library for 
the blind is very, very important.
    Mr. Crenshaw. Thank you.
    Mr. Honda, any questions?
    Mr. Honda. Yes.
    Mr. Pare, thank you very much for your constant reminding. 
There was a couple of phrases that you used: It is not only for 
the blind, but for those who for physical reasons cannot use 
Braille or anything else like that. But it seems to me that 
coalition building with other folks might be helpful to 
increase your support system to move this Talking Book forward, 
because people, whether they are sighted or not sighted, learn 
in different modes. Sometimes the auditory process is more 
powerful when it is coupled with other things.
    On top of advantages that provide or help to provide folks 
who have sight disadvantages, Talking Books sounds like 
something that we should be probably investing more in to 
finding other uses for it; that it is not only set for folks 
who are losing their sight, but also people who can learn 
quickly, more quickly, using the auditory approach, too. So you 
have helped us think things through, and maybe even have a 
greater purpose for expanding Talking Books. So I appreciate 
your work and your advocacy on this. Thank you.
    Mr. Pare. Thank you, sir.
    Mr. Crenshaw. Mr. Bishop.
    Mr. Bishop. Yes. Let me just thank you--you pronounce that 
Pare?
    Mr. Pare. Yes, sir.
    Mr. Bishop. Mr. Pare, for your advocacy. I am very, very 
empathetic and want to do everything that I can to be helpful.
    On a personal note, Mr. Max Parker from the Georgia 
Federation of the Blind, who happens to live in Albany, 
Georgia, bends my ear on a regular basis. I grew up in Mobile, 
Alabama, and from the time I was 7 all the way through high 
school, I had a playmate whose backyard touched mine. And as 
kids, we always would choose sides for who would play on the 
ball team or who would play on the basketball team, and nobody 
wanted to choose Marvin because Marvin had a problem catching. 
We did not know why. After I left to go to college and my 
mother asked Marvin to pick up some of my chores, like pulling 
the weeds from her flower bed, Marvin finished the job and came 
to be paid. She said, ``Marvin, there are weeds all over the 
place'', only to finally get Marvin examined and to have his 
mother take him to the optometrist, who determined that he was 
legally blind.
    Fast forward, Marvin got his Social Security, and he did 
not make good grades in high school. But he was able to go to 
college with an interpreter and he finished college cum laude. 
He became a minister. And he is one of the most profound 
preachers that I have heard, never knowing that his disability 
as a child was preventing him from competing along with all of 
the rest of us.
    Fortunately, Marvin's situation has a happy ending. But the 
advocacy that you are doing today is very meaningful, and it 
will help a lot of people. And I believe that it is responsible 
for us to take that into account for those many millions of 
people who have limited sight. So I appreciate your testimony 
very much. I very much empathize with the many people who 
experience that disability.
    Mr. Pare. Thank you.
    Mr. Crenshaw. Mr. Pare, thank you so very much for being 
here and the work that you are doing. We appreciate it, and I 
am sure it will have a big impact as we begin our 
deliberations. So thank you very much.
    Mr. Pare. Thank you, Mr. Chairman.
                                           Wednesday, May 11, 2011.

                       GAO EMPLOYEES ORGANIZATION

                                WITNESS

RONALD LA DUE LAKE, PRESIDENT, GAO EMPLOYEES ORGANIZATION

                  Opening Remarks of Chairman Crenshaw

    Mr. Crenshaw. Next we are going to hear from the GAO 
Employees Organization, Ronald La Due Lake.
    I think you will find this subcommittee is a pretty strong 
supporter of the GAO. The Comptroller General last month said 
that every dollar we spend on the GAO, there is a return on 
investment of about $87. So I suggested that we just spend a 
lot of money on the GAO, and we could solve this whole debt 
issue we have. Right?
    Mr. La Due Lake. I would certainly not dispute that.
    Mr. Crenshaw. The floor is yours. Please give us your 
thoughts.

                Opening Statement of Ronald La Due Lake

    Mr. La Due Lake. Thank you. Thank you very much, Chairman 
Crenshaw, members of the subcommittee. I am Ron La Due Lake. I 
am a methodologist at GAO in the Applied Research and Methods 
Team. I am also the president of the GAO Employees 
Organization, IFPTE Local 1921. I am very pleased to be here, 
privileged at this opportunity to discuss GAO's budget request 
for fiscal year 2012.
    The GAO Employees Organization represents approximately 
2,000 analysts and specialists at GAO. Analysts, specialists, 
and other employees at GAO provide a remarkable amount of 
important information to the Congress and the American people. 
During fiscal year 2010, for instance, GAO provided assistance 
to every standing congressional committee and almost three-
quarters of their subcommittees. Our work yields significant 
results across government, including financial benefits of 
almost $50 billion.
    I am here before you today to request your serious 
consideration of GAO's budget request for fiscal year 2012. 
Congress has come to rely upon GAO to help identify billions of 
dollars in cost-saving opportunities, to tighten Federal 
budgets, or to point out revenue-enhancement opportunities. Our 
mission is ever more critical when the Nation faces difficult 
financial times. GAO employees understand that we will need to 
operate within constrained funding levels, and that this poses 
challenges for the agency and for employees.
    We are committed to helping GAO reduce its own costs as 
much as possible without diminishing our traditionally high-
quality work that lays the foundation for critical decision-
making and oversight by the Congress. Employees have been very 
supportive of GAO's cautious and deliberate measures to 
conserve expenditures in fiscal year 2011 so far. For example, 
employees have been contributing to savings in travel costs by 
developing creative alternatives in their engagement work, 
their audit work that minimizes travel while providing 
appropriate coverage in gathering critical information for the 
Congress.
    We hope to avoid the need for reductions in GAO's 
workforce, as well as furloughs, which would be disruptive to 
agency operations and our ability to provide critical and 
timely information to the Congress. We also hope to avoid such 
disruptions for employees and their families.
    Finally, I would like to note that we have recently 
completed negotiations with GAO management on our first master 
collective bargaining agreement. We used an innovative and 
collaborative approach to these negotiations, providing the 
opportunity for the talks to meet the interests of all parties, 
including the agency and employees, in a collegial, and 
efficient and a productive manner. We are fully prepared to 
continue this collaborative and productive relationship in the 
face of the current challenging economic times. GAO employees 
are ready to work closely with the agency to provide support to 
the Congress as efficiently as possible.
    That concludes my prepared statement. Thanks again very 
much for the privilege of being here. I am happy to take any 
questions.
    [The prepared statement of Ronald La Due Lake follows:]

    [GRAPHIC] [TIFF OMITTED] T5845B.034
    
    [GRAPHIC] [TIFF OMITTED] T5845B.035
    
    [GRAPHIC] [TIFF OMITTED] T5845B.036
    
    [GRAPHIC] [TIFF OMITTED] T5845B.037
    
    [GRAPHIC] [TIFF OMITTED] T5845B.038
    
    [GRAPHIC] [TIFF OMITTED] T5845B.039
    
    [GRAPHIC] [TIFF OMITTED] T5845B.040
    
    [GRAPHIC] [TIFF OMITTED] T5845B.041
    
    [GRAPHIC] [TIFF OMITTED] T5845B.042
    
    [GRAPHIC] [TIFF OMITTED] T5845B.043
    
                             TRAVEL SAVINGS

    Mr. Crenshaw. I have one quick question. It was interesting 
when you mentioned the ways to save on travel. Can you give us 
an example? This might be something we want to pass on to some 
other agencies, too. Just one or two examples of how the 
creative aspect of minimizing travel expenses that might be 
helpful for other folks.
    Mr. La Due Lake. Well, certainly. If you think about the 
way we do our work, we are frequently in the position of 
wanting to go to understand what is happening at the program 
level at a particular site, at a particular program, or 
multiple sites. So there are always decisions to be made about 
how many programs, how many locations, how many sites, how many 
participants in a program are appropriate to interact with.
    Some of the examples, the creative alternatives that we 
have seen, have been where particular job teams or engagement 
teams will interact with programs or participants or 
appropriate officials at a location that might be closer to one 
of our field offices or our headquarters, and then from there 
finalize the work that seems appropriate; and then interact 
with other relevant officials either through electronic means, 
through video teleconferencing, through survey techniques, 
through telephone interview protocols, those sorts of 
techniques. So that is one way, one example, of how engagement 
teams have really thought this through very seriously, trying 
to think very deliberately and strategically about if we are 
going to use travel dollars, how, and then how can we leverage 
those travel dollars to get us the appropriate information that 
would best inform the Congress.
    Mr. Crenshaw. Great. Thank you.
    Mr. Honda.
    Mr. Honda. I thought that was an interesting line of 
questioning, Mr. Chairman. People travel because they want to 
have a hands-on experience with a site and with the people. 
There is some visual stuff that you can do with 
teleconferencing. So there is a lot of prep work before you go 
so that when you do make the site visit, it is maximized with 
other activities before. So I think that is well worth 
pursuing, probably even having Members of Congress look into 
that, too, for our own benefit for our constituent work. I 
think we are going down the line where west coast Congress 
people can avoid flying 9 hours during the week. But, no, I 
guess we have to be here. Thank you very much.
    Mr. La Due Lake. Thank you.
    Mr. Crenshaw. Mr. Bishop, any questions?
    Mr. Bishop. I don't have any questions. I appreciate your 
service. I appreciate what your agency does. And again, you are 
one of those very, very essential functions that help us to do 
what we need to do by way of oversight. I appreciate the 
examples of sacrifice that your organization has made in light 
of the fiscal challenges that you are faced with. So thank you 
very much for what you do.
    And also let me just say I appreciate the spirit with which 
your collective bargaining took place. You approached it from a 
win-win perspective on both sides. And that is, I think, very 
refreshing.
    Mr. Crenshaw. We certainly appreciate what your agency 
does, and you as an individual, and your fellow coworkers. When 
we are asking everybody to do something that is more efficient, 
more effective than ever before, obviously you have thought 
that through, and you are working to make that happen. So we 
appreciate it very much. Thank you for being here today.
    Mr. La Due Lake. Thank you. My pleasure.
                                          Wednesday, May 11, 2011. 

                 LIBRARY OF CONGRESS PROFESSIONAL GUILD

                                WITNESS 

SAUL SCHNIDERMAN, PRESIDENT, THE LIBRARY OF CONGRESS PROFESSIONAL GUILD

                  Opening Remarks of Chairman Crenshaw

    Mr. Crenshaw. Next we are going to hear from the Library of 
Congress Professional Guild, Saul Schniderman, who is the 
president. We welcome you today and look forward to what you 
have to tell us.

                     Statement of Saul Schniderman

    Mr. Schniderman. Thank you, Mr. Chairman.
    Mr. Chairman, Mr. Honda, and members of the subcommittee, 
my name is Saul Schniderman, and I am president of the Library 
of Congress Professional Guild, AFSCME Local 2910. I am 
testifying today on behalf of 1,500 professional employees, not 
including employees of the Congressional Research Service, who 
thank you for the support of their work to make the Library of 
Congress a truly great library.
    With me today is an archivist, our chief steward for the 
guild, Nan Ernst; and an attorney adviser for the Copyright 
Office, Kent Dunlap, who is our chief negotiator.
    I want to begin my testimony by stating that we are 
respectful of Members' concerns for the Federal budget deficit 
and the need to address the economic ills for the Nation. We 
support Dr. Billington's modest budget request, and agree with 
the thoughtful remarks made by some members of this 
subcommittee who differentiated between spending and investment 
in the future.
    Mr. Chairman, at one time our Nation was rich in natural 
resources and the production of commodities, but today a new 
economy is being created. It is one which demands higher levels 
of education and innovation, and its success depends upon our 
Nation's ability to nurture and cultivate our intellectual 
capital. In medicine, telecommunications, science, literature 
and the arts, information technology and the like, the Library 
of Congress plays a pivotal role.
    In my testimony today I want to highlight only two of the 
Library's programs, which provide direct economic benefit to 
the Nation: our cataloguing operation, which assists thousands 
of communities, schools, and universities, and the work of the 
Copyright Office, which protects intellectual property and 
turns creativity into economic prosperity for our people.
    Today America's libraries are straining against a perfect 
storm. The storm is that there is a growing demand for library 
services, but State and local governments just do not have the 
budgetary resources. More people than ever are visiting their 
public library. They want to find employment and business 
opportunities, continuing education, and career development. 
Now the Library of Congress is filling the gap by providing a 
virtual library on the Internet, and it also helps by 
supporting local libraries by creating cataloguing records 
which we share with the Nation and the world.
    If I may, I can explain. Our cataloguing staff creates 
records, cataloguing records, for works in English and over 400 
languages, and then shares these records with local, regional, 
and academic libraries. One study estimated budget savings to 
these libraries in the range of $200- to $400 million annually. 
Is this a good investment? Yes, I think so, because records 
produced by the Library of Congress are the gold standard of 
cataloguing. This means that any library in the United States 
just uses it as a copy for its own cataloguing record.
    According to the American Library Association, and I quote, 
every type of library and library user, from students to the 
general public, derives substantial economic benefit from the 
intensive specialization of the professional cataloguers at the 
Library of Congress. If I may say so, we represent those 
cataloguers.
    Now, another good investment in the Library, which provides 
value to the Nation, is the U.S. Copyright Office, which serves 
copyright owners and the copyright industries by maintaining a 
public record system. By clarifying ownership of copyright, and 
by litigating disputes, the Copyright Office at the Library of 
Congress supports an industry that in 2007 employed over 5 
million workers and produced almost $9 billion in revenues.
    Because the United States is a world leader in producing 
copyright materials, in fiscal year 2010 the Copyright Office 
registered over 600,000 claims, which means that hundreds and 
thousands of books, films, sound recordings and other works 
were transferred to the Library's collection, an added value of 
tens of millions of dollars for which you do not have to expend 
and pass appropriations for. And thanks to the Copyright 
Office, America's authors and creators can combat the piracy of 
their own works both here and abroad. In short, America's 
creativity has become an economic engine which fuels the 
production of new works and gives birth to new opportunities.
    I want to close my testimony by commenting briefly on the 
backlog of claims in the Copyright Office. Mr. Chairman, and 
Mr. Honda, and members of the subcommittee, good news is on the 
horizon. The backlog is being eliminated. Today it takes an 
average of 4 months or less for an applicant using the 
electronic filing system to receive a completed registration 
from the Copyright Office, and this is real progress. The guild 
looks forward to working with the new Register of Copyrights 
when he or she is appointed.
    I thank you for your support of the Library of Congress, 
the cornerstone Library of the United States and the 
information center for the legislative branch of government.
    [The prepared statement of Saul Schniderman follows:]

    [GRAPHIC] [TIFF OMITTED] T5845B.044
    
    [GRAPHIC] [TIFF OMITTED] T5845B.045
    
    [GRAPHIC] [TIFF OMITTED] T5845B.046
    
    [GRAPHIC] [TIFF OMITTED] T5845B.047
    
    [GRAPHIC] [TIFF OMITTED] T5845B.048
    
                            COPYRIGHT OFFICE

    Mr. Crenshaw. Thank you for those thoughts. I think the 
subcommittee might be interested in knowing, and I would ask 
you, if you have got any suggestions about how we could 
streamline or achieve any additional efficiencies in the 
Copyright Office? Is there anything that comes to mind that you 
might tell us that you have seen that might be an additional 
efficiency or streamline that you have observed?
    Mr. Schniderman. Well, to be frank with you, and the 
problem began in 2007 with the purchase of a software product 
that was designed to be a tool for the registration specialist 
to do their work more efficiently, and instead of being a tool, 
it became an obstacle. And in 2007 the backlog was up, frankly, 
at over half a million, and today it is about where it was 
before they purchased that particular product.
    The reason for that is because of efficiencies in the 
technology which our managers have implemented, and also the 
hard work of the staff, who has really, really been working 
hard over these years. So we have been advised that it will not 
grow. So that problem hopefully has been solved. And now that 
the backlog is gone, the staff is freed up to being more 
efficient in their work.
    Mr. Crenshaw. That is good to hear.
    Mr. Honda.
    Mr. Honda. The program that took place, what was it 
supposed to do? Why was it not accomplished in what it was 
supposed to do?
    Mr. Schniderman. Well, prior to bringing on this new 
technology, the Copyright Office reorganized its functions, and 
it purchased a product that was off the shelf and not tailor-
made to the work. And so the staff had to do workarounds; the 
staff had to figure out how to overcome hurdles. In other 
words, it was the wrong tool, frankly. And we testified before 
this committee about the backlog and about the use of the 
system over the last few years.
    So I would say that most of it has been fixed because of 
the interest expressed by Congress, and also because Dr. 
Billington, frankly, has directed staff to go into the 
Copyright Office over the last few years from outside of the 
office and clean up the backlog.
    I could send you more information. I am not a technology 
person. But apparently upgrades and fixes have been 
implemented, and it has just taken 2 or 3 years in order to 
accomplish that task.
    Mr. Honda. I will address that at some other time. Thank 
you.
    Mr. Crenshaw. Mr. Bishop.
    Mr. Bishop. Thank you very much for your testimony, Mr. 
Schniderman.
    I note that you represent the professional employees at the 
Library of Congress.
    Mr. Schniderman. Except for those that work at CRS.
    Mr. Bishop. They have a different bargaining unit?
    Mr. Schniderman. Yes, a different bargaining unit.
    Mr. Bishop. And an employee's union, which I guess is local 
2477, represents the nonprofessional employees at the Library 
of Congress?
    Mr. Schniderman. The technicians and the administrative 
staff, yes, both of whose presidents are here today.
    Mr. Bishop. Thank you very much.
    Mr. Crenshaw. Thank you so much for your testimony and for 
being here today.
    Mr. Schniderman. Thank you.
                                          Wednesday, May 11, 2011. 

       THE EMPLOYEES UNION LOCAL 2477 OF THE LIBRARY OF CONGRESS 

                                WITNESS 

DARRYL CLARK, PRESIDENT, AFSCME LOCAL 2477, EMPLOYEES UNION OF THE 
    LIBRARY OF CONGRESS

                  Opening Remarks of Chairman Crenshaw

    Mr. Crenshaw. Now we will hear from the Employees Union of 
the Library of Congress, Darryl Clark, who is president of 
local 2477. We welcome you here and look forward to your 
testimony.

                   Opening Statement of Darryl Clark

    Mr. Clark. Thank you, Mr. Chairman. I am the other local 
that represents the employees with Mr. Schniderman that you 
just listened to.
    Mr. Bishop, good morning to the members of the 
subcommittee. My name is Darryl Clark, and I am the current 
president of AFSCME Local 2477, the employees union at the 
Library of Congress, and I, too, appreciate the opportunity to 
testify before you today. As an employee of the Library of 
Congress and president of the employees union, which represents 
over 800 Library of Congress employees, I am here to support 
the Librarian and the Library of Congress fiscal 2012 budget 
request.
    The employees we represent are dedicated to serve Congress 
as well as the Nation at large. We understand the tremendous 
fiscal challenges that our Nation is presently facing. What Dr. 
Billington has submitted in our fiscal budget represents a 
careful consideration to what we face as a Nation, while 
continuing our commitment to serve the Congress and the United 
States.
    In supporting our agency's budget request, I will ask of 
this committee to consider that over the past 6 years, the 
Library of Congress has recognized the need to become more 
fiscally responsible by doing more with less staff. As 
president of the employees union, I have worked with Library 
management to ensure that all of the staff reductions would not 
adversely impact service as we as an agency provide to the 
Congress and the American people.
    The employees of the Library of Congress are truly 
dedicated to public service. If we were forced to incur major 
cutbacks with 69 percent of the budget allocated for staff 
salaries, we would possibly have to furlough staff. In this day 
and age, with our economy in its fragile condition, furloughs 
of Federal workers will ultimately slow down our economic 
recovery. The families of Library workers will be adversely 
affected by furloughs. The employees who I represent, which are 
the lowest grade of employees at the Library, cannot afford any 
furlough time. Many of our employees barely make enough to save 
for such an event. Our survival for our basic needs depend on 
the paychecks we bring home.
    I asked the Members of this great Congress to consider that 
the decisions that are made affect real Americans. These 
employees are not just numbers on paper. A significant number 
of our staff that I represent are single mothers. They provide 
the only means for their families. When many of our employees 
started working for the Library of Congress, they were filled 
with great pride. They had a sense of inclusion to the American 
dream. They were given an opportunity to invest in the future 
of America by providing support services to the Congress and 
the American people so they can effectively do what is needed 
to ensure that this very situation we are facing today will not 
become a reality.
    The employees understand that during this time in our 
history of our great country, we are facing the need to become 
more fiscally responsible. We are willing to meet that 
challenge. We feel that furloughs will not help meet this great 
challenge, but hinder real growth and strip away the pride that 
working Americans feel every day by coming to work at our great 
institution.
    In closing, Mr. Chairman and members of the subcommittee, 
we ask that you continue your support of the Library and for 
your consideration for our fiscal 2012 request. We thank you.
    Mr. Crenshaw. Thank you, Mr. Clark. And thank you for the 
work that you do at the Library, and thank you for the work 
that you do to represent the people that you are talking about 
today.
    [The prepared statement of Darryl Clark follows:]

    [GRAPHIC] [TIFF OMITTED] T5845B.049
    
    [GRAPHIC] [TIFF OMITTED] T5845B.050
    
    [GRAPHIC] [TIFF OMITTED] T5845B.051
    
    [GRAPHIC] [TIFF OMITTED] T5845B.052
    
                       BARGAINING UNIT EMPLOYEES

    Mr. Crenshaw. Mr. Honda or Mr. Bishop?
    Mr. Honda. Thank you very much.
    Mr. Bishop. No questions. Thank you very much, Mr. Clark.
    Well, tell me the jobs in your bargaining unit.
    Mr. Clark. The jobs in our bargaining unit, we do a lot of 
the support staff work from public programs, to small-level 
cataloguing support that we also did. During this time I 
mentioned, in the past 6 years when we had to sort of reduce 
staff, some of our technicians had to learn more professional-
graded material and professional-graded work so that we have 
now had to sort of step up and to increase our roles in the 
Library. So we do almost everything that--in some regard that 
the professional staff does. Also we still have to do our 
regular technician support: pulling books, materials; 
recataloguing; even helping with the preservation of our 
collection.
    Mr. Bishop. One other question. Several years ago there was 
a massive discrimination lawsuit on behalf of the employees at 
the Library of Congress, which I understand was ultimately 
settled. How has the settlement been implemented, and are 
things there better than they were prior to the lawsuit, and 
are things working well for employees regarding equal 
opportunity at the Library?
    Mr. Clark. I think you are referring to the Cook-class 
suit?
    Mr. Bishop. Yes.
    Mr. Clark. Well, some of that sort of predates me, but I 
would have to say that we tried to make great strides in trying 
to improve the hiring practices. It is still a work in 
progress, but I feel as though that we are sort of going in the 
right direction with some of the initiatives that our union has 
negotiated with the Library in terms of career development.
    We have an excellent career development program at the 
Library of Congress now, and some of the detail opportunities 
to give our staff a chance to work and detail different offices 
so that they can acquire more skills to help our agency become 
more efficient. So that is part of what we have done in terms 
of working with more with less.
    Mr. Bishop. And one of the elements of the lawsuit had to 
do with the conditions of the employment, the conditions under 
which the employees worked, and the atmosphere under which they 
worked. Obviously, since you are not sensitive to that, the 
atmosphere must, I presume, be much better than it was at that 
time.
    Mr. Clark. I think it is. I think it is getting better. I 
think that the management has started to recognize that it is a 
lot easier to work with the labor organizations. So the 
atmosphere is sort of changing. And I just think that times are 
changing. So I am starting to see more positive results. 
Recently one of the members of our executive board now is 
detailing another service union, so the opportunities are 
increasing. So I would have to say they are improving.
    Mr. Bishop. Thank you, Mr. Clark.
    Mr. Crenshaw. Thank you, Mr. Clark. And thank you for all 
that you do to make the Library of Congress the unique place 
that it is. Thank you very much.
                                           Wednesday, May 11, 2011.

                          SUNLIGHT FOUNDATION

                                WITNESS

DANIEL SCHUMAN, DIRECTOR, ADVISORY COMMITTEE ON TRANSPARENCY

                  Opening Remarks of Chairman Crenshaw

    Mr. Crenshaw. Next we will hear from Daniel Schuman. He is 
with the Advisory Committee on Transparency, and he is policy 
counsel for the Sunlight Foundation. Is that right?
    Mr. Schuman. That is right, sir.
    Mr. Crenshaw. We look forward to hearing what you have to 
say.

                  Opening Statement of Daniel Schuman

    Mr. Schuman. Well, thank you. Thank you, Chairman Crenshaw, 
Ranking Member Honda, Mr. Bishop. I appreciate the opportunity 
to speak to you today.
    As you mentioned, my name is Daniel Schuman, and I am the 
policy counsel for Sunlight Foundation, which is a nonpartisan, 
nonprofit organization dedicated to government openness and 
transparency. I am here to speak with you today about two 
issues. One is empowering the Congressional Research Service to 
better serve Congress and the American people, and the second 
is to encourage this committee to follow up on its languishing 
request regarding public access to the raw legislative 
information that powers THOMAS.
    Taxpayers spend around $100 million a year to fund CRS and 
its nearly 700 staff members. As an administrative unit of the 
Library of Congress. CRS often furthers the Library's public 
mission, and its products help frame public debate on foreign 
issues. As an example, in the last 2 years alone, major 
newspapers cited CRS reports 779 times, and over the last 
decade Federal courts have cited CRS reports 130 times.
    All the while, the Library of Congress' ability to pay for 
publishing costs has been restricted by legislative branch 
appropriations language for every year since 1952. This 59-
year-old publishing rule was likely intended as a cost-savings 
measure, a leftover from the bygone era of expensive layout, 
printing and distribution costs. It also precedes CRS' creation 
by nearly two decades.
    Times have changed, and these print limitations are a 
counterproductive anachronism in the Internet age. A coalition 
of 38 organizations recently wrote to you to urge an end to 
this restriction, and I am to do so in person today.
    Congressional staff already google for CRS Reports. They 
review Cornell's Constitution Annotated Website to learn about 
a Supreme Court decision. They search YouTube for briefings on 
Federal law, and they look to OpenCongress.org, and oftentimes 
not common, for legislative summaries.
    Unfortunately CRS has not kept up with the times and 
embraces an overbroad interpretation of this publishing 
restriction, transforming a speed bump into a roadblock, 
thereby syphoning its ability to innovate to meet your needs, 
the needs of its clients, and to fulfill its public 
responsibilities. This diminishes the value that we all receive 
for our tax dollars.
    In short, what I am asking is that you lift the publishing 
restriction and send CRS an unmistakable signal to modernize. 
Let me be clear, I am not requesting that all CRS Reports be 
made publicly available. I am a former attorney with the 
Congressional Research Service, and I know as well as all of 
you that one-on-one communications between CRS and individual 
Members of Congress or their staff are, and ought to be, 
confidential. Instead, what I am asking is that this committee 
grant CRS the flexibility to release general distribution 
products on line without excuse or fear of violating an 
antiquated publishing restriction.
    Speaker Boehner and Majority Leader Cantor recently 
encouraged the Clerk of the House to develop better on-line 
tools to make legislative information more open and Congress 
more accountable to the American people. CRS, the source of 
much legislative information, should be similarly open.
    And with respect to THOMAS, in 2009, this committee adopted 
a forward-thinking approach that required a report on the 
issues around granting the American people access to all 
electronic information at once through a method known as bulk 
access. And, of course, I have to mention Rob Pierson, who is 
fantastic to work with, with your office, Representative Honda. 
Unfortunately, nearly 3 years later, as far as we know, no such 
report has been generated. A reason why is that the trigger for 
the release of this report was the launch of legislative 
information system 2.0, which has not happened and probably 
will never happen as envisioned.
    Of course, the world has not waited. In the interim GPO has 
published five data sets on line in bulk, including the Code of 
Federal Regulations and the Federal Register. And data.gov was 
launched in May 2009 and now has hundreds of thousands of data 
sets. Technologists, including those up at Sunlight Foundation, 
are already using this information in new and exciting ways 
that enhance the public's access to government information.
    In the same way, providing bulk access to THOMAS data will 
give technology innovators an opportunity to creatively use 
data to solve new problems and address unmet needs. It will put 
all of this important legislative information into the American 
people's hands.
    We ask for your renewed attention to this new directive, 
and we urge you to make up for lost time. The committee should 
grant the public bulk access to legislative documents, bill 
status and summary information, and other legislative data no 
later than 120 days after the start of fiscal year 2012. We 
also ask for the immediate creation of an advisory committee 
composed of relevant legislative agency members and members of 
the public that will meet regularly to address the public's 
need for access to this information and a means by which it is 
provided.
    And finally, as I mentioned before, we ask that you end 
this publishing restriction. This committee has an unparalleled 
opportunity to make government open and more accountable. We 
hope that you seize the moment.
    Thank you so much for the opportunity to speak with you 
today, and I welcome any questions that you have.
    Mr. Crenshaw. Well, thank you very much.
    [The prepared statement of Daniel Schuman follows:]

    [GRAPHIC] [TIFF OMITTED] T5845B.053
    
    [GRAPHIC] [TIFF OMITTED] T5845B.054
    
    [GRAPHIC] [TIFF OMITTED] T5845B.055
    
    [GRAPHIC] [TIFF OMITTED] T5845B.056
    
    [GRAPHIC] [TIFF OMITTED] T5845B.057
    
    [GRAPHIC] [TIFF OMITTED] T5845B.058
    
    [GRAPHIC] [TIFF OMITTED] T5845B.059
    
    [GRAPHIC] [TIFF OMITTED] T5845B.060
    
    [GRAPHIC] [TIFF OMITTED] T5845B.061
    
    Mr. Crenshaw. Mr. Honda, do you have any questions?
    Mr. Honda. Much of the published restrictions, is that also 
digital information that is restricted?
    Mr. Schuman. So it shouldn't be.
    Mr. Honda. But it is?
    Mr. Schuman. But the way the Congressional Research Service 
has interpretive provisions as to apply to electronic 
publishing as well as print publishing, although, of course, 
there was no Internet in 1952 when this was inserted.
    Mr. Honda. Okay. Thank you very much.
    Mr. Crenshaw. Mr. Bishop.
    Mr. Bishop. Mr. Schuman, the former CRS Director, Mr. 
Mulhollan, wrote in a 2007 memo that making CRS Reports public 
would, ``cause analysts to become more conscious of the need to 
address views, methods, disciplines and expectations of a 
noncongressional audience and thereby shift the focus of our 
products away from their current emphasis on the congressional 
audience. As a result, our congressional clients, recognizing 
such a change in the content and protection afforded our work, 
would either request more confidential memoranda which are 
available only to the requester, or more significantly no 
longer have confidence in CRS' ability to truly serve as their 
adjunct staff.''
    How would you respond to that concern?
    Mr. Schuman. Well, I would say that it is simply not true. 
Actually, I hosted a panel discussion this past Monday as part 
of the Advisory Committee on Transparency where we brought in 
experts on CRS--Nye Stevens, who served at CRS for a number of 
years, including in a Director position--as well as having 
former members of CRS, including their admin law folks.
    Unfortunately, to Mr. Mulhollan's point, the ship has 
already sailed. Ten thousand CRS Reports are already available 
on line, and any change that would have happened from the 
general distribution reports coming publicly available has 
already happened. So if there is any shift that would take 
place, it would have happened 5 or 10 years ago. So his point 
is simply no longer connected to reality. I mean, to his 
credit, he did start as Director before the Internet came about 
in 1993, so perhaps he may not be as cognizant as he should 
have of all the other means by which this information is 
publicly available.
    The only thing that would change is that currently the 
public has access to some reports that are outdated. So you all 
get phone calls asking questions based on misinformation 
because the most recent version isn't publicly available, but 
iteration two or three, you know, a couple months old maybe. 
This would get rid of that problem in its entirety. The public 
would have access to the most reliable, most up-to-date 
information at once.
    So anyway, I am sorry, I went on a little.
    Oh, and there is one other piece to that as well, which I 
think you might appreciate. So oftentimes CRS needs to meet the 
needs first of Congress. And there are requirements in terms of 
you need to update reports on a regular basis and things along 
those lines. Well, oftentimes the reports don't need to be 
changed much, if at all. So what some staff will do is they 
will simply change a word in the reports, or there could be a 
change for the date. So it looks like the report has been 
updated, but, of course, nothing has changed, except, of 
course, if this committee gets an increasing number of, oh, we 
have updated 10,000 reports or 5,000 reports or 2,000 reports, 
but the actual substance is unchanged. So there is also a 
little bit of a shell game that may be going on that is not 
entirely obvious.
    Mr. Bishop. And so that is something that CRS could utilize 
to eliminate duplication and to reduce costs?
    Mr. Schuman. So to the cost planning, these reports are 
already generated in an electronic format. So the gentleman 
from GPO earlier was talking about 70 percent cost for 
publication and 30 percent. Well, the publication cost is 
already done. The reports are already formatted, they are 
placed on the congressional Internet. So all their work is 
finished. And, of course, if it is electronic, there is minimal 
to no distribution cost. And, in fact, people are already 
building free versions to make that information available 
already. So from a cost standpoint it would be minimal to 
nonconsistent.
    Mr. Bishop. Thank you.
    Mr. Crenshaw. I want to thank you very much for your 
testimony bringing this issue before us. I am sure we will take 
this into consideration. Thank you very much.
    Mr. Schuman. Thank you, sir.
                                           Wednesday, May 11, 2011.

              CONGRESSIONAL RESEARCH EMPLOYEES ASSOCIATION

                                WITNESS

DENNIS ROTH, PRESIDENT, CONGRESSIONAL RESEARCH EMPLOYEES ASSOCIATION

                  Opening Remarks of Chairman Crenshaw

    Mr. Crenshaw. Our last witness is Dennis Roth, who is 
president of the Congressional Research Employees Association. 
And he is here to talk about the Congressional Research Service 
budget request. So please, the floor is yours.

                    Opening Statement of Dennis Roth

    Mr. Roth. Thank you. Mr. Chairman, Ranking Member Honda, 
members of the subcommittee, good afternoon. My name is Dennis 
Roth, president of the Congressional Research Employees 
Association, IFPTE Local 75, the union representing over 500 
CRS bargaining unit employees of which 266 are members. We 
thank you for the support given to CRS in the 2011 budget and 
request that you continue to do the same in the 2012 budget.
    Among the many responsibilities in the Legislative Reform 
Act of 1970 carried out by CRS, we believe three demonstrate 
why the Congress needs to maintain CRS at the highest levels 
possible. First, CRS analysts and attorneys are statutorily 
responsible for, one, analyzing, appraising and evaluating 
legislative proposals and aiding Congress in determining the 
advisability of enacting such proposals; two, estimating the 
probable results of such proposals and their alternatives; and 
three, evaluating alternative methods for accomplishing these 
results. No outside source can do this with the confidentiality 
and nonpartisanship demonstrated by CRS.
    Second, CRS professionals, information professionals, are 
statutorily required to prepare and provide information, 
research and reference materials and services to assist 
Congress in its legislative and representative functions. These 
CRS staff also assist analysts in their work. Again, this is 
done in strict confidentiality and without partisanship.
    Third, CRS legislative analysts are statutorily required to 
prepare summaries and digests of congressional bills and 
resolutions of a public general nature. Both the Legislative 
Information Service, which is dedicated to congressional use, 
and THOMAS, which is available to the public, aids Congress in 
its representative and legislative responsibilities by 
providing bill analysis, status of legislative action and other 
useful information.
    In addition, technical and support staff, editors and 
publishers, and other CRS employees assure that CRS is 
available and prepared to meet congressional requests and needs 
in a timely and effective manner.
    Former Director Dan Mulhollan noted that the Congressional 
Research Service should be seen as a shared research. We agree, 
but CRS is even more. We are a resource with deep and unique 
institutional knowledge for Congress. We are also a resource 
that addresses the specific needs of Congress rather than other 
priorities. Often unrecognized is the depth and breadth of our 
research and information professionals and their ability to 
furnish committees, Members of Congress, their staff or their 
constituents with just the right information given the 
requester's background in the area, and CRS can do this in a 
relatively short time.
    There are many sources to which the Congress can turn, but 
none are committed to the statutory requirement of, quote, 
responding without partisan bias most expeditiously, 
effectively and efficiently to the special needs of the 
Congress.
    I would now like to shift my remarks to the selection of a 
new Director for CRS. The subcommittee is aware that CRS 
Director Dan Mulhollan retired at the beginning of April. By 
statute a new Director will be appointed by the Librarian after 
consultation with the Joint Committee on the Library. Although 
this subcommittee has no direct statutory role in the 
Director's selection, the subcommittee has shown an interest in 
the management of CRS in the past.
    Last year the House expressed a concern that CRS may have 
become less connected to the committees and Member offices it 
serves. Consequently, the Director was required to conduct a 
formal evaluation of how well its current staffing models and 
procedures met user needs. The committee also asked that CRS 
consider the creation of a new mechanism, such as a Member 
advisory committee, to allow routine discussions between CRS 
leadership and users. A similar finding of this evaluation was 
that, and I quote, CRS should develop an approach to 
proactively understand, target and address the unique needs of 
its diverse client segment, unquote.
    We believe that this can be best accomplished if the new 
Director has been intimately involved with the Congress for a 
significant period of time. Former Director Mulhollan noted it 
takes 3 to 5 years to train an analyst to understand and be 
responsive to the needs of Congress. We believe this also holds 
true for CRS leadership. A primary criteria for selecting a new 
Director should be a well-established familiarity with the 
Congress.
    CRS staff response to the 2010 employee survey administered 
by OPM identified areas as needing improvement. Among these 
were personal empowerment with respect to work processes and 
recognition for creativity and innovation.
    The new CRS Director must be willing to engage staff in 
meaningful discussions so they can offer suggestions on how to 
do their work. The new Director should be willing to create an 
environment that welcomes creativity and innovation and 
seriously considers employees' inputs.
    CRS is a multigenerational organization, both baby boomers, 
Generation Xers and Generation Y/Millennials. The new Director 
of CRS must be able to lead, engage and motivate these 
generations simultaneously.
    Finally, we believe that the selection process should be 
transparent, even though the Librarian, in consultation with 
the Joint Committee on Library, appoints the Director. We 
believe the Librarian should advertise for candidates and 
conduct interviews. By conducting the national search, the best 
candidates can be identified, and someone who can work both 
with the Congress and CRS staff will be selected.
    Thank you for giving us the opportunity to testify today, 
and be happy to answer any questions you may have.
    Mr. Crenshaw. Thank you very much.
    [The prepared statement of Dennis Roth follows:]

    [GRAPHIC] [TIFF OMITTED] T5845B.062
    
    [GRAPHIC] [TIFF OMITTED] T5845B.063
    
    [GRAPHIC] [TIFF OMITTED] T5845B.064
    
    [GRAPHIC] [TIFF OMITTED] T5845B.065
    
    [GRAPHIC] [TIFF OMITTED] T5845B.066
    
    [GRAPHIC] [TIFF OMITTED] T5845B.067
    
                         RECRUITMENT SELECTION

    Mr. Crenshaw. Mr. Honda, do you have any questions?
    Mr. Honda. In the process of recruitment selection, of the 
interview of a new Director, you said it needs to be 
transparent. Define transparency and what portions of the 
process needs more exposure to transparency involvement so that 
the issue of transparency can be addressed.
    Mr. Roth. Well, I don't think nationwide people know there 
is a need for a new Director of CRS. And to advertise it saying 
we are seeking for a new--just like you would post any 
position. Right now it is just up to the Librarian to do an 
internal search in consultation with the Joint Committee on 
Library and then make the decision, so that it is not in the 
least exposed to potential candidates for filling the new 
position.
    Mr. Honda. And then?
    Mr. Roth. And then like any other job, the Librarian would 
go through a process, select X number to interview, and then 
make the selection.
    Mr. Honda. I mean, are the people who are in the process of 
selection decisionmaking, is that a group of folks that will 
provide the best confidence that the outcome is going to be the 
best?
    Mr. Roth. We don't know who is making that selection.
    Mr. Honda. Is this joint?
    Mr. Roth. Well, the Joint Committee, they are to be 
consulted on the Librarian's decision. And I do believe the 
Library is going around and talking to those Members, but I 
don't know if they are--if that is the extent of it.
    Mr. Honda. You said the distribution or the announcement 
being universal. Are there not steps where the applications are 
brought together and vetted, and who does that?
    Mr. Roth. Normally that is done by our human resources part 
of the Library. Where they have criteria, they look at the 
vacancy announcement, they can see the responses to the 
questions that are asked, they determine the better qualified, 
they send those to the selecting official. Usually there is a 
panel of three people who interview that group, and then they 
make a recommendation to the selecting official.
    Mr. Honda. And the panelists are coming from the 
stakeholders of the Library outside of the selection of the 
Librarian?
    Mr. Roth. For our bargaining unit staff you mean, or--for, 
I guess, like the Copyright Director or the Director of CRS, 
there are no such mechanisms that they have to use. Or was the 
Register advertised as a position? Okay. So that would go 
through that process.
    The Director of CRS is not done that way. People on the 
panel have to be somebody who are very familiar with the 
position being filled, so they can bring in outside people, 
they can bring in the retired copyright people.
    Mr. Honda. But are they required to?
    Mr. Roth. Well, they have to be familiar with the subject 
area for which the person is being hired.
    Mr. Honda. Who decides that?
    Mr. Roth. Management, the Library.
    Mr. Honda. And you are confident that that is----
    Mr. Roth. Well, we don't know what is going on, so----
    Mr. Honda. So I am asking you, what are the areas that need 
to be more transparent? That is another one?
    Mr. Roth. It would be nice to know who is on the selection 
panel. That is the technical term for this. How are they going 
to go out and try to recruit people for the position; once they 
get the candidates, how they are going to be evaluated? 
Currently for senior level, which this position is, they have a 
different selection process.
    Mr. Honda. Why?
    Mr. Roth. The rest of the executive branch went in that 
direction, and the Library patterned what the executive branch 
did for senior-level hiring processes. We only have 10 senior-
level people out of maybe 40 that used to exist. But since I 
have been president--or not since I have been president, but 
since probably in the late 1990s, we have not hired any 
bargaining unit senior-level people, so we are not familiar 
with the process and how it would work. They would still have 
to follow, I guess, what we have under the current merit 
selection agreement between the union and the Library.
    I don't know if I am answering your questions. I see a 
little puzzlement.
    Mr. Honda. Well, I am just trying to think of how to move 
through this issue of transparency. I mean, you could have a 
process that is published, but then each step may not be as 
transparent as you would like it to be.
    Mr. Roth. Well, the transparency is opening up as wide as 
possible so people know that there is a position for the 
Director of the Congressional Research Service. It would be 
nice to know who is on the selection committee.
    Mr. Honda. It would be nice to know what that process is 
and what it entails. The people who are involved in each step 
is going to be critical to the outcome.
    Mr. Roth. For a regular position, a non-Director position, 
they put together a subject matter expert panel that goes 
through and looks at all the requirements they would like to 
have in the position for the Director of CRS. Then they whittle 
it down with the help of someone from CRS, and that becomes the 
vacancy announcement. And that is partially based on the 
position description for the Director of CRS.
    Mr. Honda. Has the job description position announcement 
been put out already?
    Mr. Roth. As far as we know, there is none. It is not a 
requirement for the Director of the Congressional Research 
Service. It is just an appointment made by the Librarian 
without any procedures specified.
    Mr. Honda. Okay. Thank you.
    Mr. Crenshaw. Well, thank you so much for your testimony. 
We appreciate it. And this concludes the public witness 
portion. The committee will stand in recess until Thursday, May 
12, when we will hear from the House of Representatives 
concerning the fiscal year 2012 budget request.
    [Additional statements for the record follow:]

    [GRAPHIC] [TIFF OMITTED] T5845B.068
    
    [GRAPHIC] [TIFF OMITTED] T5845B.069
    
    [GRAPHIC] [TIFF OMITTED] T5845B.070
    
    [GRAPHIC] [TIFF OMITTED] T5845B.071
    
    [GRAPHIC] [TIFF OMITTED] T5845B.072
    
    [GRAPHIC] [TIFF OMITTED] T5845B.073
    
    [GRAPHIC] [TIFF OMITTED] T5845B.074
    
    [GRAPHIC] [TIFF OMITTED] T5845B.075
    
    [GRAPHIC] [TIFF OMITTED] T5845B.076
    
    [GRAPHIC] [TIFF OMITTED] T5845B.077
    
    [GRAPHIC] [TIFF OMITTED] T5845B.078
    
    [GRAPHIC] [TIFF OMITTED] T5845B.079
    
    [GRAPHIC] [TIFF OMITTED] T5845B.080
    
    [GRAPHIC] [TIFF OMITTED] T5845B.081
    
                                            Thursday, May 12, 2011.

                     U.S. HOUSE OF REPRESENTATIVES

                               WITNESSES

DANIEL J. STRODEL, CHIEF ADMINISTRATIVE OFFICER, OFFICE OF THE CHIEF 
    ADMINISTRATIVE OFFICER
KAREN L. HAAS, CLERK OF THE HOUSE, OFFFICE OF THE CLERK
WILSON ``BILL'' LIVINGOOD, SERGEANT AT ARMS, OFFICE OF THE SERGEANT AT 
    ARMS

       Mr. Crenshaw's Opening Statement--Fiscal Year 2012 Budget

    Mr. Crenshaw. Welcome, everyone. The committee will come to 
order.
    Today, we are going to receive testimony from Officers of 
the House of Representatives: the Honorable Dan Strodel, Chief 
Administrative Officer; the Honorable Karen Haas, the Clerk of 
the House; the Honorable Wilson ``Bill'' Livingood, the 
Sergeant at Arms.
    We are pleased to welcome you here today. And we thank each 
of you and all your employees for what you do to serve the 
House.

                        HOUSE OF REPRESENTATIVES

    The fiscal year 2012 budget request that we are going to 
consider is $1.3 billion and represents about a $22.3 million 
increase, or 1.7 percent, above the current year.
    Many of you are aware the Appropriations subcommittee 
chairmen were given tentative 302(b) allocations yesterday for 
fiscal year 2012. The number, excluding the Senate, for the 
Legislative Branch Subcommittee is going to necessitate a 
reduction of about $227 million beyond the cuts that were 
already taken last year.

            6.4 PERCENT DECREASE FROM CURRENT FUNDING LEVELS

    This is going to mean further reductions across the House 
and the Legislative Branch agencies. Having to cut roughly 6.4 
percent from the current levels, I can't imagine holding any of 
these agencies harmless.
    When you look at the distribution of the Legislative Branch 
funding, excluding the Senate, the House appropriation 
represents about 36 percent of this bill. So Members, 
committees, and leadership started tightening their belts in 
January, and we are going to have to do it again this year. 
And, we are probably going to have to do it again next year.
    As chairman of this subcommittee, my philosophy is to 
thoroughly review each and every line item of the budgets that 
come before our subcommittee and determine what we can afford 
and what we can't afford with our limited resources. That is 
what Americans are doing across the country when they are faced 
with these tough economic times, and they expect Congress to do 
the same thing.
    So we look forward to hearing how each of you are going to 
approach bringing costs down while still delivering the 
services that are so required. So, again, thank you for being 
here.
    I turn to Mr. Honda for any remarks he might have.

          Mr. Honda Opening Statement--Fiscal Year 2012 Budget

    Mr. Honda. Thank you, Mr. Chairman.
    And I also welcome the Officers of the House, Mr. Dan 
Strodel, Chief Administrative Officer; Mr. Bill Livingood--in 
Spanish, that would be Bill ``Living la vida loca''; I kind of 
like that--our Sergeant at Arms; and Ms. Karen Haas, the Clerk 
of the House.
    We also have several other heads of offices with us today 
that submitted testimony for the record.
    [The prepared statements of the General Counsel, 
Legislative Counsel, Law Revision Counsel, and the Inspector 
General follows:]

[GRAPHIC] [TIFF OMITTED] T5845C.001

[GRAPHIC] [TIFF OMITTED] T5845C.002

[GRAPHIC] [TIFF OMITTED] T5845C.003

[GRAPHIC] [TIFF OMITTED] T5845C.004

[GRAPHIC] [TIFF OMITTED] T5845C.005

[GRAPHIC] [TIFF OMITTED] T5845C.006

[GRAPHIC] [TIFF OMITTED] T5845C.007

[GRAPHIC] [TIFF OMITTED] T5845C.008

[GRAPHIC] [TIFF OMITTED] T5845C.009

[GRAPHIC] [TIFF OMITTED] T5845C.010

[GRAPHIC] [TIFF OMITTED] T5845C.011

[GRAPHIC] [TIFF OMITTED] T5845C.012

[GRAPHIC] [TIFF OMITTED] T5845C.013

[GRAPHIC] [TIFF OMITTED] T5845C.014

[GRAPHIC] [TIFF OMITTED] T5845C.015

[GRAPHIC] [TIFF OMITTED] T5845C.016

[GRAPHIC] [TIFF OMITTED] T5845C.017

[GRAPHIC] [TIFF OMITTED] T5845C.018

[GRAPHIC] [TIFF OMITTED] T5845C.019

[GRAPHIC] [TIFF OMITTED] T5845C.020

[GRAPHIC] [TIFF OMITTED] T5845C.021

[GRAPHIC] [TIFF OMITTED] T5845C.022

[GRAPHIC] [TIFF OMITTED] T5845C.023

[GRAPHIC] [TIFF OMITTED] T5845C.024

[GRAPHIC] [TIFF OMITTED] T5845C.025

                CHALLENGES IN FISCAL YEARS 2011 AND 2012

    Mr. Honda. You and your staffs are the backbone of this 
institution that get here before us and leave well after us to 
ensure that this institution functions uninterrupted. We all 
appreciate your service to the Nation, and please pass along 
our thanks to your staffs that toil away without much 
recognition. My mom says you can never say ``thank you'' 
enough.
    With that said, your jobs are getting tougher as resources 
tighten. I am sure that today we will spend lots of time with 
you trying to figure out how to do more with less. But, at some 
point, my colleagues will have to accept the inevitable, that 
certain services will have to be cut as funding is cut.
    The House budget is a people's budget, and nearly 80 
percent of the budget supports staff that do everything from 
helping constituents fight for Social Security benefits and 
providing technical assistance in bill drafting to ensuring the 
safety of the House Chamber. And all of you are up for the 
challenge. You have all held these positions in previous 
Congresses, and I appreciate the continuity that exists with 
this team.
    The budget request for the House is the most modest we have 
seen in many years. The House request of $1.3 billion 
represents a 1.7 percent increase over fiscal year 2011, the 
recently passed omnibus continuing resolution.
    After your remarks, I plan to ask questions of the three 
officers as well as some of the other offices that are 
represented here. So today I want to thank all of you, and I 
look forward to your comments.
    Mr. Crenshaw. Thank you, Mr. Honda.
    Before we hear from the witnesses, we reviewed your 
testimony and all your prepared statements. They will be made a 
part of the record.
    And I understand that everyone has made adjustments based 
on the recently passed CR. We have a lot of challenges in front 
of us. Each of you has served now for the first 4 months. We 
have been through this process once. And I just would 
appreciate, as you summarize your testimony, tell us what your 
approach is to bringing these costs associated with your office 
down, as you summarize those statements.
    So we will begin with the Honorable Dan Strodel.

       ACTIONS EXECUTED IMPLEMENTING FY2011 CONTINUING RESOLUTION

    Mr. Strodel. Good morning, Mr. Chairman and Ranking Member 
Honda and Mr. Bishop. And I am pleased to be here before the 
committee.
    I hear the message you have sent already. The actions we 
have taken, I provided further detail in the testimony; 
therEfore I will summarize very quickly.
    As a result of the Continuing Resolutions (CR) and the 
final CR, along with the initial reduction of 2.3 percent, we 
took immediate action to make recommendations to freeze 38 
positions within the CAO's organization and reduce contractor 
support in specific areas. Those areas were the sustainability 
area and certain IT initiatives that we felt could be deferred 
until another time.

                          ZERO-BASED BUDGETING

    But it is really, sir, the beginning of a refocus on the 
critical and core mission of our organization. The CAO's office 
provides the widest variety of services to the House, but our 
primary and core functions are finance, information technology, 
and logistical support.
    We are returning to a disciplined budget management 
approach called zero-based budgeting, which isn't anything new, 
Mr. Chairman, but it is a time for which it has come here in 
this organization. Since February, we have been working 
internally with that management tool, and we have identified 
over 200 programs, projects, and activities of CAO and are 
going through the process of determining whether they fall 
within our core mission. And, if not, can they be done 
differently. We are absolutely looking at further reductions in 
services. And, absolutely, what is on the table, sir, are staff 
reductions.
    Our approach will hopefully show where we can make 
efficiencies, and where we can eliminate duplication. But, with 
the numbers that appear to be the mark, that is really where we 
are.
    [The prepared statement of Daniel J. Strodel follows:]

    [GRAPHIC] [TIFF OMITTED] T5845C.026
    
    [GRAPHIC] [TIFF OMITTED] T5845C.027
    
    [GRAPHIC] [TIFF OMITTED] T5845C.028
    
    [GRAPHIC] [TIFF OMITTED] T5845C.029
    
    [GRAPHIC] [TIFF OMITTED] T5845C.030
    
    [GRAPHIC] [TIFF OMITTED] T5845C.031
    
    [GRAPHIC] [TIFF OMITTED] T5845C.032
    
    [GRAPHIC] [TIFF OMITTED] T5845C.033
    
    [GRAPHIC] [TIFF OMITTED] T5845C.034
    
                         SUSTAINABILITY PROGRAM

    Mr. Crenshaw. Thank you very much.
    It is encouraging to hear you talk about the core mission. 
I think sometimes in government things expand and grow, and 
when we have limited resources, we have to get back to the 
basics. It sounds to me like that is what you are working on. 
And I guess your core mission is to make life easier for the 
Members of the House, provide the information and support, et 
cetera.
    So one of my questions is about Greening of the Capitol, we 
have heard a lot of talk about that. Does that fit in to the 
core mission, or is that something that maybe is just outside 
the realm of the basic mission.
    Mr. Strodel. Sir, that is, I believe, an example, whether 
you call it sustainability or Green the Capitol. I think there 
are cost efficiencies that can be made through looking at 
sustainability efforts. Whether it is in the House community or 
in the private sector, it is a way of doing business.
    But I think that, in analyzing the zero-based budget 
approach, does this program, project, or activity fit within 
the core mission, or has it a duplicative function with another 
entity in the House? The way I see it, going forward, it is the 
Architect of the Capitol that has had a sustainability program 
in place for years. Our Greening of the Capitol made, perhaps, 
enhancements as it relates to specifically the House community, 
and we worked in partnership with the AOC.
    However, I think the time has come, and I think to examine 
the process, we are going to see whether the duplication and/or 
core mission fits with the sustainability program.
    Mr. Crenshaw. Great. Thank you very much.
    Mr. Honda, do you have a question or two?

                        COMPOSTABLE SERVICE WARE

    Mr. Honda. Let me start off with your comment here on the 
sustainability and duplication, things like that. I guess one 
subject matter was the switching of the materials we had in the 
cafeteria to Styrofoam.
    How does that fit in your equation? And how was that 
decision made? Can you just sort of----
    Mr. Strodel. Yes, sir, Mr. Honda. The serviceware issue, as 
it relates to the food service in the cafeterias and other 
House facilities are specific. As it relates to Styrofoam, I 
can elaborate on the greater connection to our sustainability 
program, but the serviceware was provided by the vendor, 
Restaurant Associates. They provide a range of serviceware 
options as a part of their package.
    The decision was made prior to me that compostable 
materials were preferred in the House community. The vendor 
said essentially, ``Sure, we can provide compostable 
serviceware. However, there is a cost associated with that.'' 
And the decision was made, at the time, to do so. The cost of 
the serviceware and the labor associated with it and the 
contract to haul it exceeded $600,000 in 2008. In 2009 and 2010 
it was slightly under $500,000 annually. That money was offset 
against the gross receipts due to the House from the vendor.
    Let's fast-forward to January of this year. One component 
of that program was the contract to haul the compostable 
materials from the House community which was separate from the 
Architect of the Capitol's waste disposal program. The 
Restaurant Associates' compostable serviceware provided had to 
be taken to a facility for composting.
    That contract expired in mid-January of this year. Since 
the contract related to the hauling of compostables, and we 
weren't going to haul compostable materials, and we didn't need 
to use a compostable facility.
    The cost-cutting measure was to look at the cost for these 
compostable serviceware options. And is there a more cost-
effective way that would save money? And that decision was 
made. Restaurant Associates provided options, and the most 
cost-effective was their standard serviceware package, which is 
what we have today.
    Related to the part of your question about sustainability 
overall and where that fits, the Green the Capitol initiative 
incorporated many ideas that were cost savings, particularly in 
the area of IT support--that is, the movement of servers--to 
the Ford Data Center. I think the Architect of the Capitol 
would tell you that the House has saved money by consolidating 
servers, perhaps a significant amount of money.
    But there were certain programs that weren't saving money. 
From work that the IG had done in looking at this very program, 
their determination was the cost benefit was not there. So, as 
it relates to the broader sustainability initiatives, this one 
didn't appear to be fulfilling its promise.
    Mr. Honda. So, briefly, bottom line, are we saving money 
because of this?
    Mr. Strodel. Very briefly, yes.
    Mr. Honda. And is the saving being passed on to our 
workers, the patrons?
    Mr. Strodel. There has not been a change in price at the 
consumer end. The House is taking in more money on the 
contract. There is not a change in prices.
    Mr. Honda. If you wouldn't mind, Mr. Chairman, I would like 
to direct Mr. Strodel to have a written report on this issue 
and the cost savings and then an explanation of why we 
shouldn't pass this on to our patrons and our workers rather 
than to the House.
    Let me ask quickly----
    Mr. Crenshaw. Mr. Honda, I am going to ask each of the 
other two witnesses to go ahead and make their opening 
statements, now that we are all here, and then we can ask 
individual questions.
    We have a lot to do today, so I am going to ask the Members 
to observe the 5-minute rule.
    Mr. Honda. Okay.
    Mr. Crenshaw. But let's go ahead and have Ms. Haas and then 
Mr. Livingood make their opening statements, and then we will 
continue the questions, if that is okay.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Crenshaw. Ms. Haas.

                           FY2011 INITIATIVES

    Ms. Haas. Thank you. Good morning.
    As the newly reappointed Clerk of the House, I appreciate 
the continued support of the subcommittee. And I would like to 
briefly report on two initiatives that we undertook in our 
office over the last year.
    Thanks to the funding you provided, we successfully 
replaced the Member display boards on the electronic voting 
system. The new system uses LED technology, which is more 
dependable, ADA-compliant, has built-in redundancy, increased 
clarity and readability, and additional technological 
capabilities that can be explored in the future. This project 
was completed early and under-budget.
    The second initiative, HouseLive, is a Web-streaming 
service of the House floor proceedings that was launched last 
year. It provides increased access to the House community and 
to the general public of searchable video archives of the 111th 
Congress. We have enhanced HouseLive by adding a new video 
player, additional search capabilities, and the ability to view 
archived video on mobile devices.
    Over the next 2 months, we will be adding new video clip 
tools that will make it easier for Members to post videos to 
their Web sites and their Facebook pages. We will also be 
adding streaming video to mobile devices.
    As we move forward in 2012, the office of the Clerk expects 
to be very busy with increased committee activity, and, in 
addition, we expect to be integrally involved in advancing 
efforts to make House documents available electronically in a 
more open data format.

                         FY2012 IDENTIFIED CUTS

    I understand we are facing very difficult economic times, 
and I will work aggressively to meet these challenges. As we 
have been reviewing our operations over the last 4 months, 
there are clearly places that we can cut and efficiencies we 
can achieve.
    We have begun the process already by identifying 
approximately $2.8 million in additional reductions. The way we 
are going to approach those reductions, Mr. Chairman, is we 
have already identified current vacancies that we will not plan 
to fill; we have identified duplications within our 
organization and have already begun the reorganization process; 
and, finally, we have looked at all of our subscription 
services, both database and regular subscriptions, and we are 
beginning that process to consolidate some of those where we 
have some overlap there. So those are some of the additional 
areas we have looked at for savings.
    I want to thank the committee for your support, and I look 
forward to working with you.
    [The prepared statement of Karen L. Haas follows:]

    [GRAPHIC] [TIFF OMITTED] T5845C.035
    
    [GRAPHIC] [TIFF OMITTED] T5845C.036
    
    [GRAPHIC] [TIFF OMITTED] T5845C.037
    
    [GRAPHIC] [TIFF OMITTED] T5845C.038
    
    [GRAPHIC] [TIFF OMITTED] T5845C.039
    
    [GRAPHIC] [TIFF OMITTED] T5845C.040
    
    [GRAPHIC] [TIFF OMITTED] T5845C.041
    
    [GRAPHIC] [TIFF OMITTED] T5845C.042
    
    [GRAPHIC] [TIFF OMITTED] T5845C.043
    
    [GRAPHIC] [TIFF OMITTED] T5845C.044
    
                    FY2011 COST CUTTING INITIATIVES

    Mr. Crenshaw. Thank you very much.
    Mr. Livingood, we will hear from you.
    Mr. Livingood. Good morning, Mr. Chairman, Ranking Member 
Honda, Mr. Price and Mr. Bishop and everyone. It is a pleasure 
for me to be here today to present our budget request for 
fiscal year 2012.
    But before I start, briefly I would like to thank all of 
you for your assistance, because the assistance of the 
committees, this committee, really helps us provide a safer and 
more secure environment for Members, staff, visiting 
dignitaries and world leaders, and the thousands of visitors we 
have every day.
    As we recently underwent preparations for a potential 
government shutdown and made adjustments to our fiscal year 
2011 budget, I spent a considerable amount of time with staff 
looking at the entire Sergeant at Arms Office, its personnel 
and operations. As a result, I have implemented a freeze on 
future hires and continue to look for additional cost-savings 
measures. I will work with the committee and House leadership 
in accomplishing this task.

            INCRESASED COORDINATION OF EMERGENCY MANAGEMENT

    The integration of the former Office of Emergency 
Preparedness into the Office of the Sergeant at Arms--and it is 
now called Office of Emergency Management--has brought far 
greater coordination to the House community overall emergency 
management effort.

                      SAFETY IMPROVEMENT PROJECTS

    I am pleased to report we are moving forward on a number of 
projects to improve occupant safety throughout the House 
complex. In particular, I would like to note the project to 
install emergency communications stations and closed-circuit 
television cameras in the stairwells of the House office 
buildings. That is on schedule to be completed by September of 
this year.
    This project will enable occupants of our House buildings 
to establish two-way communications with emergency responders 
should an evacuation route be blocked. It will also--the CCTV 
portion will allow the Capitol Police to monitor evacuations 
and more rapidly respond to resolve problems that might occur. 
Call boxes have also been installed at elevators for persons 
with accessibility needs.
    With the support and assistance of the Chief Administrative 
Officer, we have established a working group to reinvigorate 
efforts to integrate emergency notifications, such as the Roam 
Secure System already owned by the House. We are confident that 
this united effort will lead to an expanded and more integrated 
means of communicating emergency information in a very cost-
effective means, because we already have the system.
    We are also engaged in discussions with other Capitol 
entities regarding the acquisition of a computerized modeling 
tool, with a view to requesting funding in future years.
    In closing, I would like to thank the committee once again 
for all that you do to help all of us. And let me assure you 
that my longstanding commitment is to provide the highest-
quality support for the House of Representatives in the safest 
and most secure environment possible. It is my goal to remain 
vigilant and security-conscious, while continuing to maintain 
the fiscal responsibility expected by the House of 
Representatives.

                          COST-SAVING EFFORTS

    I am well aware and understand the climate that affects our 
country, the legislative branch, and the entire Federal 
community. Some of the cost-saving methods that we have been 
looking at and are going to institute: First of all, after the 
last CR, I implemented a hiring freeze and have not filled 
current vacancies and do not plan on that. Secondly, we do not 
plan on filling any future vacancies. We are going to look at 
the whole organization with the idea of, where can we 
reorganize to maintain maximum staff efficiency.
    We have reduced travel to support off-campus events. We 
have reduced other services, such as supplies, equipment, 
security contracts, and consultant services. And we are in the 
process of looking at potential door closings in every 
building, which will be a Capitol Police savings.
    Thank you for your assistance, cooperation, and guidance 
from all of you.
    [The prepared statement of Wilson Livingood follows:]

    [GRAPHIC] [TIFF OMITTED] T5845C.045
    
    [GRAPHIC] [TIFF OMITTED] T5845C.046
    
    [GRAPHIC] [TIFF OMITTED] T5845C.047
    
    [GRAPHIC] [TIFF OMITTED] T5845C.048
    
    [GRAPHIC] [TIFF OMITTED] T5845C.049
    
                        WOUNDED WARRIORS PROGRAM

    Mr. Crenshaw. Thank all of you for your testimony.
    We will continue now with questions and call on Mr. Bishop.
    Mr. Bishop. Thank you very much.
    Let me ask two questions for Mr. Strodel.
    Mr. Strodel. Yes, sir.
    Mr. Bishop. As ranking member of the House Military 
Construction, Veterans Affairs Approps Subcommittee, I am very 
interested in the participation in the Wounded Warriors 
Program.
    Have you followed the careers of the 51 disabled 
participants in the House of Representatives Wounded Warriors 
Program since June of 2008? And how many of them have been able 
to transition into full-time civilian employment? And have any 
of those been offered employment by the House?
    Mr. Strodel. Yes, sir.
    The question is about the Wounded Warrior Program. It was 
authorized in 2008 sir, at 50 positions. The administration of 
the program was assigned to the CAO, and we have a program 
manager, Patricia Orsini, who does a fantastic job. The 
elements of the program are a servicemember has to have less 
than 20 years of service, have a 30 percent service-connected 
disability, and have served post-September 11th. Participation 
has increased every year.
    And to your point about the follow-on, the intention of the 
program is a 2-year fellowship, with the idea of bringing these 
folks back into the workforce. We have placed 31 in Member 
offices and more are in the pipeline. Three individuals have 
gone on to be hired by a particular Member or Committee, so 
they are current House employees, no longer employed through 
the Wounded Warrior Program.
    Externally, I don't have that data, regarding if they have 
moved on to other employment. I do know one or two have gone on 
to the Veterans Administration. But I can follow up with 
specifics on all of them.

                         HOUSE FINANCIAL SYSTEM

    Mr. Bishop. All right. Thank you for that.
    Mr. Strodel, Member offices have long been frustrated about 
the length of time that it takes to get our purchase orders and 
our payment vouchers processed. I was pleased to hear that you 
have replaced your 15-year-old financial system with 
PeopleSoft, which promises to provide realtime updates on our 
orders and our voucher status.
    Could you tell the committee how many voucher transactions 
you process in a year and whether the number has increased over 
the last 5 years? And will the implementation of the PeopleSoft 
system necessitate additional staff, or will it reduce your 
staff requirements?
    Mr. Strodel. The PeopleSoft system was several years in the 
implementation. It replaced a system called FFS, the Federal 
Financial System, which was a stopgap measure some 15 years 
ago. In moving toward state-of-the-art technology, there were 
several points along the way where it was delayed. But it did, 
sir, ``go live'', on October 1 of last year. We are currently 
using PeopleSoft as the financial system for the House.
    It is an integrated system, so that other standalone 
systems can function through PeopleSoft. So whether it is 
inventory management or procurement, they all run through the 
same system, giving certain savings and efficiencies, reporting 
capabilities, and better internal controls.
    In terms of the number of vouchers since I have been in 
this position, I felt very, very strongly the frustration of 
Member offices. This subcommittee previously asked for a survey 
of the House community regarding our services, particularly in 
the areas of finance and voucher processing. One of the first 
actions taken was to meet with the financial points of contact 
in the Member offices, with a group called the Professional 
Administrative Managers, which your staff may serve on, and 
people whose job interacts with our organization. They were 
extremely frustrated, extremely frustrated.
    Additionally PeopleSoft has a transparency component. And 
what we hope to get to, Mr. Bishop, is a point where your 
office and other offices through the system, enter your own 
voucher and follow it along the process. We still pay it, but 
you control the submission and see how it flows through the 
process.
    That is where we hope to get to with PeopleSoft but we are 
not there yet. Currently, we do have a pilot program where 
offices can see where their financial data is in the process. 
However, they can't enter it themselves yet.
    And that all sounds great, and there are going to be 
efficiencies, but the transition and the development of it 
needs to be methodical and programmatic to roll these out. So I 
am not suggesting that the current system is wonderful, but we 
are making incremental improvements. There is a long 
developmental process and we will work with the authorizing 
committee to make sure this is the direction we want to go.
    Getting to your point about numbers, I am so glad the CFO, 
Traci Beaubian, is here, because she can tell you the number of 
vouchers that are processed annually. It is in the thousands 
per week.
    Is that correct? About 250,000 vouchers annually.
    There will be efficiencies and less paperwork on both ends 
of processing. If that ultimately leads to the opportunity to 
streamline staffing, that would be a nice outcome.
    Mr. Bishop. Well, thank you.
    I don't know, how is my time?
    Mr. Crenshaw. I think it has expired. We will have time for 
some other rounds.
    Let's go to Mr. Price.

                        DEFENSE OF MARRIAGE ACT

    Mr. Price. Thank you, Mr. Chairman.
    I would like to raise the issue of the pending House 
defense of the Defense of Marriage Act, a legal action that was 
voted on by the council of House leaders and which apparently 
is moving forward.
    And I guess, of the folks now sitting at the table, the 
Chief Administrative Officer would be the one to address, but 
if Mr. Kircher wants to chime in, I would be happy to have him 
join us at the table, as well. The General Counsel, is he here?
    Mr. Kircher. I am here. You want me to sit?
    Mr. Price. Yes. I am sure you will have something to say 
about this.
    Mr. Strodel. He is much smarter than me.
    But I can say that, in terms of on the operational side, I 
have not received a request on this topic.
    Mr. Price. You have not received a request? There has been 
a vote taken by the Bipartisan Legal Advisory Group, the group 
of five House leaders. And, as you know, well-publicized 
letters have been exchanged between the Speaker and the 
minority leader.
    Other Members, I am sure, will have questions about this. 
Let me just begin, though, with a question about the historical 
context of this decision.
    What kind of precedent is there for the House paying for 
litigation approved by the BLAG in previous Congresses?
    We are talking about substantial money here, maybe not as 
big legal endeavors go, but we are talking about $500,000 as 
the fee that has been apparently stated. That would be, of 
course, more than a third of the General Counsel's budget. So 
we are talking about a substantial dedication of funds, either 
from this source or from some other.
    But my initial question has to do with the historical 
context. Is there precedent for this? Has this been done in the 
past?
    Mr. Kircher. I have been working in the General Counsel's 
Office since 1995. There are two instances during that period 
of time in which my office has signed retainer agreements with 
outside counsel to provide legal representation to the House in 
one instance and advice to our office in another instance.
    In both of those instances, the General Counsel signed the 
retainer agreement with the outside lawyer. The agreement was 
approved by the chairman of the Committee on House 
Administration. And the funding to pay for those outside 
attorneys was provided from sources outside the General 
Counsel's budget.
    So there were two instances, as I said, in the last 15 
years. I am aware of one other, dating back to the early 1980s. 
You may be familiar with the Chadha case from the late 1970s, 
early 1980, which ended up in the Supreme Court. In the course 
of that, the House retained an outside attorney named Eugene 
Gressman, who, at the time, was a law professor at UNC, who 
represented the House in briefing in the Ninth Circuit and the 
Supreme Court. So that is a third precedent for this kind of 
arrangement.
    Mr. Price. Now, these precedents, do they involve the 
defense of statutes? How do they compare to the case we are 
talking about here, both in subject matter and in the cost 
involved? In other words, to what extent are these convincing 
precedents for the House undertaking this kind of legal action?
    And let me just also ask you, why private lawyers? 
Apparently, an attorney named Paul Clement has been retained. 
There has been a fee set of $500,000. Why a private lawyer? Why 
this fee? We are told that is a 25 percent discount; has that 
been reviewed by Ethics? How was that fee established? What 
kind of bidding went on?
    I am interested in the precedent, of course, but I am also 
interested in the terms of this agreement and how conventional 
it is.
    Mr. Kircher. Well, in terms of the numbers that were spent 
in the previous three instances that I described, I don't have 
those numbers in hand.
    Obviously, the Chadha case was more than 30 years ago, so, 
you know, the absolute dollars simply wouldn't compare. The 
Chadha case did involve the defense of a Federal statute that 
the Department of Justice declined to defend, which is directly 
analogous to the situation here.
    Another case in the late 1990s involved litigation over the 
census. The issue, at the time, was whether the Census Bureau 
could conduct--whether it was consistent with the Constitution 
for the Census Bureau to take surveys and to rely on surveys in 
order to come up with an enumeration of the population in time 
for the 2000 redistricting. So that is a little bit different.
    The third instance is different in the sense that my 
office, at that time--the third instance involved fallout from 
the search warrant that was executed on Congressman Jefferson's 
office in 2006. There were some efforts between my office, at 
the direction of the House, to negotiate some protocols with 
the Department of Justice pursuant to which warrants could be 
executed on the House consistent with the Constitution so as 
not to raise these kinds of issues.
    Mr. Price. All right. So it sounds like one of these 
precedents, one from decades ago, had something to do with 
defending a statute.
    Can you answer my other questions? Why the hiring of 
outside counsel? What kind of bidding process? How was this fee 
set? What is the story about the discount? And so forth.
    Mr. Kircher. Well, let me start with the discount notion. 
There isn't a discount. If you take a look at the retainer, you 
will see it is actually a blended rate. That is simply a one 
dollar-per-hour rate for every lawyer who works on the 
contract. Some of those lawyers will normally bill at a rate 
below that hourly rate; some of the lawyers will normally bill 
at a rate above that hourly rate. It is a method to simplify 
the billing. Whether it will ultimately work out to the House's 
advantage, in terms of savings, is----
    Mr. Price. Excuse me. Doesn't the contract state that the 
firm is assessing at 75 percent of the regular charges?
    Mr. Kircher. No. The 75 percent figure comes with respect 
to non-lawyer time. So that is essentially paralegal time and 
that sort of thing, which will be a very, very small fraction.
    Mr. Price. Okay, but a discount is a discount, right, in 
terms of the ethics rules? Or is it?
    Mr. Kircher. Well, my understanding of the ethics rules is 
that there is--if you view the 75 percent discount, which, as I 
said, is a very small fraction of the likely billings we are 
likely to receive, my understanding is that the ethics rules 
with respect to the defense or cases involving challenges to 
Federal statutes do not place a limit on pro bono assistance.
    So I think the fair reading of the ethics rule is that if 
you can take pro bono representation, which is zero, then you 
can take a discount.
    Mr. Price. And the Ethics Committee has confirmed that?
    Mr. Crenshaw. Mr. Price, we have been pretty liberal. You 
can pursue that on your next round.
    Mr. Price. All right. Just one final question.
    The Ethics Committee has confirmed this?
    Mr. Kircher. I do not believe there has been a committee 
signoff on that, an Ethics Committee signoff on that.
    Mr. Price. Thank you, Mr. Chairman.

                       IMPLEMENTING TRANSPARENCY

    Mr. Crenshaw. Ms. Haas, I know that the Speaker has made 
transparency a big issue, making the House more open. And I 
imagine you have a lot to do with implementing that.
    I wonder if you could just comment on what are your 
thoughts about that and what are you trying to do. Does that 
require additional resources?
    Ms. Haas. Sure, absolutely. There are a couple areas that I 
could give you some examples of on transparency and some 
progress we are making so far this Congress.
    First, as you know, the House adopted a new rule this 
Congress making constitutionality statements a requirement when 
bills are introduced. As part of that rule, it also required 
that that information be made available electronically. As you 
know, we receive this information in paper form. So we worked 
together with the Library of Congress, the GPO, and our office 
to develop a system to make this information available 
electronically and also in a searchable format.
    I mentioned earlier in my testimony the HouseLive Web-
casting. That is something that we are continuing to roll out 
improvements to. It will allow both the House community and the 
public community to receive the House proceedings on mobile 
devices. And we expect that upgrade to be rolled out in the 
next couple weeks.
    And then, finally, a project that I think we are going to 
be tasked with in the very near future is to develop a system 
for committees' electronic documents to be made available in an 
open data format. And that is a project that the public has 
been very interested in because they want to receive this data 
in a format that they can use and that is very accessible.
    The HouseLive rollouts will require some additional 
resources. We have had some early estimates, about $75,000 or 
so. This third project on the electronic documents we think 
will be a significant project. We haven't been tasked with it 
yet, but we expect to have it happen, and we have done some 
early estimates on that. Our early estimates are about $1.3 
million. We assume that we will need to include a document 
management system, additional network capability and additional 
servers.
    So those are three examples of some things on the 
transparency side that we have either completed or are in the 
process of working on.
    Mr. Crenshaw. Thank you.

                           INCREASED SECURITY

    Mr. Livingood, along the same lines, in terms of increased 
resources, after the incident with Representative Giffords, 
there were a lot of Members who said, we might need more money 
in our office accounts to deal with security, et cetera. And 
you, at the time, it seems to me, came up with some really very 
commonsense solutions to some of those issues.
    And I know that you were working to establish a law 
enforcement coordination with the Members' offices. And most of 
that was just thinking ahead and being smart and not costing a 
whole lot of money.
    Talk a little bit about how that is working out and what 
you have done there.

                  LAW ENFORCEMENT COORDINATOR PROGRAM

    Mr. Livingood. Well, Mr. Chairman, when we came up with the 
idea of a law enforcement coordinator in the district offices, 
we were thinking that there are so many district offices in the 
House and that each Member needed in his or her district office 
a law enforcement coordinator who would go out to the police 
departments--and that means every police department in your 
area; that would be the local police, the county police, 
sheriff's department, and the State police--and make contact 
with them at a higher level than just a patrolman or a trooper 
and be able to go to them when you have any security concerns.
    Plus, let them know when the Member is attending a public 
event. And then they would ask the police to go with them or 
ask the police to cover that event, but usually to go out and 
look at it with them first. And then request that they have a 
presence at that event, which the police would decide. And if 
they have a problem getting law enforcement presence, then they 
are to come back to the Capitol Police or to my office, and we 
will then start making calls ourselves.
    We, the Capitol Police Board--sent a letter to over 17,000 
police agencies and asked for their cooperation in this effort. 
We did not hear a negative from anyone, but we heard over 50, 
60 positives, that, ``We will help you, don't worry.'' Several 
even said they are going to start a dignitary protection 
division in their department.
    So far, it has worked out very well. We are just finishing 
getting an LEC in every district office. There are a few 
offices that have not yet furnished us with a name, but we sent 
something out again this week asking them to please send us 
their name.
    And we have information on our Web site, intranet, for 
every office, district office, about security and what to do 
with the LECs, what to do to help the Member when there is a 
public event.
    Mr. Crenshaw. So that is all working out, it sounds like, 
pretty well.
    Mr. Livingood. So far, so good, sir.
    Mr. Crenshaw. That is good to hear. Thank you.
    Mr. Honda.

                        DEFENSE OF MARRIAGE ACT

    Mr. Honda. Thank you, Mr. Chairman.
    Let me get back to--I was going to ask, initially, a 
question on the Defense of Marriage Act, and then I would like 
to follow up on Mr. Price's line of questioning.
    You said there were precedents before, three. In those 
days, did they have the Antideficiency Act in place at that 
time?
    Mr. Kircher. I believe the Antideficiency Act has been 
around since the middle of the 19th century, so, yes, I believe 
so.
    Mr. Honda. Okay. And the Antideficiency Act says what?
    Mr. Kircher. Not committing unappropriated funds? Is that 
what you are referring to?
    Mr. Honda. Well, whatever the act says.
    Mr. Kircher. All right.
    Mr. Honda. That is what it says? Cannot appropriate or 
spend money that you don't have or that has not been allocated?
    Mr. Kircher. Something to that effect, yes.
    Mr. Honda. Or spend money outside of the account area.
    Mr. Kircher. Well, I don't have the act in front of me, so 
you are putting me at a little bit of a disadvantage. But I can 
certainly get access to it if you want me to discuss the act, 
itself, in detail with you.
    Mr. Honda. Okay. So, basically, it is about not spending 
money that you don't have or you haven't budgeted for, it seems 
to me, that is not within our account area.
    And what I understand is that there has been a price tag of 
$500,000 that is out there. Has that been committed in a 
contract?
    Mr. Kircher. The contract, as you may be aware, puts a cap 
on the spending. It puts a cap on the----
    Mr. Honda. So it is, you do not go beyond this amount of 
money.
    Mr. Kircher. Yes, sir.
    Mr. Honda. And this is with a private firm, outside firm.
    Mr. Kircher. Yes, it is with the firm of Bancroft PLLC.
    Mr. Honda. For paralegals, we will be charged 75 percent of 
a standard charge of a paralegal.
    Mr. Kircher. Yes.
    Mr. Honda. And then I thought I heard you say that we would 
be charged a dollar per hour per lawyer.
    Mr. Kircher. Yes, $520.
    Mr. Honda. I am sorry?
    Mr. Kircher. Five hundred and twenty dollars per lawyer 
hour.
    Mr. Honda. Oh, I thought you said a dollar per hour.
    Mr. Kircher. No, no, no. I wish it was a dollar per hour. 
No, it is $520 per hour.
    Mr. Honda. I didn't hear the amount.
    Mr. Kircher. I am sorry, I am sorry. I meant a particular 
dollar amount per lawyer per hour.
    Mr. Honda. Is that a discount?
    Mr. Kircher. Well, I don't think it is a discount, Mr. 
Honda.
    Mr. Honda. What does our legal counsel get per hour, more 
or less?
    Mr. Kircher. Oh, you are talking about me? It would be a 
figure below that amount.
    Mr. Honda. Okay. And so, having said all that, talking 
about precedents and costs, in order to effect the contract, is 
there not a process of approval where the Senate and the 
President's office has a say in doing this? Or is that just in 
transfer of funds from one account to another?
    Mr. Kircher. Are you asking me how this particular contract 
will be paid? I am not sure I----
    Mr. Honda. No. I am asking how we effect a contract such as 
that with outside counsel using money that we don't have.
    Mr. Kircher. Well, I understand that we do have--the House 
does have funds.
    Mr. Honda. Where is it coming from?
    Mr. Kircher. My understanding is it is being reprogrammed 
from other sources in the House.
    Mr. Honda. Reprogrammed by whom?
    Mr. Kircher. Well, by the appropriators. The Speaker's 
office obviously will be involved in that process.
    Mr. Honda. So it hasn't happened yet.
    Mr. Kircher. I don't know, Mr. Honda, whether it has 
happened or not.
    Mr. Honda. Mr. Strodel, you say you haven't received a 
request. Does a request have to go to you first before you 
effect a contract?
    Mr. Strodel. At some point along the way, it would come to 
my office to be effected.
    Mr. Honda. So, as of now, you don't know what is going on?
    Mr. Strodel. I do not have a request.
    Mr. Honda. You don't know what is going on.
    Mr. Strodel. That is correct, I do not.
    Mr. Honda. So you won't even know whether it is coming out 
of your funds or not.
    Five hundred thousand dollars, I think it was said, is 
about 35 percent of your budget, correct?
    Mr. Kircher. It is not coming out of the budget of the 
Office of the General Counsel.
    Mr. Honda. Oh.
    Mr. Kircher. It is being reprogrammed from other sources. 
Whether it will be----
    Mr. Honda. Are you part of that negotiations or what?
    Mr. Kircher. No. I told you that I have been informed that 
that is what will happen.
    Mr. Honda. Have you asked, where is it coming from?
    Mr. Kircher. No.
    Mr. Honda. Is anybody curious? How is this being done? Does 
anybody know?
    Mr. Kircher. Well, I assume the appropriators know, I 
assume the Speaker's office knows. It is possible that the 
Committee on House Administration also knows. I would think 
those would be the principal people involved in effecting the 
reprogramming----
    Mr. Honda. The contract has already been signed.
    Mr. Kircher. Correct.
    Mr. Honda. How do you sign a contract without prior 
permission?
    Mr. Kircher. Permission of? I was directed by the 
leadership of the House to do this. It was approved by the 
chairman of the Committee on House Administration.
    Mr. Honda. Is that the process?
    Mr. Kircher. Well, that was the process that was followed 
here.
    Mr. Honda. Is that the legal process?
    Mr. Kircher. I am not aware that there is anything illegal 
or improper about that process.
    Mr. Honda. The Antideficiency Act says you can't spend 
money you don't have. You are not spending it out of your 
budget.
    Mr. Kircher. Uh-huh.
    Mr. Honda. And, therefore--but you signed it knowing full 
well that it is not going to come out of your budget. Where is 
it coming from, and how can you sign something prior to--you 
know, with all those things in place?
    Mr. Kircher. Because, as I indicated, I was advised by the 
leadership of the House that the money would be reprogrammed 
and would be available to pay the contract.
    Mr. Honda. Was that in writing?
    Mr. Kircher. No.
    Mr. Honda. How do you know that is--how would I know that 
that is the way it is going to be?
    Mr. Kircher. Well, you are asking me. I am telling you what 
I understand. You are certainly welcome to confer with the 
Speaker's office.
    Mr. Honda. Okay. Thank you.
    Mr. Crenshaw. Thank you.
    Mr. Bishop, it is your turn.
    Mr. Bishop. Thank you very much.

                            MEMBER SECURITY

    I would like to return to Mr. Livingood and ask him about 
the issue of security for Members and Member offices.
    Obviously, with the tension that developed around the 
health-care debates and then the Giffords incident earlier this 
year, you developed a very thoughtful policy to have liaisons 
in each of our district offices, as well as in the Washington 
offices, for security, and to have them reach out to the local 
police organizations.
    You made recommendations for the physical security of our 
offices as well. In fact, I think ADT was contracted by the 
Sergeant at Arms Office to provide a security assessment for 
each of our individual district offices. There was, I 
understand, some problem with the reports that were coming back 
initially. These security assessments will require funds to do 
a number of physical alterations to the district offices.
    Given the shortage of funds and one reduction in our MRAs, 
is there a precedent--As to how the Senate handles providing 
security modifications to Member offices as compared to what we 
do in the House?
    Also, is there a recommendation that this committee could 
make in terms of providing for the added cost of security, 
given the fiscal constraints that we are under today?
    Mr. Livingood. If I may. Just to give you a basis 
historically, we started years ago. Members were asking for 
security, physical security in their district offices. We then 
got with the police, the committees, this committee and the 
Committee on House Administration and figured out we would send 
somebody from the Capitol Police, and they would do a survey. 
Then that office--would send it back. The Capitol Police 
physical securities section would approve it, so there wasn't 
some wild idea that was way over cost than needed. We would go 
back to the office and give their approval through the 
Committee on House Administration. That worked out well for 
years.
    Then, with a large influx of new Members, the Capitol 
Police were overwhelmed because there are only several teams 
that go out. And we didn't want to wait 4 or 5 years, or 3 
years to have it done. So Capitol Police came up with the idea 
from the Senate of the possibility of using as under contract, 
ADT, who was already under contract to the Leg--or not the Leg 
Branch, but to the Capitol Complex for the Senate. And we 
talked to some others and found out that ADT appeared to be the 
best or could handle.
    So we notified offices out that ADT is available. We also 
offered offices the option to use a local contractor if they 
don't want to use ADT. That did not change.
    ADT got overwhelmed with a large number at once. We have 
had several meetings, particularly in the last 2 weeks. Since 
that, I have not heard any complaints. It seems to have been 
ironed out.
    My understanding is that it does come out of the MRA. And 
does the Senate do it differently? I have been told. I do not 
have confirmation. I am not exactly sure how, but that somehow 
the Senate pays for that. I don't know if they have an MRA or 
if there is another way.
    Mr. Bishop. I am talking about the physical security. For 
example, in our offices, the recommendation from your team was 
that we needed to have some doors installed and some cameras 
installed and position the doors in a certain way, which 
required physical alteration of the facilities, the buildings.
    And it is my understanding that the Senate has for a number 
of years provided each Senator's office, through the--I guess--
your counterpart on the Senate side is who?
    Mr. Livingood. That is what I understand, that it----
    Mr. Bishop. Who is your counterpart----
    Mr. Livingood. The Senate Sergeant of Arms----
    Mr. Bishop. The Senate Sergeant of Arms has a fund from 
which the Senate Sergeant of Arms can provide physical 
alterations for security purposes to Senate Member offices.
    Mr. Livingood. That is what I was alluding to. There is--I 
haven't followed up with them on how they do it or what they do 
or how much, because I know they have 100, and we have quite a 
bit more. And so far, at least until the period when ADT got 
behind, it had been working. I realize that everyone is 
concerned about the MRAs, but that is an area that is not in my 
expertise.
    Mr. Bishop. What I am trying to understand is that on the 
Senate side, each Senator has an allocation for their physical 
offices in their respective States. Therefore, if alterations 
have to be made for security purposes, the Senate Sergeant of 
Arms--from that security fund--is able to make the necessary 
modifications and oversee that work such that it doesn't have 
to come out of the Members' allowance.
    Mr. Livingood. That appears to be. I do not have the full 
story because I haven't asked it. But it appears to be that the 
Sergeant of Arms of the Senate has a fund that he approves that 
I guess is a Senate fund. I don't know where it comes from or 
how or what.
    Mr. Bishop. Obviously, it has to be appropriated by 
Congress.
    Mr. Livingood. By the Senate.
    Mr. Bishop. But there has got to be lighting. There has got 
to be wiring. There has got to be doors installed. There has 
got to be windows and bulletproof glass.
    It seems that if there were an allocation of X amount per 
Member district office that was put into your account for 
security, don't you think that would assist Members and their 
staffs and their constituents in providing better security than 
we have now but at a reasonable cost?
    Mr. Livingood. I will say, first, on the--on some of those 
major renovations, what we go back to the office and tell them, 
like doors moving and doing certain things that are more 
permanent fixtures, we tell them to talk to the building 
manager or whoever you signed your lease with and try to ask 
them to do it and include that in your rent. That is working 
with the CAO's office. We discussed that.
    And as far as having a fund in our office, I cannot answer 
that. It would be a large, large number. And it still comes 
from the House Appropriations Committee. And to administrate 
that, quite frankly, on my part with a small office would be a 
large task. But it would alleviate possibly what you have been 
talking about having to use the MRA; there would be another 
way. But again I don't have any answer to that because that is 
really not my area of expertise.
    Mr. Crenshaw. Thank you, Mr. Bishop.
    I think you raise an interesting point. And I think a lot 
of this, when we stop and think that there are risks involved, 
it makes us all think about what kind of office space we are 
leasing, because I know it has come to mind to a lot of 
Members, you realize that there is maybe a better place to have 
an office or a more secure place. I think it is very legitimate 
to talk about it because I think it is all beginning to come to 
light. So thank you for that. Let us go now to Mr. Price.

                        DEFENSE OF MARRIAGE ACT

    Mr. Price. Thank you, Mr. Chairman.
    Let me return to our line of questioning about the defense 
of the Defense of Marriage Act, first a loose end from my 
questions and then an additional question raised by the answers 
of the general counsel to Mr. Honda. But just quickly, can you 
fill us in on what kind of bidding process, if any, was 
utilized to choose counsel in this case? Did you or anyone else 
administer a search or a bidding procedure?
    Mr. Kircher. I wouldn't call it a bidding procedure. We did 
talk with another law firm that had been identified as a 
possible candidate for this job. And we talked with those two 
firms, Mr. Clement's original firm, King ` Spalding and another 
firm.
    Mr. Price. So you did think about it and confer, but you 
did not do anything as formal as issuing a notice or receiving 
bids?
    Mr. Kircher. No.
    Mr. Price. Is that standard practice?
    Mr. Kircher. Well, I have given you the instances in which 
I know of that the House has done this, as I said, within the 
past 15 years that I have been here. And in both of those 
instances, the House went out and identified the lawyers that 
it thought could do the job. Lawyers are different than 
widgets. There are lawyers with particular expertise.
    Mr. Price. Well, bidding processes, of course, take that 
into account. You are not bound to hire unqualified people.
    Mr. Kircher. Right. I will say what happened here is 
consistent with what happened in those other two instances I 
identified, which is we went and we looked for lawyers that we 
thought could do the job and had the expertise to handle it.
    Mr. Price. There was no public notice that this position 
was available?
    Mr. Kircher. No.
    Mr. Price. This was simply a private internal process to 
your office?
    Mr. Kircher. That is fair. Well, I should say not just to 
our office. Obviously, the Speaker's Office and the leadership 
offices were involved as well.
    Mr. Price. But it was not a public process?
    Mr. Kircher. No, it was not a public process.
    Mr. Price. I am puzzled by your answer about the 
Antideficiency Act and by where this money is coming from. If I 
heard you correctly, you suggested that a reprogramming request 
would be forthcoming for a transfer of funds within the 
legislative branch.
    Mr. Kircher. Yes.
    Mr. Price. That is not my understanding of the Speaker's 
intent. Perhaps you can correct me or perhaps there has been a 
change. I am quoting here from an April 18 letter from the 
Speaker to leader Pelosi and here is what he says quite 
straightforwardly: ``Obviously, the Department of Justice's 
decision [i.e., the decision not to defend this statute] 
results in DOJ no longer needing the funds it would have 
otherwise expended defending the constitutionality of DOMA. It 
is my intent that those funds be diverted to the House for 
reimbursement of any costs incurred by and associated with the 
House and not DOJ defending DOMA.''
    And then he says again later in the letter, ``I would 
welcome your joining me in support for redirecting these 
resources, those resources from the DOJ.'' Now, that sounds 
like something rather different from the internal reprogramming 
you had described, and it certainly raises Antideficiency Act 
issues, doesn't it?
    Mr. Kircher. I don't think so. I mean, I don't want to 
presume to speak for the Speaker here, but I think what he is 
probably referring to there is I think he used the word 
reimbursement; that is, the House obviously is going to have to 
pay the lawyers to get started on this thing.
    The work has already begun, obviously. The cases were in 
litigation at the time the Department of Justice pulled the 
plug on them. I think what he is probably referring to there is 
diverting money from the Department of Justice budget to the 
House to reimburse the House for the moneys that the House will 
have to reprogram in order to pay the lawyers on a going-
forward basis. I suspect that is what he is referring to. But 
as I said, I would like not to be presuming to speak for the 
Speaker.
    Mr. Price. The ultimate source of the reimbursement is 
presumably $500,000 from the Department of Justice. Has any 
request been made of the Department of Justice for 
reimbursement? Has any appropriations proposal been made to 
reduce the appropriations by that amount or has any other 
public or private request gone forward that would effect such a 
transfer?
    Mr. Kircher. Are you talking about from the Department of 
Justice to the House?
    Mr. Price. That is what he is talking about here, yes.
    Mr. Kircher. I am not aware of that, and that is way beyond 
the scope of my responsibilities. I don't know if that is going 
to happen. I assume if it was going to happen, it would happen 
in the course of the appropriations.
    Mr. Price. Whether it has happened or whether it will 
happen in the future or whether it is just a hypothetical, in 
the meantime, you will be spending the money, is that not 
correct? Your office will be spending the money.
    Mr. Kircher. Well, yes.
    Mr. Price. This is money that maybe somebody has an idea 
somewhere where it is going to come from, but it is certainly 
not in hand yet: Is that correct?
    Mr. Kircher. Well, no, I don't think that is fair. Again, 
the answers I am giving you are based on my understanding that 
there has been money appropriated to the House for various 
resources and that some of that money will be reprogrammed so 
as to be available to pay the lawyers. Exactly where it will be 
reprogrammed from and to, I do not know. In other words, I 
don't know whether it will end up in a fund with OGC at the top 
of it, the Office of General Counsel, or whether it will be in 
a fund with the Committee on House Administration at the top of 
it or the CAO at the top of it. I don't know where the money 
will end up. But it is my understanding and I have been led to 
believe that the money will be available to pay the lawyer fees 
when they begin to send the bills.
    Mr. Honda. Will the gentleman yield?

                          ZERO-BASED BUDGETING

    Mr. Crenshaw. Your time has expired. Let us go for another 
round and you all can pursue that. Mr. Strodel, you mentioned 
in your testimony zero-based budgeting. That is a concept that 
has been around--it is a good way to exercise fiscal 
discipline, and I am just curious, how did that work as you 
approached your spending from that? Because that is something 
that probably other people could learn about. I am sure there 
are some difficulties involved. Please talk a little bit about 
how you went through that process trying to implement a zero-
based budgeting process.
    Mr. Strodel. Yes, sir. As you mentioned, it is a concept 
that has been around for some time. But it is one that has 
advantages in terms of fiscal discipline. Instead of taking 
last year's request and adding a percentage, you start with 
zero and you justify your programs, projects and activities. 
For our organization, as we talked about earlier, there is a 
lot. It is a wide range of services. So it is an opportunity to 
revisit as well the efficacy of a particular program, project 
or activity.
    But it involves internal management, developing a team 
within each area that meets on a regular basis. There are 
milestones that they are trying to achieve to determine whether 
this particular program, project or activity is still viable. 
It has added an additional management requirement internal to 
CAO, but it is well worth the exercise. And to the extent we 
can find efficiencies and savings, that is what we have to do.
    Mr. Crenshaw. Is that the way that you put together your 
budget this year? Did you actually go through that from a zero 
base?
    Mr. Strodel. In a modified way, Mr. Chairman, because we 
were operating based on the CRs and the way the budget has 
evolved this year. So absolutely we are doing it for 2013, but 
we thought we could capture information related to 2012 as 
well. So we are moving at a more truncated pace than we would 
like to. However my intention going forward is to do so.
    Mr. Crenshaw. And you found that it does in fact help you 
weed out duplication, helps you streamline. It helps you 
understand, as you started out your testimony going back to 
those core issues as you start at the very beginning, it really 
helps you go back to the basics. Is that true?
    Mr. Strodel. Yes, sir. Absolutely.
    Mr. Crenshaw. Did you find it more difficult than maybe the 
normal process of just taking last year's budget? It probably 
involves a little more work I would imagine, but you would say 
it is worth the effort?
    Mr. Strodel. Yes, I would and it does involve more work and 
the professionals that I work with within CAO, they are 
versatile; and enthusiastic about their jobs. They come here to 
work not as a job but for public service and they love working 
for the House of Representatives. There is an esprit de corps 
about how we do our job. So the approach has been in a positive 
way to look back and say, why do we do this? What is yielded 
from it? Is somebody else doing it? Is another element doing 
it? Can we find some duplication to reduce? So it is a 
management tool that is well worth it.
    Mr. Crenshaw. Would probably recommend it to other people? 
Even though it involves more work, it is a good exercise to go 
through from time to time, would you probably say?
    Mr. Strodel. Yes. And I believe my counterparts are doing 
that as well.
    Mr. Crenshaw. Great. Thank you very much.
    Mr. Honda.

                        DEFENSE OF MARRIAGE ACT

    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Kircher, I am on the Commerce, Justice, Science 
Subcommittee on Appropriations. You mentioned that the funds 
will be appropriated through that process, the funds for 
covering the contract with----
    Mr. Kircher. I think what I said was--we are talking about 
moneys that have been appropriated for the House and are simply 
being reprogrammed for another purpose, something which I 
understand happens on a regular and ongoing basis in the House.
    Mr. Honda. So reprogramming appropriations still has to 
take committee action or subcommittee action first, does it 
not?
    Mr. Kircher. I do not know how the reprogramming process 
works. I understand that it goes through the Appropriations 
Committee. I don't know specifically how that process works.
    Mr. Honda. It would seem that it would be an appropriate 
pathway. I sit on the subcommittee, and maybe I missed it. But 
I haven't--I don't remember ever attending a subcommittee 
meeting on this item. So I would imagine that if that is the 
case, one, we would have been notified; two, if that is the 
intent, we should be notified so that we can have that debate; 
and, three, the contract was signed. Now, that is a legal 
document, and we are committed to it. And so someone is liable 
for that for $500,000.
    Mr. Kircher. Yes.
    Mr. Honda. It doesn't seem like it is your office, although 
you signed it.
    Mr. Kircher. I did sign it.
    Mr. Honda. And who else signed it?
    Mr. Kircher. Well, Mr. Clement signed it, obviously, and 
the chairman of the Committee of House Administration approved 
it.
    Mr. Honda. They signed it?
    Mr. Kircher. Yes, Mr. Lungren signed it.
    Mr. Honda. Did that take committee action also?
    Mr. Kircher. I do not know how the committee handled that. 
I do not know how CHA handled that process.
    Mr. Honda. So the chair of the authorizing committee signed 
it along with yours and the----
    Mr. Kircher. The attorney.
    Mr. Honda. The attorney.
    Mr. Kircher. I have a copy of the retainer if you would 
like to see it.
    Mr. Honda. That would be helpful.
    Mr. Kircher. Can I----
    Mr. Honda. No. I can get it later. And again, refreshing my 
memory, the CAO still doesn't know what the process--where that 
process is right now?
    Mr. Strodel. As far as I know, sir, our office, the CAO's 
office has not received a request for reprogramming or other 
document.
    Mr. Honda. Or has any knowledge of the proceedings that we 
just discussed? This is all new stuff?
    Mr. Strodel. Yes, sir, that is correct.
    Mr. Honda. It is new to me. I am just following--and trust 
me. It is uncomfortable for me to ask these kinds of questions.
    Mr. Kircher. It is quite alright.
    Mr. Honda. But it is something that----
    Mr. Kircher. I will do the best I can to answer them for 
you.
    Mr. Honda. You are doing fine. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. I don't have any more questions. Mr. Honda do 
you have any further questions?

                         SUSTAINABILITY PROGRAM

    Mr. Honda. Well, getting back to sustainability--I would 
like to see the paperwork as far as the sustainability versus 
the amount of money that we saved. It seems to me that if we 
have been saving money, that funds should be passed on to the 
consumers, our staffers, our Members who patronize the 
cafeteria.
    I disagree that in terms of sustainability that 
transferring over to Styrofoam from compostables is the smart 
move in terms of the larger picture. And so what I am hearing 
is that the extra cost comes from the hauling of compostables 
to another site and that is cost on top of hauling trash and 
garbage and wet garbage and everything else from our site to 
another site; is that correct?
    Mr. Strodel. Yes, it is. And if I could elaborate a little 
bit, there are two costs associated with the compostable 
serviceware program: One is the serviceware itself that the 
vendor provided, which the cost they incurred reduced the 
payment to the House from their gross receipts. The other cost 
was for the hauling of the compostable serviceware. This was a 
contract between CAO and a specific hauler who would take it to 
a compostable facility, if that helps to clarify. The totals of 
those equalled a little over $650,000 in 2008; and in 2009 and 
2010, somewhere between $450,000 and $500,000. Those were the 
specifics related to the programs. The Architect has the larger 
campus-wide responsibility for recycling and trash removal; and 
their hauling was not to a compostable facility.
    But that is where a little bit of an overlap occurred in 
terms of what CAO was doing versus AOC.
    Mr. Honda. Did folks get together to try to figure out how 
you bring these two activities together to reduce the cost? 
That is one.
    Two, by whose direction did we change this practice? Was it 
the negotiations or were they directed--did we just renegotiate 
another contract and say this is the way we want it and the 
contractors complied?
    Mr. Strodel. If I understand it, the coordination of what 
the Architect does or has been doing versus this particular 
serviceware and the compostable program is separate. I don't 
want to speak too much for them, but they have a campus-wide 
focus. They had contracts in place before this initiative and 
to this day. I believe they are working with this committee and 
House Administration on future opportunities to recycle or go 
to a waste energy type model. Within the House community 
itself, the decision was made in 2007 to ask the vendor to 
provide compostable serviceware.
    It had to go to a compostable facility to effect its 
purpose. There was some discussion with AOC, and there is a 
partnership between our offices that focused on sustainability. 
But we were a smaller player in the larger campus decision 
making process.
    Mr. Honda. Well, my question was, did we renegotiate it, 
and was it our action rather than the contract? Because it 
seems to me a contractor would be perfectly happy to keep it 
the way they were. So did we make that decision, or did they?
    Mr. Strodel. Yes, we made that decision. The two components 
of the costs were the hauling of the compostable material and 
the serviceware. The hauling contract expired, and the question 
arose, in this budget environment, is there a better way to 
have serviceware in place that does not cost the House money. 
So that was a driver for the decision making, the end of the 
contract and then the budget environment.
    Mr. Honda. The $500,000 or $400,000, that is over and above 
our normal charge? That is in addition because of that one 
particular activity?
    Mr. Strodel. It was a cost that was incurred to do the 
compostable serviceware program. The fee received by the House 
was offset or reduced by using the compostable serviceware. 
Less money came into the House to operate the program. Based on 
an Inspector General report about the efficacy of this 
particular program, the concern was in the end, the energy 
savings wasn't what was intended.
    Mr. Honda. Energy savings to the Capitol?
    Mr. Strodel. Yes, as an initiative of sustainability, this 
wasn't cost-effective.
    Mr. Honda. But sustainability and the greening were part of 
a larger carbon footprint, are we not, so it seems like maybe 
the Inspector General was very focused on his conclusions, and 
it would have been good to have a little bit more discussion on 
that. But this change was initiated by us, not by the 
contractor. Did we try to work with the contractor to 
renegotiate for them to absorb--in order for them to continue 
business with us?
    Mr. Strodel. Yes, discussions took place with the vendor. 
There are many versions of serviceware with costs associated to 
them, from full compostability to standard serviceware, and, 
the most cost-effective is their standard serviceware, which is 
not an additional cost to the House. Therefore, a decision was 
made to use the standard vendor serviceware at no additional 
cost.
    Mr. Honda. When is the contract up?
    Mr. Strodel. The overall contract with Restaurant 
Associates as the current food service vendor is approximately 
3.5 years into its first 7-year option. So it is a 21-year 
contract with three 7-year option periods.
    Mr. Honda. You have to negotiate this every year?
    Mr. Strodel. Pardon?
    Mr. Honda. With the ability to renegotiate every year?
    Mr. Strodel. No. It is a 7-year contract. Price changes are 
subject to consideration and may or may not happen. But the 
contract itself is not.
    Mr. Honda. I suggest that we initiate that price change 
considering the savings that have been incurred and pass that 
on to our customers and let us make it known that we have done 
that on behalf of the consumers if that happens.
    Mr. Crenshaw. Thank you, Mr. Honda.
    And thank you all for being here today. Thank you for the 
service that you and your colleagues provide to the House.
    This meeting stands in recess subject to call of the chair.
    [Additional questions submitted for the record by Ranking 
Member Honda follow:]

[GRAPHIC] [TIFF OMITTED] T5845C.050

[GRAPHIC] [TIFF OMITTED] T5845C.051

[GRAPHIC] [TIFF OMITTED] T5845C.052

[GRAPHIC] [TIFF OMITTED] T5845C.053

[GRAPHIC] [TIFF OMITTED] T5845C.054

[GRAPHIC] [TIFF OMITTED] T5845C.055

[GRAPHIC] [TIFF OMITTED] T5845C.056

[GRAPHIC] [TIFF OMITTED] T5845C.057

[GRAPHIC] [TIFF OMITTED] T5845C.058

[GRAPHIC] [TIFF OMITTED] T5845C.059

[GRAPHIC] [TIFF OMITTED] T5845C.060

[GRAPHIC] [TIFF OMITTED] T5845C.061

                                            Thursday, June 2, 2011.

                          U.S. CAPITOL POLICE

                                WITNESS

PHILLIP D. MORSE, SR., CHIEF OF POLICE, UNITED STATES CAPITOL POLICE

                  Statement of Chairman Ander Crenshaw

    Mr. Crenshaw. Today we are going to hear testimony on the 
fiscal year 2012 budget request for the United States Capitol 
Police. I want to welcome Chief Phil Morse, the Chief of the 
Police, along with Chief Dan Nichols and Mr. Braddock, correct?
    Mr. Braddock. Correct.
    Mr. Crenshaw. The request this year is for $387.6 million. 
That is an increase of $47.5 million, or 14 percent, over the 
fiscal year 2011, which is $340 million. I think everybody in 
the room knows that we are operating under some pretty 
difficult financial restraints. Our subcommittee has been given 
an allocation that is going to require that we spend $227 
million less than we spent last year, which is about a 6.38 
percent reduction. So these are tough times, and we are all 
going to have to go through this together.
    My philosophy, as I have said before, is to thoroughly 
review each and every item of the budgets that come before this 
subcommittee, and determine what we can afford and what we 
can't afford, what we need and what we want. Sometimes those 
are tough decisions. And I think we all know that just spending 
more money doesn't necessarily mean that we are going to be 
more secure. It doesn't necessarily translate into better 
security.
    We are trying to balance fiscal responsibility and 
security, that is what we are trying to do, and that is why we 
are here today, to hear from you all. And I don't think those 
objectives are mutually exclusive. So as we begin, I want 
everybody to keep in mind that we all know government needs 
money to provide services, but right now we are going through a 
difficult time as a Nation to say, we need something even more 
than money, we need some discipline to kind of rein in 
spending. We need courage as Members to make tough decisions, 
and I think we have got to make sure what we are trying to do 
is to make sure every agency that we deal with does everything 
they are supposed to do, and they do it more efficiently and 
more effectively than they have done it before. So that is what 
we are going to talk about this morning.

                     Opening Statement of Mr. Honda

    Mr. Honda, do you have something you would like to say?
    Mr. Honda. Yes. Thank you, Mr. Chairman.
    And I want to thank Chief Morse for your insight at the 
subcommittee we had last week. It was clear from that meeting 
that you have scrubbed your budget and anticipated tough 
budgetary constraints at that time. However, some of the fiscal 
year 2010 budget mistakes by your Department left this 
subcommittee with a big hole to fill in fiscal years 2011 and 
beyond, which is why the Capitol Police was the only 
legislative branch agency to receive an increase in the fiscal 
year 2011 continuing resolution.
    The chairman and I came to Congress about the same time, in 
2001, 9 months before the September 11 terrorist attacks. And I 
agree with the chairman that security remains a priority, that 
we need to keep the officers on board to keep the visitors to 
the Capitol safe and keep it open to the public. With that 
said, there are limits to what the subcommittee can do without 
impacting other agencies, like the House itself, the Government 
Accountability Office and the Congressional Budget Office. We 
cannot do our jobs without their contributions too. So I think 
a little bit more--I guess we will call it--putting a couple 
more holes in our belts is what will be needed by your agency 
to ensure that we have a balanced approach to funding the 
legislative branch.
    One of your core responsibilities to provide a safe and 
secure environment is the evacuation of the Capitol and the 
House and Senate Office Buildings. I am concerned that flaws 
remain and that adequate plans and systems are really not in 
place as of yet.
    Since joining the subcommittee, it has become apparent to 
me that one major issue is the lack of a singular point person. 
The House and Senate Sergeant at Arms are the point people for 
their respective bodies; however, most people look to the U.S. 
Capitol Police as the lead. So I need to know, where does the 
buck stop? And maybe you can help us today to figure out who is 
in charge.
    I look forward to your testimony, and I also want to set it 
up so that some of the questions that we will be asking will be 
about some systems that we want to have in place relative to 
moving our people through our buildings safely in a time of 
emergency, a time of evacuation. Perhaps that could be embedded 
in our 2012 budget impacts.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you.

                  Statement of Chief Phillip D. Morse

    Mr. Crenshaw. Chief, your statement will be submitted for 
the record. But if you would like to summarize that or make 
whatever remarks you would like to make, please, we look 
forward to hearing it.
    Chief Morse. Well, first of all, I thank you for the 
opportunity to be here. It is an honor to be here today. I want 
to thank my Chief Administrative Officer Richard Braddock for 
the hard work he has done this year, as well as my Assistant 
Chief Dan Nichols, to my right, and the wonderful work he has 
done in our operations. I would also like to thank this 
committee for its unwavering support for the men and women of 
the United States Capitol Police.
    Specifically, I would like to express our appreciation to 
the committee and the Congress for providing the necessary 
salaries and general expenses funding for 2011 to support our 
personnel and our operations. The 2011 appropriation level has 
allowed the Department to address critical salary requirements 
as well as the radio modernization in the fiscal year 2011 
budget. It has resulted in a reduction of those items from our 
2012 budget request.
    As I continue, I would like to emphasize that the 
management team and I are keenly aware of the economic 
situation our Nation faces today. I understand the 
responsibility I have to submit a budget request that is not 
only accurate, but one that is reasonable and based not only on 
critical requirements necessary to mitigate and address threats 
and risks. The Department's fiscal year 2012 request, after 
adjusting for the fiscal year 2011 appropriation levels, totals 
$380 million and represents an overall increase of 12 percent, 
or $40 million, over the fiscal year 2011 enacted-with-
rescission funding level of $340 million.
    To operate within our current budget, we are currently 
carrying out our mission requirements with 1,775 of our 1,800 
sworn positions, the utilization of overtime, a reduced 
civilian staffing level and with only limited training. We have 
received funding in 2011 to increase our sworn levels to 1,800 
as an authorized strength and to staff the total of 393 of our 
current civilian authorized strength. But this is partial-year 
funding for these positions, and we need to be annualized for 
2012 in order to maintain this staffing level.
    Much of our overall increase allows the Department to 
operate at our current overall staffing level. With that in 
mind, our requested 2012 personnel costs support the current 
authorized staffing levels of 2,243 positions, as well as a 
request for three new civilian positions for the Office of 
Inspector General. We are requesting an overall increase for 
salaries of 8 percent over 2011 enacted funding levels with 
rescission.
    We have been very strategic in the hiring of civilian 
positions to best align our resources to our needs. In 
particular, we identified through a position review 22 existing 
vacant civilian positions for reallocation to meet additional 
mission requirements, such as the 9 sworn officers needed for 
the security of the new Federal Office Building 8 and 13 
civilian dispatcher positions needed for the Radio Project 
mirror site requirements.
    The Department's current authorized sworn strength does not 
entirely provide the necessary resources to meet all our 
mission requirements. Mission requirements in excess of 
available personnel must be addressed through the use of 
overtime; identification of efficiencies, such as post 
realignment or reductions; technology; and cutbacks from the 
availability of our officers, such as a reduction in the number 
of hours provided for training.
    At current staffing levels, the Department's fiscal year 
2012 overtime projection includes support for the 2012 
political conventions and pre-Inauguration security planning, 
support for Library of Congress nonreimbursable events, and 
overtime necessary to secure multiyear projects for the Dome 
skirt and utility tunnel projects.
    The second area of detail is an overall net increase in our 
requested general expense budget, which is an overall increase 
of 29 percent over fiscal year 2011 levels. The majority of the 
increase request is for new initiatives to address identified 
threats and risks, and for support of 2012 political 
conventions and Presidential Inauguration planning. The 
increase in the request just for the normal annual needs of the 
Department, excluding these new initiatives and convention and 
pre-Inauguration support, is about 5 percent.
    Finally, with the direct assistance of the Capitol Police 
Board, who have provided advisors to assess financial 
management risks and provide recommended improvements, as well 
as the oversight and recommendations of the Inspector General, 
we have the foundation for sound fiscal practices to include 
sound budget formulation that we are actively implementing and 
we will continuously seek to improve upon.
    In particular, I am pleased to report that we have recently 
closed all eight audit findings related to the USCP Inspector 
General's audit of the Department's budget-formulation process. 
Further, we are working on a resolution of a number of our 
recommendations in order to achieve efficiency and 
effectiveness in our administrative programs.
    At this time I again would like to say I appreciate the 
opportunity to testify, and I would be happy to answer any 
questions you may have.
    Mr. Crenshaw. Well, thank you very much.
    [The prepared statement of Chief Phillip Morse follows:]

    [GRAPHIC] [TIFF OMITTED] T5845D.001
    
    [GRAPHIC] [TIFF OMITTED] T5845D.002
    
    [GRAPHIC] [TIFF OMITTED] T5845D.003
    
    [GRAPHIC] [TIFF OMITTED] T5845D.004
    
    [GRAPHIC] [TIFF OMITTED] T5845D.005
    
    [GRAPHIC] [TIFF OMITTED] T5845D.006
    
    [GRAPHIC] [TIFF OMITTED] T5845D.007
    
    [GRAPHIC] [TIFF OMITTED] T5845D.008
    
    [GRAPHIC] [TIFF OMITTED] T5845D.009
    
    [GRAPHIC] [TIFF OMITTED] T5845D.010
    
    [GRAPHIC] [TIFF OMITTED] T5845D.011
    
    [GRAPHIC] [TIFF OMITTED] T5845D.012
    
                         CAPITOL POLICE MISSION

    Mr. Crenshaw. We will try to observe the 5-minute rule as 
we go around. And let me start, we have had, I guess, two 
informal meetings, and I appreciate the time that you have 
taken to do that. I have to tell you, I have learned an awful 
lot, an enormous amount, about what you all do and how 
complicated it is.
    We have talked some about the efforts that you have made on 
the administrative side. We are all talking about being more 
efficient and doing more with less. And I have heard you talk 
about that. One thing that I have always wondered about is, 
when you look at the numbers, starting in 2003, the budget of 
the Capitol Police has gone up, I think, about 40 percent until 
now. When you took over in 2006, starting in 2007, it has gone 
up about 28 percent. So it has gone up every year. I don't know 
the exact numbers.
    But part of that is when we talk, I always hear you talk 
about mission. I am curious because when we are trying to find 
cost savings--can you help me help the committee understand 
what the mission is? Does the mission change? I guess after 9/
11, things changed a lot. But some of those increases year to 
year, are they driven by a change in a mission. Maybe you could 
talk about how you see the mission. And actually, does somebody 
set a mission? Help us understand that in this context of how 
we find cost savings.
    Chief Morse. Well, in my 27 years here at the Capitol 
Police, I have seen significant change. Obviously I have seen 
significant change with not only the way the institution runs, 
but also in security, which has been the most significant.
    So when we talk about missions, we talk about the number of 
assignments associated with running security operations. So the 
access points for pedestrians, vehicle access points, garages, 
some of the basics, but we also have additional requirements 
that have come about because of the need for security 
enhancement. With the new barrier systems to prevent large 
vehicles from entering the complex, which are a risk, it takes 
people, it takes technology, and it takes physical barriers to 
do so. We have merged with the Library of Congress, so that is 
a mission increase for the police department. We opened the 
beautiful CVC, the Capitol Visitor Center, which is not only a 
welcoming center for the people around the world, but it also 
makes our complex safer.
    So those are some initiatives that have come about with 
regard to security to make the complex safer which have 
required the Capitol Police to increase the number of officers, 
increase the number of--the types of technology that we use, 
and as that grows, we continue to grow.
    What we have done with respect to mission instead of 
constantly asking for more is we have tried to be as efficient 
and effective as we can be with what we have, and I think the 
2012 budget represents that. We have done a number of things to 
reduce the amount of money or cost to the taxpayers and at the 
same time make us more efficient. One is our vehicle fleet, 
something that did not have a life cycle replacement. We could 
never replace the fleet that we had over time, and we would 
have ended up having an outdated fleet that was inoperable, 
which would adversely affect our ability to control the campus 
or do other assignments. So with the help of the committee, we 
went to leasing with GSA, which saved a significant amount of 
money. It also enabled us to have a refreshed fleet and one 
that can be sustained over a period of time.
    In the 2012 budget, when we were asked to staff for 
security reasons the new Federal Office Building 8, which would 
require us 9 new positions, instead of asking the committee to 
increase our police department, we scrubbed our civilian side 
and we said, these are positions that we no longer need. We 
took 9 of the 22 positions that we abolished and reallocated 
them to our sworn side to use them for security for the 
building. We are however asking for an increase in salary to 
pay for that, but we did not increase the size of our force. 
The remaining 13 we reallocated to use for the opening of our 
new radio modernization project, where we can staff civilian 
dispatchers.
    Those are things that we have done to show that we 
constantly scrub our programs.
    Another great example of that was we scrubbed a program 
that was very robust after the anthrax and ricin incidents. 
Based on the mitigation strategies and technologies that we 
were currently using, we saw that we could restructure that and 
meet the current needs while addressing new risks and saved 11 
positions. We took those 11 positions and got rid of a very 
expensive alarm-monitoring contract, using our own employees 
now where we can supervise for better efficiency and 
effectiveness in response to alarms, and we looked at our DOL, 
our Department of Labor workers' compensation list. We brought 
back officers who could not perform the functions of police 
officers anymore, but now could perform those civilian duties 
and responsibilities, which saved us money.
    So those are just a few of the things that we have done 
within our agency to show that we are not about having more, 
but we are also about scrubbing what we have and utilizing what 
we have.

                           DEFINE THE MISSION

    Mr. Crenshaw. During the anthrax, is there some advisory 
board that helps you define your mission? Or does somebody say, 
now you have to go deal with anthrax; or, now that we are going 
to fix up the Dome, that is an expanded mission. Is that 
something that you all decide or some broader metamorphosis or 
change in your mission?
    Chief Morse. Well, what we instituted when I became Chief 
was a business process for everything. We wanted to be able to 
come to the committee and justify and validate everything that 
we were doing. So we instituted a business development, a force 
development process for the agency that is built on the risks 
that we face. So our budget is directly toward mitigating risk.
    Now so what we would do is we do an environmental 
assessment, what is the intelligence, what are the threats that 
we face, what are the current operations, what are the gaps, 
and we look at each one of our bureaus, and we scrub the 
programs to see if they meet that requirement. If we don't need 
them anymore, or if we need something new, we put those 
business cases forward, we review them within our organization, 
we prioritize them. And then we prioritize them in our budget, 
and then we turn to our Capitol Police Board who support us in 
what we do, and we make final decisions with respect to what is 
most needed within the budget restraints.
    Mr. Crenshaw. And if you had less money you would have to 
reexamine your mission. You could always say if we didn't have 
as much money, we couldn't do our mission. But that is 
something, that could be driven financially, as you say, in 
terms of priorities. If you have less money, you have got to go 
back and look, just like you assess them 1 through 10, what is 
more important than the other, and that would go into your 
consideration. If, for instance, there wasn't enough money to 
do everything you would want to do, you would have to say, as 
much as we would like to do that, we can't.
    Chief Morse. That is correct. And the 2012 budget reflects 
that. With our new initiatives we believe those are our highest 
priorities. Those are the things that make us run most 
efficiently and effectively and the one that mitigates the most 
risk.
    Mr. Crenshaw. I have got it. Thank you.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.

                     BOTTOM-UP INPUT ABOUT CHANGES

    Along that line, I guess we talk about mission, mission 
statements and objectives that we set up. All these things 
should be observed, and we have to evaluate those. So if that 
is the case, then when we ask that you add a couple more holes 
in your belt and tighten up your trimming of the budget, I 
think that we Members need to know for all those bucks that we 
don't have, that we are cutting back on, what is it that we are 
not going to get? People like to know what kind of a bang do we 
get for the buck. We are asking you to trim the budget. It is 
going to impact your mission statement, your mission, your 
objectives and things like that.
    We talk about being more efficient and move folks around 
and reconfigure how people are going to be moving around, and 
that is going to take some coordination with your own staff, 
the line staff and everybody else. Do you get feedback from the 
line staff in terms of, ``this is what we have to do, folks?'' 
Do you have any ideas to bring forward to share with us so that 
we can sort of reflect what it is that we need to do in a more 
efficient way, but it is coming from everybody, but not just 
from the top downward?

              ROLE OF CAPITOL POLICE BOARD DURING CHANGES

    And then the Board, I would like to know where the Board 
sits on effecting those plans, coordinating our two houses, 
whether they are--perhaps we need to have a private discussion 
on this, but whether our barriers are--how this can be 
improved, because every once in a while I get frustrated about 
the coordination or lack of coordination or cooperation. But 
that concerns me.

                   ADDRESSING LINES IN THE BUILDINGS

    One of the things that constantly keeps coming up--and all 
of us bear some responsibility--it comes from staff, visitors, 
and Members alike--that the lines into the House office 
buildings and the Capitol, it is constantly a source of 
irritation and things like that. But this subcommittee has 
gotten reports from your agency and the Sergeant at Arms, and 
we have talked about the problem at hearings, yet the lines 
seem to remain. On the good side, the CVC lines--trees are 
being planted to provide shade for those who are lined up 
during the hot days, and that is good. But I constantly get 
concern about the elderly and the babies who stand out in the 
line for too long in the sun. And this may sound silly, but 
have we ever thought about setting up these little misting 
black tubes, setting out the spray so that it reduces the 
temperature by 10 degrees? Those don't have to be on 
constantly, but just--and since this occurs all the time, and 
we get comments from Members, some of us don't want to wait in 
line, some of us don't want our staff to wait in line, yet you 
have a duty to perform. So we put you in a Catch-22. That is 
not fair.
    But I would like to know whether you have a practice of 
taking a census of each point that appears to have some 
problems, a census of when these things happen; do you have a 
need to have more information from Members when we say we will 
have 20 folks coming through to our office rather than to CVC? 
Does that information come through? Is there sufficient time? 
Do you coordinate with the CVC in terms of knowing what groups 
would come through the building? Because they have a format 
where people have to register, preregister what they are going 
to do, blah, blah, blah. Information sharing so that you have 
real-time information so you can anticipate different surges 
of--do you know when lobbyists come? Lobby groups, special-
interest groups come in droves. And it is their right, and it 
is their responsibility, and it is their obligation to come. 
Yet our system is not set up so we can take care of them in a 
timely manner.
    TSA had terrible line problems before, but they have sort 
of worked out over time how to move people through the lines, 
but it is still not perfect because we have put them through 
magnetometers. Are there other ways to coordinate so that you 
can move staffers, officers to the most high points and 
increase your staffing so you can move people through while 
other points are not affected?
    So it may require a lot of communication, a lot of 
planning, preplanning to do that, but it seems to me that that 
kind of planning, census taking, getting information from 
different groups, including Members, because if we want to be 
able to do certain things, then we have a responsibility to 
share information in a timely manner so that we can move our 
people through, too. So I want to make sure that we partner 
with you and not constantly--a point in time that irritated a 
lot of that will have to be shared responsibility. So I would 
be interested in what your thoughts are and if you think that 
this is going to be a necessary step in order to have a plan 
that is going to be responsive, because our airports have more 
staff at Easter, Christmas and all those points where people 
know they will travel. I think we should be able to do that 
ourselves, too.
    Chief Morse. All right. On the first item, with respect to 
input from--at all levels, part of our business process is 
inclusiveness. So everything that we do involves input at the 
lowest levels and is developed all the way up through the chain 
of command until it gets into a business case development and 
then, as reviewed by the higher levels of the police 
department, are then prioritized.
    Mr. Honda. Let me interrupt you for a second. If I talk to 
the officers on line, they will say, yeah, we do. Okay. And 
they are pretty honest. But if they say, we do, but it is 
through our stewards or through our representative supervisor, 
that is not really enough because it is not coming right down 
to the line staff that experiences it on a daily basis. That 
refinement I would like to know. I hear what you are saying.
    Chief Morse. Well, there are certain projects. For 
instance, we will actually pull line officers off. But the 
chain of command is a way to have direct interaction between 
our sergeants and the officers if there are any problems or 
issues that can be pushed up through the chain of command. But 
there are projects in which we utilize them.
    Mr. Honda. This is not about affecting a crime. It is about 
creating a plan and getting input from the bottom up.
    Chief Morse. Yes, sir. With respect to Board input, when it 
comes to security, the Capitol Police and the Capitol Police 
Board, who has oversight with respect to security, will review 
and assess the information that is provided and make the 
determination based on what we believe is most important to the 
safety and security of the campus, with the current or emerging 
threats that we know of.
    Mr. Honda. Is that meeting run by agenda?
    Chief Morse. Yes. Capitol Police Board meetings are run by 
agenda.
    Mr. Honda. Minutes are taken?
    Chief Morse. Yes.
    Mr. Honda. Is it public?
    Chief Morse. No, sir.
    Mr. Honda. Okay.
    Chief Morse. The lines in the buildings--and Mr. Crenshaw 
talked about mission--the lines at buildings are related to 
mission requirements because we work with them. We use as much 
efficiency as we possibly can. Lines come and go. So we try to 
staff them at the level that we can sustain a healthy flow of 
people throughout the day without exceeding an extraordinary 
amount of overtime. So we don't have enough officers to staff 
every single magnetometer post at every single building all the 
time, nor is it always necessary.
    Mr. Honda. Sir, if I may.
    Mr. Crenshaw. You may want to let Mr. Calvert ask a couple 
questions.
    Mr. Honda. Just on that point quickly, and then I will wait 
for the rest to get a response later.
    I am not asking that you have staff you can additionally 
put on. It is not at every point you have security that you 
need full staffing.
    Chief Morse. Right.
    Mr. Honda. So to be able to know where pressures are, move 
staff through the day to that.
    Chief Morse. We do that. Yes, sir. We have a response plan, 
a screening response plan, for each one of our buildings that 
includes our supervisors, who will respond to doors if they are 
overwhelmed and staff all the posts in order to alleviate the 
lines.
    Mr. Honda. It is not respond; respond anticipatory or 
respond when things happen?
    Chief Morse. It is responsive to when it happens. We get a 
heavy line, we respond to it and try to clear it.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you.
    Mr. Calvert.

                             POLICE FUNDING

    Mr. Calvert. Thank you, Mr. Chairman.
    And, Chief Morse, thank you for taking the time to be here 
today. I commend you and the men and women of the U.S. Capitol 
Police, for your dedicated service. For us here in the 
Congress, the Library of Congress, obviously, the staff, and 
the millions of visitors we have here every year, you do a 
commendable job and secure and protect the Congress and the 
Capitol complex, which allows us here in the United States 
Congress to be the most open, accessible, and productive 
legislators in the world. And you are certainly partially 
responsible for that. So thank you.
    Unfortunately, as Chairman Crenshaw has pointed out many 
times, and many other chairmen of various committees, as we go 
through this appropriation process here in 2012, we have a 
funding issue. It is obvious to everyone in the country and the 
world, we are in a difficult economic environment. It is 
Congress' responsibility, and specifically this committee's 
responsibility, to make hard decisions and to exercise spending 
discipline across the Federal Government so that we can reclaim 
some fiscal order. And that includes our own activities here in 
the legislative branch, and, by extension, the Capitol Police 
is a significant part of that budget. I don't know what 
percentage of your budget is personnel. Approximately--what is 
it? I am curious.
    Chief Morse. About 80 percent.
    Mr. Calvert. About 80 percent.
    Your fiscal year 2012 budget request states that the 
Department used a force development process during your fiscal 
year 2012 budget process. Some of your fellow legislative 
branch agencies, as you probably are aware, are using a zero-
based budgeting process where the agency starts from a zero 
base on all program projects and activities. It analyzes for 
its needs and rebuilds that budgeting process every year. I 
used to do that in my business life.
    I know that security is a different world, and certainly 
the government is a different world, but have you considered 
using a similar budgeting process as you go through this 
process--I know it is a very complicated process of putting 
together your budget.
    Chief Morse. Yes, sir. We used a zero-base for our budget. 
The force development piece is to ensure that our budget is in 
direct line with the threats that are out there. So in other 
words, we are not asking for the want; it is more the need to 
address the current threats.
    So our budget is zero-based. We start at zero, and we 
build. We either develop new initiatives, or we scrub new 
initiatives through our environmental assessment, which is 
threat-based, to determine if the resources that we have are 
what we still need, or do we need to make it more efficient, or 
do we need a new piece of technology to take the place of 
people, or are we missing any gaps in security? So we use zero-
base. Our force development is to keep us on track with a 
threat-based budget.

            COORDINATION WITH OTHER LAW ENFORCEMENT AGENCIES

    Mr. Calvert. Okay. One thing that I am curious about as you 
go through your budgeting process and try to determine how to 
maintain the best security within the parameters that the 
budget will allow, there are probably more police or security 
here in Washington, D.C., than in any city in America. We have 
the Capitol Police, we have the D.C. Police, we have the Secret 
Service, and on and on. What kind of coordination or force 
flexibility, I would call it, is there between these various 
security forces that you can use that help to optimize the 
efficiencies of all these various security forces? It seems, 
you know, you take certain areas of D.C., they are practically 
tripping over each other, and you wonder what kind of 
coordination is taking place between these various agencies and 
various folks that we can optimize them efficiently to use the 
personnel that we have efficiently without having to 
continually add more people for more missions. Is there 
communications with these folks?
    Chief Morse. Yes, sir. There are actually several means of 
communication that we have with the multiple agencies here in 
the District of Columbia. As an example, we have liaison 
officers in most of the primary jurisdictions within the 
Washington, D.C., area to include intelligence services. So 
that is one way that we stay connected within their agencies. 
And another way that we do it is we have agencies who are with 
us within our command center on a daily basis so there is no 
overlap in mission requirements. If there are assets and 
resources that we can share, we, in fact, do, and often do with 
respect to motorcades, demonstrations and large events.
    Mr. Calvert. The point I am getting at, of course, is there 
a way to save on your personnel costs? Especially on your 
overtime costs, as we are looking at that, it is a significant 
number. I guess there is no predicting when you need to use 
overtime. But whether or not you can utilize other operations 
that are taking place, other folks that are in security 
operations nearby to help out, to help become more efficient, 
because I have seen and you have or you see a Park Police 
officer passing a Capitol Police officer or, others, and you 
wonder if there is any kind of real coordination. Is it just 
folks doing their job?
    Chief Morse. For our specific mission, there is no cross-
utilization, but there are events, demonstrations, and 
activities in the city where we do cross-utilize, which saves 
each of us resources. And many times an agency will have a 
resource that we may not have or vice versa, and that is always 
communicated, and that is always utilized. And it works very 
well.
    Like I said, we have people embedded in those 
organizations. They are with us. So that communication is 
pretty quick and pretty rapid response if needed.
    Mr. Calvert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you Mr. Calvert.
    Mr. Bishop.
    Mr. Bishop. Thank you very much, Chairman.

                       SAFETY IN DISTRICT OFFICES

    Chief Morse, let me just say that I commend the Capitol 
Police for your work around the clock to ensure that the 
Capitol complex as well as the House and Senate office 
buildings are safe and secure. You have a tough job, and I 
commend you for your efforts at doing that.
    A longstanding concern of mine has been the safety and 
security of our district offices and staff. Of course, that was 
heightened by the recent incident involving our colleague Gabby 
Giffords. Now it is obvious that it is more vital that we put 
into place the necessary security measures to make sure that we 
have an appropriate balance between having our constituents 
have access to us and having security for them as well as 
ourselves and our staff.
    It seems, however, that the resources that are necessary to 
make that happen are not being appropriately put in place for 
the physical security for our district offices, for example. 
Like everybody else, we are having to tighten our belts in 
terms of fiscal needs. But at the same time, some priorities I 
would think would have to be established. Just as you are 
having to ask for additional funds because of your mission 
requirements, it would appear that as part of your duties in 
protecting us in conjunction with the Sergeant at Arms, that we 
will have to have some additional resources in order to have 
security for ourselves and our constituents.
    Do you recommend that we need to have additional resources 
so that we can improve the physical security of our offices? I 
know it is a real challenge, but don't you think that the 
Congress as an institution needs to address that issue more 
closely? Should we be asking each Member to pony up out of 
their Member's representation allowance, or should there be 
some institutional security funds available for protecting 
Members and their constituents and staff?
    Chief Morse. Well, first I want to say that the Members of 
Congress and their staff are very important to us, whether they 
are here on the Capitol campus or whether they are away from 
here. And I think that we--especially since the tragic incident 
in Arizona--have done everything that we can possibly do as an 
agency to assist you and your staff with means to safeguard 
yourselves and your offices.
    We are continuing to develop ideas and things for you to 
safeguard yourselves. And I think the House Sergeant at Arms 
here on the House side--and not to speak as if he is not in the 
room. He is right behind us here--but Mr. Livingood has spent 
an extraordinary amount of time and hard work in ensuring that 
the information is provided to your staff and district offices 
and that communication is there to achieve success and safety. 
So with the law enforcement coordinator program, with the 
ability to send someone very quickly to do an assessment of 
your district office, and then whether that meets your needs or 
not, it was a rapid response to do so.
    Mr. Bishop. I appreciate that very much. I think that the 
assessment was timely, and it needed to be done. But now that 
we have gotten the assessment reports, invariably they require 
the expenditure of funds to put in place many of the security 
measures. Many of them don't require money, they just require 
good practices. But some of them will require erecting physical 
barriers and other things like lighting that will require 
funding.
    Chief Morse. My approach to that, being in the fiscal 
environment that we are, would be very similar to how the 
police department and the Capitol Police Board for the safety 
and security of the campus has to weigh what is the highest 
priority. In order to do a thorough assessment of your office, 
the list will be excessive, and our list is excessive, too. But 
because we can minimize the risk significantly with only one or 
two, we don't have to do everything. We would all like to be 
able to do everything, but we simply can't.
    So to be more helpful to you, and I think to be more 
helpful to the district offices, as a part of our assessment or 
review of those assessments, to perhaps give you a priority: If 
you had 20 items, which would be the most effective and 
efficient without draining your fiscal resources. So erecting a 
fence may be a wonderful idea around your district office, but 
there may be some less expensive, more quality safety and 
security things that we could do with your district office that 
wouldn't cost as much. So we would be happy to offer that as an 
agency to help prioritize those things.
    Mr. Bishop. I recently received an assessment for my 
offices, and after some period of consternation with ADT, we 
did get a good recommendation from the Capitol Police, who 
actually came down and did the assessment. They did prioritize 
it as well. But even the number one and the number two 
priorities often will require expenditures of money when our 
budgets have been restricted 5 percent as a result of the 
fiscal constraints that we are under.
    Should there be a separate legislative branch line item for 
security for Members and their constituents that is separate 
and apart from the Member's representation allowance? In other 
words, based upon recommendations by your professional staff 
and the Sergeant at Arms, should there be a fund--a minimal 
fund, of course--that should be available to upgrade security, 
such as lighting required in district offices or erecting 
barriers or doors or window glass in district offices that 
could be paid for as a security measure as opposed to our MRA?
    I would just really like to get some insight and some 
suggestions from you, because I think that as an institution, 
we have got to grab this issue and deal with it because of the 
reality in which we live.
    I will save my additional questions for the next round.
    Mr. Crenshaw. So many things were pointed out with those 
assessments, that pointed to just our sense of common sense 
about where we locate. I know in our office, we have had that 
kind of assessment, and it probably makes us think that there 
are some office spaces more secure than other office space. And 
I think we all have to take that into consideration. Rather 
than if we all went out and leased the least secure space, and 
then somehow expected somebody to come in and fix it all up, it 
would make more sense to say, let us go find a place that may 
be more secure to start with. And I think we will all start 
thinking about that, that maybe we didn't think about that 
before this year.

                            NEW INITIATIVES

    Let me ask a question, Chief. When we have these informal 
conversations, we talked about some new initiatives that are 
somewhere between $12- and $14 million. Mr. Honda was here. If 
you had to absorb those new initiatives and you didn't have any 
additional revenue--how would that impact what you do?
    And I would like to even take that one step further and 
say, if last year you got $340 million, and you ended up with, 
just hypothetically--3 percent less, which is about $10 
million, you would have that much less money. And when you 
talked about zero-based budgeting, tell us about how you would 
go through that. If you had $10 million less next year than you 
had last year, as you kind of plan how you are going to spend 
that money, how would that impact you? And what would be some 
of the considerations you have made?
    I know you have talked, again, informally about some of the 
things you all have done from an administrative side. You all 
have certainly addressed this whole cost containment and cost 
effectiveness. But tell the subcommittee what impact would that 
have? It would probably impact your mission. But go through 
that, if you had absorbed some of the new initiatives that you 
had asked for, but also you had less money than you had last 
year.
    Chief Morse. Well, doing the zero-based budgeting and 
keeping the budget strictly threat-based, a risk-based budget, 
it makes it very, very tight with respect to when you make cuts 
and how that adversely affects security. So when we look at 
what types of savings would be derived from making cuts, they 
can be significant, but they adversely affect security. So we 
can defer, for instance, life cycle replacement costs, but what 
happens is you continuously defer that, eventually you don't 
have a piece of equipment that is operable. You don't have a 
piece of equipment to repair it. You don't have a contractor to 
repair it. Or you have to take it off line. Then that adversely 
affects accessibility to the buildings, and it adversely 
affects security. It also sets you up for a long-term larger 
amount of money, which is something we have tried to avoid. And 
that is why when I became Chief, we looked at everything that 
wasn't on a life cycle plan. We looked at vehicles. We looked 
at technology. We looked at vests, our ballistic vests, and 
motorcycles, uniforms, all those things; and we got them into a 
life cycle plan so that we would not have to come and ask for 
large amounts of money to replace them in our budgets, so that 
we would incur these costs over a period of time.
    So when you cut that deep into the budget, the way we have 
it designed now, zero-based and threat-based, when you cut that 
much, you are cutting people, which actually increases the 
amount of overtime, because if you don't change your mission, 
you don't reduce your mission, and you cut people, the overtime 
bill just keeps growing. Or you have to cut physical securities 
or technologies which are also adverse to security.
    So it is very significant. That amount of cut is very, very 
significant to our budget. It is not to say we can't do it, but 
there are significant impacts that come with that.
    With respect to the new initiatives, we look at these new 
initiatives as some of which belong to us solely. For instance, 
the Maximo system upgrade. That is an upgrade to our asset 
management system. Now, that helps us alleviate an audit 
finding, a weakness within our agency. But that Maximo could 
also be used or integrated by other legislative branch 
agencies. So there is an overall cost savings to the 
legislative branch. But with respect to our agency, that is 
something that we would forgo. A travel management system is a 
solution to an audit item based on a weakness within our 
agency. That is something we could forgo.
    When you look at Dome skirt, you look at utility tunnels, 
these are necessary restorations that just cannot--they must 
happen. The infrastructure has degraded to a point or the 
facilities have degraded to a point where they need to be 
repaired. But when we get to that point, they also require 
security. So that is something that we absolutely need to be 
able to do. And then when you look at garage security, that is 
a vulnerability. That is risk-based and something that is very 
necessary.
    And then when you look at creating new missions, I guess we 
all have to be cognizant of that. Every time that we create 
something new--and this is not to be critical of any of the 
decisions, because certainly they were good decisions, but when 
you have mergers, when you have openings of facilities, when 
you have continuous openings to new facilities, the agency will 
grow. And any time we grow, that has a tail to it, and that 
tail could be facilities, it could be people, overtime, 
salaries, general expenses, and all that has to be weighed in 
whenever we grow.
    So when you talk about cuts, we have to cut that mission, 
and that would be one of the first things I would do is cut 
mission. And now that we know what mission is, that means door 
closures, that means access points for vehicles, that means 
changing the way that we do business on the Hill. And we are 
here to try to facilitate that business and make it as orderly 
and easy as possible for the Congress and the visitors. But 
security versus mission load, we would cut mission first, not 
security. I hope that answers the question.
    Mr. Crenshaw. I think that is very helpful. And I think we 
all recognize, security, it is hard to ever be 100 percent 
secure. We have talked about that before in all kind of 
different ways. Even now on the floor, we are doing Homeland 
Security, so we are dealing with the security of America. And 
we are doing things differently. There is always the 
possibility that we are not as secure as we wish we were. And I 
appreciate you thinking that through and trying to find some 
balance, because there is this sense of fiscal responsibility 
on the one hand that there is only so much money, but on the 
other hand we want to be secure.
    But, I guess it is relative in the sense of just how secure 
we can be. And as long as you are thinking that through in 
terms of what the mission is, then that is helpful. But you 
recognize, like we do, that these are times when we don't have 
the luxury of doing all the things that we might like to do, 
and we have got to find some balance in there.
    Mr. Honda.
    Mr. Honda. Thank you.

                            EVACUATION PLANS

    In my opening comments I talked about security also. And in 
terms of life safety for our visitors, our staff and our 
Members, ambulatory and those who are physically challenged, 
handicapped, I have been trying for a few years now to 
understand and have a master plan, for lack of a better word, 
evacuation. But I think it is more than just evacuation, 
because to have a plan for evacuation, you have to know who is 
where, how many, what buildings, and have all that data present 
and be able to watch that in real time and be able to 
communicate not two ways, but multiple ways in real time so 
that folks who are responsible for buildings and everything 
else like that will have immediate information.
    So is there a plan for that kind of data and knowledge and 
function to have the security of knowing who is coming through, 
and having that number, and understanding in times of 
evacuation, know how to move people from floor to floor, from 
exit to exit, and move them in an efficient way in real time? 
Is there a master plan to do that? Is there a cost to that? And 
is there a timeline for which you are looking at making sure 
that these things come into place?
    And then who decides on the evacuation protocol, what would 
it look like? Who decides that? We have you, the Sergeants of 
the House and the Senate, the Architect. There doesn't seem to 
be a point of ultimate responsibility unless it is this 
committee. If it is this committee, then I sure want to know 
the answer more quickly. But, you know, who is ultimately 
responsible for that kind of planning and response? And is 
there ultimately a master plan that has been developed and 
designed that will do that?
    Chief Morse. Okay. With respect to who is in charge, the 
Capitol Police and the Capitol Police Board, with their 
emergency management agencies.
    Mr. Honda. They are ultimately responsible then?
    Chief Morse. I think so. I think we are both. You know, me 
being an ex officio member of the Board, the Capitol Police 
Board, with their entities of emergency management. We work 
collectively together to ensure that we have evacuation plans, 
and that those evacuation plans and other safeguards are 
communicated and trained within the Capitol community.
    Mr. Honda. So they are the ones asking for this and 
ultimately get it and have that master plan for the movement of 
people in and out of our buildings and for evacuation.
    Chief Morse. Well, I think the plan that we have is one 
that we have collectively.
    With respect to technology, we have looked at technology. 
We have looked at a way to integrate that into our--if you 
will, our manual plan. And you know, we could certainly let you 
see that and, you know, the costs associated with that and how 
it would be integrated. But right now we emphasize the training 
to our congressional community, our police officers, and we 
practice that. And that is where we are right now.
    Mr. Honda. Thank you.
    I don't think we have a master plan then. I respectfully 
disagree, because, one, it doesn't feel like there is someone 
ultimately responsible for coming up with the costs, ultimately 
responsible for coming up with the plan. We may have two 
Houses, and the responsibility is dissipated in a Board or in 
this committee.
    So I would like, if it is a closed-session type of a 
meeting that we need to have because of security, I think that 
that is something that we should have, because every year we 
become more and more not lax, but, you know, vulnerable in 
thinking that every year we are getting by without major 
incidents. I want to make sure that we are providing sufficient 
resources for that to happen. And I guess I am just asking what 
does that plan look like and what is it going to cost, outside 
of what the budget that you have, because if we know, if an 
incident happened and we don't pay for it, then it is our 
problem.
    Chief Morse. I would be happy in a closed session to show 
you what that is and give you the costs associated with it.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you.
    Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.
    And having this discussion makes me more appreciative of 
the job that you have, the challenges that you have, and the 
challenge we have, based on the resources that we are dealing 
with.
    And the discussion was about our district offices. I had an 
assessment like everyone else, and went through the priorities, 
and made some commonsense decisions. It didn't cost a lot of 
money, but I think it significantly improved the security of 
our district office and just the way we operate, using common 
sense and going into public forums and utilizing the local 
police. And I think in most of our districts, our local police 
forces are very receptive to the fact that--and to accommodate 
Members of Congress if they are in a large venue to provide 
security. And so we prioritize.
    And I guess I come back here to Washington, D.C. and you 
are in the same dilemma. You would like to create perfection, 
but there is no way to create that perfection. If we double 
your budget, you are still not going to create perfection.

             USING TECHNOLOGY TO BENEFIT THE CAPITOL POLICE

    We are in, as you know, a couple of wars in the world. I 
serve on the Defense Appropriations committee with the 
chairman, and we see these challenges that we have. And 
unfortunately, that enemy that we are fighting is here also in 
the United States, and you have to secure yourself against the 
potential terrorist attack and the rest. And so you have a 
challenge.
    But we need to make sure that we use our personnel as 
efficiently as possible, because that is where most of your 
money is. And technology is a wonderful thing nowadays. You 
know, you go to a Las Vegas casino, and they are probably one 
of the most secure venues in the world today. Or you go to 
Disneyland, and you don't think of an amusement park having 
significant security, but you have probably one of the most 
secure areas in the world in Disney World in Florida. If you 
look at the security operations there, it is just phenomenal, 
because they are concerned in many respects with exactly what 
you are concerned about, millions of visitors, and they have 
limited amount of resources that are out there in business to 
make a profit, but yet they cannot tolerate anything because 
that affects their business plan.
    So I wonder if you get outside help on technology, people 
that advise, say, those types of operations that handle 
millions and millions of visitors. They have limited resources 
because it is based upon how much profit they can derive. They 
have to put together a certain amount of money aside for 
security operations, but, yet, there is a concern, as we are, 
if any of their customers are killed or injured, that can 
destroy their business. So they are trying to get as close to 
perfection as they can, based upon the budgets that they are 
allocated.
    And I guess that is what the chairman is asking you. I 
mean, I know it is a challenging job, but, you know, many of us 
know a lot of these people that are involved in these business 
communities, and you may know them also, and in many respects, 
just out of their patriotic duty, may volunteer to come over 
and tell you what they do with technology today. It is 
absolutely amazing what they are doing in some of these venues. 
It is just striking technology.
    So I just put that on the table. And maybe you are already 
doing that. But certainly that is a way to save on personnel 
costs is to stay up with the technology that is available out 
there and be able to look at large groups of people, identify 
individuals that are suspicious or carrying things they 
shouldn't be carrying. And if anyplace should be on top of 
technology, it is us. And it can certainly save you, I think, 
on personnel costs, especially in the garages and things like 
that. When you are talking about technology, cameras are cheap 
nowadays, one-tenth of the cost they were 10 years ago. So I 
would just put that on the table and hope you are looking at 
that and ways to save money in the long term.
    Chief Morse. Yeah, if I could, I would like to highlight 
just one of those examples where technology, and finding 
technology, a different way to do something, has--will benefit 
our police department. And with the help of the committee, we 
were able to be funded and complete the project at the end of 
this fiscal year, and that is our truck interdiction and 
monitoring program, where technology with cameras and the 
ability to control intersections will allow us to reduce the 
number of people and the number of vehicles that we have for 
our diversionary and warning systems for deployment of our 
barrier systems. So it is a great example of reaching out for 
technology and another security model and bringing it here and 
safeguarding the campus and at the same time reducing the 
number of people, vehicles, which equates to gas and 
maintenance and purchases and all the general expenses. So we 
are very happy about that. We are also very appreciative of the 
committee's support with that project.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Crenshaw. Mr. Bishop.

          STATUS OF RACE AND GENDER DISCRIMINATION COMPLAINTS

    Mr. Bishop. Thank you very much, Mr. Chairman.
    Chief Morse, I understand that the Capitol Police has been 
and currently is the subject of allegations of racial 
discrimination and gender discrimination, and that there have 
been some complaints of reprisals, hostile work environment, 
and denials of promotions in the upper ranks. Of course, I am, 
along with a number of Members, very concerned about these 
allegations.
    In 2001, the Blackmon-Malloy case versus the Capitol Police 
Board involved 250 African American officers who filed a 
lawsuit alleging discrimination. Just recently, 50 African 
American officers filed a complaint in April of this year with 
the Office of Compliance. It is my understanding that that 
complaint is still pending.
    In 2008, the Inspector General pointed out in his 
assessment that the agency lacked a formal diversity program or 
an equal employment opportunity function. The IG highlighted 
that the same office that represents the Department in 
defending the EEO complaints also determines whether or not the 
complaint has legal merit once that complaint is filed and 
reviewed. The IG also recommended separating those two 
functions back in February 2010. The Department responded by 
hiring a diversity officer, Mr. Marcus Williams, whose job 
really was to try to eliminate the barriers to workforce 
diversity. Less than a year later Mr. Williams resigned, 
stating that the Capitol Police were not committed to abiding 
by a meaningful diversity program. The Department says that he 
left to pursue other opportunities. My understanding, however, 
is that there has been no replacement for Mr. Williams, and 
there is no diversity officer.
    Can you tell me what the status is in resolving these 
complaints? I understand some of them were settled, but what 
the status is of the most recently filed 50 complaints and what 
the status is of replacing Mr. Marcus Williams as the diversity 
officer?
    Chief Morse. Sure. First of all, as Chief of Police for the 
United States Capitol Police, I don't tolerate discrimination, 
harassment, retaliation at all, nor do our policies reflect 
that. And we are holding true to that.
    With respect to the diversity officer, we have an entry 
date of July 5 for our new diversity officer.
    Mr. Bishop. You have hired one?
    Chief Morse. Yes, sir. And may I also add, you know, that 
the idea of a diversity officer was one that we created and are 
leading the forefront in as an agency here in the legislative 
branch, so we believe that we should have a program where 
people can vet their concerns and where we can review and 
validate everything that we are doing to make sure that it is 
fair and equitable.
    And the Chief of Operations has led us in this effort on 
the operations side to do exactly that. We look at every 
selection process that we have. The Chief Administrative 
Officer looks at every selection process that we have. We have 
outside vendors who validate and justify these processes to 
make sure they are fair and equitable. Our promotional 
processes are done with an outside vendor, one who ensures 
fairness and equitability.
    Mr. Bishop. How is that reflected through transparency? 
What were the specific qualities of that person's background 
that made them suited for the position of diversity officer? 
Have you already named the person?
    Chief Morse. I haven't publicly named it yet. We are 
waiting on the entry date. But I think for us, and for me, the 
person who--the ultimate decision in hiring her was not only 
the education, background and experience, but her passion for 
helping organizations ensure that, you know, there is 
transparency and that perception issues are addressed. And her 
passion had to be one that was consistent with my passion, and 
it is. And to show that we are sincere about this, I thought it 
was important for her to work directly with me and out of my 
office to show a partnership and to ensure that people know 
that we are serious about our programs, we are serious about 
equality and fairness, and that we don't tolerate 
discrimination, harassment or retaliation.
    Mr. Bishop. Are there any goals? Because I noted that in 
2007, which was the last year for which statistics were 
available, that 14.3 percent of the Department's executive-
level positions were filled with minorities. Governmentwide 
that number was 16.6 percent. In 2002, no minorities were in 
the developmental pool, but I noticed that there was some 
improvement in 2007 so that 22 percent of the positions were 
filled by minorities.
    You have made some progress, but I am very interested in 
having some kind of reporting to this committee, as well as to 
have some demonstration of transparency so that the progress 
can be documented, because I think it is something that, under 
the Compliance Act, the Congress is obligated to comply with 
all of the EEO laws. I think that we ought to, as you suggest, 
be a model. We ought to be the drum major in implementing 
diversity and equal opportunity. And certainly you, as law 
enforcement, I think, would be stellar in leading that effort 
on our part. So we look forward to your continued work on that 
and some positive reports.
    Mr. Nichols. If I could just clarify a point.
    Mr. Williams is a consummate professional, and we were 
lucky to have him in our agency. He had a career opportunity to 
advance his career outside of this agency and took it. The 
remark that you referred to was attributed to him. It was not a 
quote by him, and I think it is important that we make that 
distinction. Thank you.
    Mr. Crenshaw. I have got some questions I will submit for 
the record. But I don't have any more at this time.
    Mr. Crenshaw. Mr. Honda, do you have any more questions?

                      BICYCLE THEFT IN THE GARAGES

    Mr. Honda. Yes. A couple of quick ones, and then I will 
submit the rest of them for the record and response in writing. 
More recently, I understand there has been some complaints 
about thefts of bicycles in our garages, and it is a question 
in my mind is if we have officers at points of access, ingress, 
egress--I probably know the answer to my question--how is it 
that these bikes are being stolen from the garages?
    And some of the folks would like to take their bikes, with 
their Member's permission, into their office. So some Members 
are able to do that because they are Members. But if the 
Members are willing to have the staff do that, is there a 
problem with that? And what is the policy on that? Or is that a 
recent phenomenon that you are looking at in terms of resolving 
it?
    Chief Morse. Well, first of all, I think that statistically 
this is not a persistent problem, and this was a spike for a 
short period of time. And our investigators are working very 
hard to identify a suspect in these particular thefts. But what 
I can say is that I don't know the particulars of each case, 
but in one example the bike wasn't even locked. But also, I 
know as a person who has worked the street that bike locks can 
be easily defeated and very stealthfully defeated.
    But I think that Capitol Hill is very safe for people to 
bring their bikes, enjoy their bikes and place them here. And I 
can tell you that if you are a thief, we will eventually catch 
up with you, and we will prosecute you.
    I remember most recently we had within the last year a 
theft from an auto situation that was ongoing, and we 
identified a suspect, and we arrested a suspect, and that 
person has been recently incarcerated for a long time. But I 
can also say that he probably should have been incarcerated 
when we caught him because of his history.
    So we work very hard to close these cases, and whenever we 
see a spike like this, our investigators take a very hard look 
at it, and we try to close them very quickly.
    Mr. Honda. Are garages by floors covered by cameras?
    Chief Morse. In some cases the bike racks would be within 
camera view, but that is not the primary goal of the systems, 
which are to focus on the access point itself. So unless the 
bike rack or the bike or whatever property is being taken is in 
that camera zone, then it wouldn't be seen, obviously. But the 
focus of the cameras are stationary at the access points.
    Mr. Honda. Like doors to the building and beside the 
garage?
    Chief Morse. Right.
    Mr. Honda. The racks can be placed in those areas?
    Chief Morse. If they could be placed in those areas, which 
is, you know, an architect's question, or a facilities 
question, then, you know, that might certainly be one way to 
see someone take something. But I don't know that--personally 
know that there is a camera watching them all the time.
    Mr. Honda. Well, I would hope that there would be a 
recommendation.
    By the way, for the record, I support Mr. Bishop's concern 
about pursuing of diversity and making sure concerns that he 
has are addressed also.
    Mr. Crenshaw. Mr. Bishop.

                               PRIORITIES

    Mr. Bishop. Thank you very much, Mr. Chairman.
    I don't have a specific question. I just want to make a 
sort of a closing statement to you. You have requested 
$387,600,000 for fiscal year 2012, which is an increase of 13.9 
percent over the enacted level for fiscal year 2011. You have a 
tremendous challenge that you are faced with, and as we look at 
our fiscal challenges, we have to establish some priorities. I 
believe that the safety and security of the people in and 
around the Capitol--the people that you are obligated by 
mission to serve and protect--ought to be of the highest 
priority. I think that your increase is a very modest request. 
I think it reflects fiscal realities, but I think it is 
something that we ought to support.
    I don't know if ultimately we can or we will, but my view 
of it is that your function and your mission area is of the 
highest priority not because Members of Congress are here, but 
because the people who come to meet with and to interact with 
Members of Congress and people who come just to see their 
Capitol deserve it. I think that in a free society, in a 
democracy, that we ought to have the security that allows them 
to do just that. I therefore would advocate very strongly for 
the amounts that you are requesting in the budget, even though 
I personally don't think it is sufficient to discharge the 
mission that you have on your shoulders.
    Mr. Crenshaw. Well, thanks to the Members. And thank you 
all for being here today for your testimony. I think we all 
have a better understanding of just how difficult and complex 
the job that you all face every day. But we thank you very much 
for what you do.
    The committee now stands in recess subject to the call of 
the chair.
    [Questions submitted for the record by Chairman Crenshaw 
follow:]

[GRAPHIC] [TIFF OMITTED] T5845D.013

[GRAPHIC] [TIFF OMITTED] T5845D.014

[GRAPHIC] [TIFF OMITTED] T5845D.015

[GRAPHIC] [TIFF OMITTED] T5845D.016

[GRAPHIC] [TIFF OMITTED] T5845D.017

[GRAPHIC] [TIFF OMITTED] T5845D.018

    [Questions submitted for the record by Ranking Member Honda 
follow:]

[GRAPHIC] [TIFF OMITTED] T5845D.019

[GRAPHIC] [TIFF OMITTED] T5845D.020

[GRAPHIC] [TIFF OMITTED] T5845D.021

[GRAPHIC] [TIFF OMITTED] T5845D.022

[GRAPHIC] [TIFF OMITTED] T5845D.023



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Ayers, S. T......................................................    93
Billington, J. H.................................................     1
Boarman, W. J....................................................   145
Clark, Darryl....................................................   237
Dizard, Robert, Jr...............................................     1
Dodaro, G. L.....................................................    55
Elmendorf, Doug..................................................   179
Haas, K. L.......................................................   285
La Due Lake, Ronald..............................................   213
Livingood, Wilson ``Bill''.......................................   285
Marcum, Deanna...................................................     1
Morse, P. D., Sr.................................................   373
Pare, J. G., Jr..................................................   201
Roth, Dennis.....................................................   259
Schniderman, Saul................................................   227
Schuman, Daniel..................................................   245
Strodel, D. J....................................................   285


                               I N D E X

                              ----------                              

                          Library of Congress

                                                                   Page
Asian Division of the Library of Congress........................    10
Centralized Versus Dispersed Budget Function.....................    16
Chinese Collections..............................................    11
Closing Remarks..................................................    22
Collection Development Efforts in China..........................    11
Congress as Greatest Patron of the Library.......................     3
Constrained Budget Requests......................................     4
Copyright Costs and Revenues.....................................    16
CRS Funding Request..............................................    12
Cutting Funding for Core Services................................     5
Cuts at Other Libraries..........................................    14
Essentials Versus Non-Essentials.................................     9
Explosion in Publishing..........................................    15
Federal Research Division........................................    16
Fiscal Challenges................................................     4
Flat Budget Versus Reduction.....................................    14
Ft. Meade, Module 5..............................................     5
Impact of Cutting Subscription Services..........................    13
Information Sharing by the Library...............................    21
Innovative Infrastructure in the Information Age.................     5
Investing in Information.........................................    13
IT Security Request..............................................    17
Japanese Collections.............................................    11
Library's Budget Request.........................................    12
Library of Congress Caucus.......................................    21
Mandatory Pay for Library Staff..................................    12
Mandatory Within-Grade Increases.................................    12
New Russian Library System.......................................    19
Open Source Intelligence Repository..............................    14
Opening Remarks:
    Chairman Crenshaw............................................     1
    Mr. Honda....................................................     2
Opening Statement of the Librarian of Congress...................     3
Open World Alumni Network........................................    18
Open World Leadership Program....................................    17
Pacific Rim Asia Representation in the Collections...............    11
Partnering with the Government Printing Office...................    20
Personnel as Substantial Component of Library Budget.............    10
Preservation of Digital Content..................................    22
Preservation of Original Content.................................    21
Promoting Congressional Awareness of the Library of Congress.....    19
Questions for the Record:
    Chairman Crenshaw............................................    39
    Mr. Honda....................................................    43
    Mr. Price....................................................    47
    Mr. Bishop...................................................    50
Questions for the Record from the Chairman:
    Congressional Mandates.......................................    40
    CRS' Research Expertise......................................    41
    Pay Increases................................................    39
    Universal Collection Duplication.............................    39
Questions for the Record from Mr. Bishop:
    Digital Talking Book Program.................................    50
    Impact of Continuing Resolutions on Copyright Office.........    53
    Promotion of a Diverse Workforce.............................    52
    Veterans History Project.....................................    50
Questions for the Record from Mr. Honda:
    Books for the Blind..........................................    43
    Copyright Backlog............................................    46
    Office of Opportunity, Inclusiveness and Compliance..........    43
    Overseas Offices Safety......................................    45
    Private Funding..............................................    44
    World Digital Library........................................    45
Questions for the Record from Mr. Price:
    Open World Program...........................................    47
Retirement of CRS Director Dan Mulhollan.........................     3
Role of Overseas Offices.........................................    10
Staff Furloughs.................................................. 5, 10
Statement of the Director of the Congressional Research Office...    32
Statement of the Librarian of Congress...........................     6
Statement of the Acting Register of Copyrights...................    23
Strategic Importance of Overseas Offices.........................    10
Suicide Missions Described in Federal Research Division Study....    15
Telework Progress................................................    20
THOMAS Budget....................................................    20
Value of Copyright Deposits to the Collections...................    16

                 U.S. Government Accountability Office

                                                                   Page
Chairman Crenshaw's Opening Remarks..............................    55
Collection and Use of Rental Receipts............................    74
Duplication and the Role of Government...........................    77
Fiscal Year 2012 Request.........................................    79
Follow-up Briefing to Members....................................    77
Funding Model for Reimbursements.................................    76
GAO's Strategy for Addressing Mandates...........................    73
Improving Efficiency.............................................    71
Leasing of Space Within GAO's Headquarters Building..............    73
Legislative Branch Security......................................    75
Legislative Mandates.............................................    80
Mr. Dodaro's Opening Remarks.....................................    70
Presence in Iraq/Afghanistan.....................................    81
Professional Development Program.................................    81
Questions for the Record--Mr. Bishop.............................    87
Questions for the Record--Rep. Emerson...........................    91
Ranking Member Honda's Opening Remarks...........................    55
Recovery Act Monitoring..........................................    76
Role of GAO Field Presence.......................................    72
Staffing.........................................................    84
Statement of the Comptroller General.............................    58
Technology Assessments...........................................    82
Training and Development.........................................    83
Update on Disparities in Performance Appraisals between African 
  American and White Employees...................................    56

                     Architect of the Capital (AOC)

Capitol Dome Repair..............................................   114
Capitol Power Plant..............................................   117
Chair Opening Remarks............................................    93
Challenges.......................................................    95
CVC Tours........................................................   122
Energy Reduction Program.........................................   116
Fiscal Responsibility............................................    94
FOB-8............................................................   121
Garage Projects..................................................   119
Garage Security..................................................   119
Joint Responsibilities...........................................   114
Life-Safety Priorities...........................................   115
Measuring Energy Program Results.................................   117
Meeting Priorities...............................................   113
Need-Based Budget................................................    95
Opening Remarks--Congressman Honda...............................    93
Operational Budget/Staffing......................................   120
Prepared Statement--Stephen Ayers................................    97
Prioritizing Mission Goals.......................................   120
Priority Ranking.................................................   113
Questions for the Record--Chairman Ander Crenshaw................   124
    Capitol Building Presidential Inaugural Stands & Support 
      Facilities.................................................   129
    Energy Savings...............................................   128
    Energy Savings Performance Contracts (ESPC)..................   124
    Green the Capitol Office under the House Chief Administrative 
      Officer....................................................   127
    House Office Building Federal Office Building 8 (FOB 8)......   128
    House Office Buildings West Underground Garage...............   128
    Power Plant Collections......................................   130
Questions for the Record--Ranking Member Michael M. Honda........   131
    Cannon Office Building Renewal...............................   131
    Compliance Issues............................................   132
    Recycling in the Capitol Complex.............................   133
    Senate Reception Room........................................   133
    2011 and 2012 Projects.......................................   134
        Combined FY 2011 FY 2012 Potential Study, Design, and 
          Construction Funding Requests..........................   135
Questions for the Record--Congresswoman Jo Ann Emerson...........   138
    Green the Capitol Initiative.................................   138
Questions for the Record--Congressman Sanford Bishop.............   140
    Continuing Resolution Impact.................................   142
    Deferred Maintenance Backlog.................................   143
    Fiscal Year 2012 Budget......................................   142
    House Historic Buildings Revitalization Trust Fund...........   141
    Radio Modernization Project..................................   140
    Small Business Participation.................................   140
Utility Tunnel Improvement Program...............................   123

                       Government Printing Office

Chairman Crenshaw's Opening Remarks..............................   145
Congressional Printing...........................................   165
Delivery Schedules...............................................   157
Discrimination Complaints........................................   160
Diversity........................................................   168
Financial Mediation..............................................   162
Inspector General................................................   160
Management Levels................................................   167
More With Less...................................................   156
Mr. Honda's Opening Remarks by Mr. Bishop........................   145
Opening Statement--Mr. Boarman...................................   146
Overhead.........................................................   158
Paper............................................................   169
Personnel Guidelines.............................................   168
Prepared Statement--Mr. Boarman..................................   148
Printing Equipment...............................................   166
Printing for the 2013 Presidential Inauguration..................   164
Questions for the Record from Chairman Crenshaw..................   172
Questions for the Record from Mr. Honda..........................   175
Security.........................................................   159
Space............................................................   158
Unused Office Space..............................................   163
Web Site.........................................................   170

                      Congressional Budget Office

Opening Statement--Chairman Crenshaw.............................   179
Opening Statement--Mr. Honda.....................................   179
Opening Statement--Mr. Elmendorf.................................   180
Statement of Douglas W. Elmendorf................................   182
    Recent Funding History.......................................   183
    Some Details of CBO's Fiscal Year 2012 Budget Request........   184
Statutory Requirements...........................................   186
Buying Data......................................................   188
Projecting Budget Numbers........................................   189
Priorities.......................................................   192
Questions for the Record.........................................   194
    Statutory Requirements.......................................   194
    CBO Supplemental Funds.......................................   195
    Scoring of Bills.............................................   196
    Staffing.....................................................   200

                            Public Witnesses

American Association of Law Libraries............................   278
American Bar Association.........................................   270
Congressional Research Employees Association.....................   259
    Opening Remarks of Chairman Crenshaw.........................   259
    Opening Statements of Dennis Roth............................   259
    Recruitment Selection........................................   268
GAO Employees Organization.......................................   213
    Opening Remarks of Chairman Crenshaw.........................   213
    Statement of Ronald La Due Lake..............................   213
    Travel Savings...............................................   225
Library of Congress Professional Guild...........................   227
    Copyright Office.............................................   234
    Opening Remarks of Chairman Crenshaw.........................   227
    Statement of Saul Schniderman................................   227
National Federation of the Blind.................................   201
    Opening Remarks of Chairman Crenshaw.........................   201
    Future of Talking Books......................................   211
    Statement of John Pare.......................................   201
Sunlight Foundation..............................................   245
    Opening Remarks of Chairman Crenshaw.........................   245
    Opening Statement of Daniel Schuman..........................   245
The Employees Union Local 2477 of the Library of Congress........   237
    Bargaining Unit Employees....................................   243
    Opening Remarks of Chairman Crenshaw.........................   237
    Opening Statement of Darryl Clark............................   237

                        House of Representatives

Actions Executed Implementing FY2011 Continuing Resolution.......   312
Challenges in Fiscal Years 2011 and 2012.........................   312
Compostable Service Ware.........................................   323
Cost-Saving Efforts..............................................   337
Defense of Marriage Act..........................................   344
Defense of Marriage Act Continued................................   348
Defense of Marriage Act Continued................................   353
Defense of Marriage Act Continued................................   356
FY2011 Cost Cutting Initiatives..................................   336
FY2011 Initiatives...............................................   325
FY2012 Identified Cuts...........................................   325
House Financial System...........................................   343
Implementing Transparency........................................   347
Increased Coordination of Emergency Management...................   336
Increased Security...............................................   347
Law Enforcement Coordinator Program..............................   348
Member Security..................................................   351
Opening Statement--Daniel Strodel................................   312
Opening Statement--Karen Haas....................................   325
Opening Statement--Mr. Crenshaw..................................   285
Opening Statement--Mr. Honda.....................................   286
Opening Statement--Wilson Livingood..............................   336
Prepared Statement--General Counsel..............................   287
Prepared Statement--Legislative Counsel..........................   289
Prepared Statement--CAO..........................................   314
Prepared Statement--Clerk........................................   326
Prepared Statement--Inspector General............................   305
Prepared Statement--Law Revision Counsel.........................   300
Prepared Statement--Sergeant at Arms.............................   338
Questions for the Record.........................................   360
Safety Improvement Projects......................................   336
Sustainability Program...........................................   323
Sustainability Program Continued.................................   357
Wounded Warrior Program..........................................   343
Zero-Based Budgeting.............................................   313
Zero-Based Budgeting Continued...................................   355

                      United States Capitol Police

Addressing Lines in the Buildings................................   391
Bicycle Theft in the Garages.....................................   404
Bottom-up Input about Changes....................................   391
Capitol Police Mission...........................................   389
Coordination with Other Law Enforcement Agencies.................   395
Define the Mission...............................................   390
Evacuation Plans.................................................   400
New Initiatives..................................................   398
Opening Statement of Chairman Ander Crenshaw.....................   373
Opening Statement of Chief Morse.................................   374
Opening Statement of Mr. Honda...................................   373
Police Funding...................................................   394
Priorities.......................................................   405
Questions for the Record.........................................   407
Role of the Capitol Police Board During Changes..................   391
Safety in District Offices.......................................   396
Status of Race and Gender Discrimination Complaints..............   402
Testimony of Chief Morse.........................................   377
Using Technology to Benefit the Capitol Police...................   401

                                  <all>

</pre></body></html>
